<html>
<title> - NOMINATION OF JAMES W. HOLSINGER, JR., M.D., PH.D.</title>
<body><pre>[Senate Hearing 110-719]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-719
 
                             NOMINATION OF 
                  JAMES W. HOLSINGER, JR., M.D., PH.D.

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

   NOMINATION OF JAMES W. HOLSINGER, JR., OF KENTUCKY, TO BE MEDICAL 
 DIRECTOR IN THE REGULAR CORPS AND TO BE SURGEON GENERAL OF THE UNITED 
                                 STATES

                               __________

                             JULY 12, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
36-832 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JULY 12, 2007

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
McConnell, Hon. Mitch, a U.S. Senator from the State of Kentucky, 
  statement......................................................     2
Bunning, Hon. Jim, a U.S. Senator from the State of Kentucky, 
  statement......................................................     4
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     6
Holsinger, James W., Jr., M.D., Ph.D., of Kentucky nominated to 
  be Medical Director and Surgeon General of the Public Health 
  Service Department of Health and Human Services................     8
    Prepared statement...........................................     8
Mikulski, Hon. Barabara A., a U.S. Senator from the State of 
  Maryland, statement............................................    18

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Clinton, Hon. Hillary Rodham, a U.S. Senator from the State 
      of New York, prepared statement............................    39
    Letters of support...........................................    40
    Letters of opposition........................................    46

                                 (iii)

  


                             NOMINATION OF 
                  JAMES W. HOLSINGER, JR., M.D., PH.D.

                              ----------                              


                        THURSDAY, JULY 12, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
Room G-50, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, chairman of the committee, presiding.
    Present: Senators Kennedy, Mikulski, Murray, Sanders, 
Brown, Enzi, Isakson, and Allard.
    Also Present: Senators Bunning and McConnell.

                  Opening Statement of Senator Kennedy

    The Chairman. Good morning. We'll come to order. We 
congratulate Mr. Holsinger of Kentucky of being nominated to be 
the Surgeon General and we have two of our very distinguished 
colleagues and friends that are here to present it to the 
committee. We know their busy program and schedule so without 
further adieu, we'll recognize the senior Senator from Kentucky 
and the distinguished minority leader, Senator Mitch McConnell. 
We certainly welcome you and then we'll hear from Senator 
Bunning.
    We thank you for taking the time to tell our good nominee--
this is a very special recommendation you're getting. It's not 
often we have colleagues coming and making statements and 
comments in terms of support of a nominee so he's extremely 
fortunate and we very much welcome your assessment and whatever 
you have to tell our committee that you think would be 
advantageous to us. Senator McConnell? Dr. Holsinger, if you'd 
like to just introduce your family first and then we'll 
recognize Mitch. I understand they are rather extensive and 
members of families, large families, being the ninth member of 
a large family, I appreciate this but I think we reached new 
records today.
    If you want to just take a moment or several moments, 
whatever time but this is a special time, we know, for you and 
for them and I think to hear that is first priority.
    Dr. Holsinger. Thank you, Mr. Chairman.
    The Chairman. I think it just----
    Dr. Holsinger. Thank you, Mr. Chairman. I appreciate the 
opportunity to introduce my family that are here today. I've 
had the rare opportunity of having lived out my life in the 
company of a remarkable group of women. Dr. Barbara Craig 
Holsinger and I have been married for 44 years, my wife, 
Barbara. The fact that she has been married to me for 44 years 
represents her staying power, I think, and it's appropriate to 
recognize that. We are the proud parents of four daughters, 
several of whom are able to be here with us today.
    Our daughter, Dr. Anna Holsinger Bampton and her husband, 
Dr. James Bampton. Our daughter, Dr. Ruth Holsinger Lewellen 
and her family live in New Zealand and so, for obvious reasons, 
they're not able to be with us today but our daughter, the 
Reverend Sarah Holsinger-Freisen and her husband, Dr. Tom 
Holsinger-Freisen are here with us and she is en route to 
having our sixth grandson. Now, if anyone thinks that God 
doesn't have a sense of humor, we have four daughters and now 
six grandsons. Also with us is our fourth daughter, Rachel 
Holsinger. Rachel.
    Now, like everyone else, my life has been heavily 
influenced by the home in which I grew up. My father, Brigadier 
General James Holsinger is buried in Arlington National 
Cemetery but my 98-year-old mother, Ruth Holsinger, is here 
with us today and she's on this side. My mother, Ruth 
Holsinger. In a few short years, on June 15, 2009, a lucky 
President of the United States will have an opportunity to send 
her a 100th birthday card and we're looking forward to that 
celebration with great interest.
    Also with us is my mother-in-law, Barbara's mother, Betty 
Craig and she is the woman that has made every mother-in-law 
joke a bad joke because she treats me as her oldest son. I have 
a number of other friends and relatives here with us today. I 
just want to thank all of them for taking the time out of their 
busy lives to come and be here in support of me sitting before 
your committee. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    The Chairman. So, Senator McConnell, try and match that as 
an opener here, if you can.

                     Statement of Senator McConnell

    Senator McConnell. The only thing I can think of is that 
Dr. Holsinger doesn't have nearly as many grandchildren as 
Senator Bunning does, who must have--what's the latest count?
    Senator Bunning. Thirty-nine.
    Senator McConnell. Thirty-nine grandchildren. So match 
that, anybody in the room. Thank you, Chairman Kennedy----
    The Chairman. The Republicans are taking over here.
    [Laughter.]
    It could be the Irish Catholics that are ahead.
    [Laughter.]
    Senator McConnell. Thank you. Senator Kennedy, Senator Enzi 
and members of the committee, I appreciate the opportunity to 
be here today to introduce Dr. James W. Holsinger, Jr., the 
President's nominee to be Surgeon General of the United States.
    During his inspiring and impressive career, Dr. Holsinger 
has led the Nation's largest healthcare system, the 
Commonwealth of Kentucky's healthcare system and the Medical 
Center of Kentucky's flagship university. As Surgeon General, 
Dr. Holsinger would be the government's leading spokesman for 
public health. I've come to know him very well over the years. 
He is an outstanding individual with a lifetime of public 
service and I can't think of a finer choice for this office.
    Certainly no one is prouder today than Dr. Holsinger's 
wife, who you just met, Dr. Barbara Craig Holsinger and their 
daughters, Anna, Ruth, Sarah and Rachel. All of these folks 
have just been introduced--his mother and his mother-in-law. 
The whole clan is just about here. Their pride can only grow as 
he embarks on his greatest role yet in public service.
    Dr. Holsinger is currently a Professor at the University of 
Kentucky and teaches at both the College of Public Health and 
the College of Medicine. From 1994 to 2003, he served as 
Chancellor of the University of Kentucky, AB Chandler Medical 
Center. In that role, he oversaw several graduate schools and 
two hospitals. Yet, Dr. Holsinger has the bedside manner of a 
Kentucky doctor, he also has the skill and experience to lead a 
large agency, as the Surgeon General must, by virtue of heading 
up the U.S. Public Health Service Commission Corp and its 6,000 
members.
    By appointment of the governor, Dr. Holsinger served as 
Kentucky's Secretary of the Cabinet for Health and Family 
Services from 2003 to 2005. As Secretary, he oversaw Kentucky's 
public health system. He modernized the State's $5-billion 
Medicaid program that serves hundreds of thousands of 
Kentuckians.
    Dr. Holsinger served for 25 years at the Department of 
Veterans' Affairs, ultimately as Chief Medical Director and 
Undersecretary for Health at the Veterans' Health 
Administration. As Chief Medical Director, he ran the country's 
largest healthcare system, serving over 26 million veterans in 
all 50 States.
    Dr. Holsinger also served as Director of the VA Medical 
Center in Lexington, Kentucky. In 1993, he was awarded the 
Surgeon General's Medallion for Exceptional Achievement to the 
College of Public Health and Medicine. He earned his M.D. and 
Ph.D. in Anatomy at Duke and as a retired Major General in the 
U.S. Army Reserve, surely must have only one reservation about 
taking this job. He will have to wear a Navy uniform.
    If confirmed, Dr. Holsinger will be the Nation's 18th 
Surgeon General and the first from the Commonwealth of 
Kentucky. As Surgeon General, he will focus on educating 
parents and children about the risk of childhood obesity. 
Scores of people who have worked with him throughout this 
career can attest to his commitment to helping people live 
longer, better and healthier lives.
    My fellow Senators, there can be no debate on the breadth 
or depth of Dr. Holsinger's experience in medicine and public 
health. Being Surgeon General is a bit like being a doctor with 
a large stethoscope. The Office gives its occupant the power to 
recognize health trends across America and the bully pulpit to 
dispense health information for all.
    The nomination of Dr. James Holsinger is the right 
prescription to help America confront today's health challenge. 
I have every confidence he will succeed. I appreciate this 
committee's expeditious handling of this nomination and I look 
forward to his confirmation and I thank you, Senator Kennedy, 
for the opportunity to be here on his behalf.
    The Chairman. Very fine. Thank you very much. Now, we'll 
hear from Senator Bunning.

                      Statement of Senator Bunning

    Senator Bunning. Thank you, Senator Kennedy, Senator Enzi, 
the rest of the committee. Today it is my great honor to 
introduce to you Dr. James Holsinger, who has been nominated to 
be the next Surgeon General. Kentuckians are proud to call him 
one of their own.
    Dr. Holsinger's life has been dedicated to serving the 
Nation and improving the health of our citizens. His commitment 
to public service is outstanding. My colleague from Kentucky 
gave you his experience--26 years at the Department of the 
Veterans' Affairs, 31 years in the Army Reserve, Chancellor of 
the University of Kentucky's Medical Center and Secretary of 
the Kentucky Cabinet for Health and Human Services.
    I asked Dr. Holsinger what was the proudest moment of his 
time as Kentucky Secretary and he mentioned a couple of 
important accomplishments that I think show his dedication to 
healthcare. He said he was proud of helping pass legislation to 
fight obesity and to improve the health of children in our 
schools. In fact, on the 2006 School Food Report Card, Kentucky 
scored the highest grade of A, largely based on many of the 
changes Dr. Holsinger helped make.
    He also mentioned he was proud of modernizing Kentucky's 
Medicaid system without having to remove anyone from its rolls. 
Getting a handle on spending without cutting enrollment is 
quite an accomplishment, as we all know and Kentucky's effort 
can serve as a model to other States.
    Dr. Holsinger is well respected by many in our State and 
across the Nation for his hard work and dedication to 
healthcare. When people talk of Dr. Holsinger, they use words 
like integrity, conviction, honesty and ethical. In a letter of 
endorsement, C. Everett Koop called him an impressive choice. 
The Kentucky Medical Association said he is an excellent 
nominee. The Kentucky Hospital Association enthusiastically 
endorses Dr. Holsinger's nomination and says that his 
contribution to healthcare and numerous other things in his 
life will serve him well to lead the highest level of 
healthcare.
    I hope the members of this committee will look at Dr. 
Holsinger's record in public service and dedication to 
improving healthcare and come to the same conclusion that I 
have--that he would serve admirably as Surgeon General and be 
an asset to this country. Thank you, Senator Kennedy.
    The Chairman. All right. I want to thank both of you very 
much. You know you have many responsibilities and we are very 
grateful for your presence here and for the excellent comments 
that you've made. They've been very helpful to us. We thank 
you.
    We have effectively two tasks before us today. One is to 
see that the best possible candidate fills the position of U.S. 
Surgeon General. Today's hearing is to help determine whether 
James Holsinger is the right person to fill that important role 
but our second task is to see that the new Surgeon General has 
the independence needed to provide objective, reliable, 
scientific advice to the Nation. As the Nation's top doctor, 
the Surgeon General must be free from political interference.
    Sadly, in recent years, the reverse has been true, as 
revealed by former Dr. Carmona's shocking testimony, the Office 
of Surgeon General has been the victim of outrageous political 
manipulation during the Bush administration. So to restore the 
integrity and independence of the Office of the Surgeon 
General, I'm today introducing the Surgeon General Integrity 
Restoration Act and that legislation will one, require the 
nominee for this important position be drawn from a list of the 
Nation's most eminent physicians prepared by the Institute of 
Medicine, give the Office of Surgeon General budgetary 
independence by allowing the Surgeon General to submit budget 
requests directly to the public, Congress and to the President 
by passing manipulation by political appointees in the 
Department of HHS, allow the Surgeon General to hire his or her 
own staff directly without having to undergo political litmus 
tests and prohibit censoring the work of the Surgeon General 
for political reasons and bring greater transparency to any 
changes to the Surgeon General's reports and speeches, all of 
that for another time.
    But today, we want to make sure that we have the best 
possible candidate to be the Surgeon General for the United 
States and few positions in government offer the greater 
opportunity to improve the lives of so many citizens. The past 
Surgeon Generals who have used their power well include Dr. C. 
Everett Koop's historic and dedicated fight against the 
country's AIDS epidemic, Dr. Luther Terry's groundbreaking 
report on smoking that increased the American people's concerns 
about tobacco and led to a broad-based anti-smoking campaign; 
Dr. David Satcher's emphasis on the unacceptable racial and 
ethnic health disparities that continue to plague us. These are 
big shoes to fill.
    The next Surgeon General must be a strong champion of 
public health. At a time when the Nation is deeply polarized on 
so many issues, we need someone who can unite Americans and who 
can be trusted by all and we must be confident that the Surgeon 
General will put public health first and leave politics and 
ideology behind.
    At this week's testimony from former Surgeon General 
Richard Carmona showed that standard had not been met, far from 
it. His testimony showed that the Office of Surgeon General has 
become a morass of shameful political manipulation and 
distortion of science.
    Dr. Holsinger has the responsibility to provide strong 
assurances and a clear plan for seeing that these abuses are 
not repeated during his tenure, if he is confirmed. Many of us 
are concerned about aspects of Dr. Holsinger's record that 
indicate that Dr. Holsinger has let his ideological beliefs 
cloud scientific judgment and these concerns are serious at any 
time but all the more so in light of Dr. Carmona's alarming 
testimony.
    Many concerns were raised by a paper that Dr. Holsinger 
wrote in 1991 on homosexuality for a study committee at the 
Methodist Church. Dr. Holsinger wrote this paper from his 
perspective as a medical doctor and he drew on his medical 
training to analyze the scientific studies he cited. Yet as I 
read it, it cherry-picks the science and is widely disputed 
scientifically. For example, I recently received a letter from 
nine doctors, highly respected in their fields, including one 
of the authors of the papers cited by Dr. Holsinger's paper of 
1991, denouncing that paper as unscientific, biased and 
incredibly poor scholarship.
    Indeed, William Owen, a co-author of one of the papers 
prominently cited in the 1991 paper, stated recently that he 
was particularly incensed that Dr. Holsinger misrepresented his 
paper, which was actually written to help physicians feel 
comfortable in dealing with gay patients.
    Dr. Holsinger's paper is ideological and decidedly not an 
accurate analysis of the science then available on 
homosexuality. It is not even an accurate representation of the 
scientific papers, which it cites as authority. Dr. Holsinger's 
paper cherry-picks and misuses data to support his thesis that 
homosexuality is unhealthy and unnatural. For example, a 
disproportionate amount of the data Dr. Holsinger relies on in 
his paper is pulled from emergency room and trauma studies, 
which are not at all representative of the homosexual 
population as a whole.
    Dr. Holsinger also artificially padded his paper's 
bibliography by adding citations to three sources that either 
had nothing to do with either homosexuality or actually 
directly refuted his paper's thesis. This misuse of science 
gravely concerns me and I need to hear from Dr. Holsinger 
himself that he will not similarly misuse his position to push 
personal ideological beliefs over scientific research. We know 
that Dr. Holsinger has strong personal views, as we all do, 
about homosexuality. Our country is involved in an important 
national conversation about it and we will continue to have 
that conversation. We've heard reports of Dr. Holsinger's 
kindness toward people who are gay or lesbians and I have no 
reason to doubt any of these individual accounts of 
benevolence. But as Surgeon General, Dr. Holsinger will be 
responsible for providing the best medical and scientific 
information to all Americans and we must be assured that he can 
do so, freely, free of interference from his personal views.
    Dr. Holsinger brings with him a wealth of experience as 
Kentucky's former Secretary of Health Services and 26 years of 
service to the Veterans' Administration. I've heard impressive 
comments about his work against smoking and his passion of 
ending childhood obesity. His colleagues at the University of 
Kentucky speak very highly of him.
    But we need to be confident that he is committed to 
decision-making based on sound science and good judgment. The 
Surgeon General must be a person who can be an indisputable, 
respected and trusted voice about health, wellness and safety. 
The Surgeon General's message should be able to reach across 
the divisions that arise in a pluralistic society such as ours, 
to educate, to inform and protect all Americans. So I welcome 
Dr. Holsinger and I look forward to hearing from him.
    Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. The position of 
Surgeon General has a long and prestigious standing within our 
Federal Government that dates back to the 1870s, when the title 
of Surgeon General was created. The mission of the Surgeon 
General is to be America's top doctor and to act as the chief 
medical educator and communicator to the American public on 
public health and safety issues. Over the years, the Surgeon 
Generals have played a key role in making sure that all 
Americans understand the public health safety issues facing our 
Nation, from the dangers of cigarette smoking and the need to 
address obesity, advocating for effective disease prevention, 
such as pandemic flu and HIV/AIDS.
    Equally important is the Surgeon General's role in 
overseeing the U.S. Public Health Service Commission Corps. The 
Corp is comprised of more than 6,000 men and women dedicated to 
the promotion of effective and sound health policy and to 
assist in times of national public health crisis. The Surgeon 
General, as the Head of the Commission Corp, has the vital 
responsibility to ensure that the Corp is trained and ready to 
handle our Nation's current and future public health safety 
needs.
    At today's hearing, we will hear from the President's 
nominee for Surgeon General, Dr. James Holsinger. There is 
little doubt about Dr. Holsinger's ability to be the manager 
and administrator of the Public Health Service Commission Corp. 
He spent a considerable part of his career working in public 
service, including being the top doctor of the Department of 
Veterans' Affairs as well as Undersecretary for the Department.
    However, there have been concerns raised as we just heard 
in the preceding speech, about whether Dr. Holsinger should be 
the Surgeon General and whether he could be the top doctor for 
all of the people. I don't know why anybody ever puts their 
name up before the U.S. Senate. You take a reputation and 
submit it to a scrutiny that no other position in the United 
States would ever have.
    In my recent meeting with Dr. Holsinger, I asked him a 
bunch of difficult questions, including whether he can be 
committed to representing all the people of this Nation and I 
found his responses to be open, forthcoming, knowledgeable, 
compassionate--all of the qualifications that you expect from a 
doctor. In addition, he stated unequivocally that he can serve 
as the top doctor for all of our Nation's people. I'm looking 
forward to having him make these statements in public today and 
to be given the chance to answer the difficult questions from 
our committee members.
    Recently, his peers, medical colleagues, former co-workers 
have written the committee, praising his work and his 
dedication to the medical profession. In addition, former 
Surgeon General C. Everett Koop wrote to the committee in 
support of this nomination and Mr. Chairman, I would request 
that all of these letters be entered into the record.
    The Chairman. They will be so included.
    Senator Enzi. In conclusion, I know that Dr. Holsinger's 
nomination has received widespread press attention, however Dr. 
Holsinger hasn't had the opportunity to speak public about the 
allegations and concerns raised against him. I look forward to 
his testimony today so that he can finally address them and I 
hope the committee gives him a fair hearing and we'll listen to 
his responses so that we can determine and review his 
qualifications to be the next Surgeon General. Thank you so 
much for putting your name up for this office and agreeing to 
serve our country and I wish you good luck today.
    The Chairman. Thank you. Dr. Holsinger. The floor is yours.

STATEMENT OF JAMES W. HOLSINGER, JR., M.D., PH.D., OF KENTUCKY 
 FOR MEDICAL DIRECTOR AND SURGEON GENERAL OF THE PUBLIC HEALTH 
        SERVICE DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Holsinger. Well, thank you, Mr. Chairman, Senator Enzi 
and members of the committee. It is indeed an honor for me to 
appear before the Health, Education, Labor, and Pensions 
Committee to discuss my confirmation as Surgeon General of the 
United States.
    You know, this is a remarkable position. It may be one of 
the most remarkable positions in our Federal Government. It's a 
position that is held in deep affection by the American people. 
It's a position that is unique, perhaps unique, in being able 
to make a difference in the lives of all Americans.
    So why would I even dream of being able to fill this 
position? When I look over the last 40 years of my career in 
public service, I've had the sense, as I've done that in the 
last few months that perhaps each position that I've held, in 
its own way, has helped to bring me to this place where I might 
be considered to become the family physician for all Americans.
    Now, I've got a deep love of public service. It comes out 
of the home in which I was reared. I've spent a lifetime in 
medicine, trying to provide quality healthcare to everyone and 
I've got a deep passion for education. Public service is a high 
calling and being Surgeon General is a position in which one is 
held in high esteem.
    I think that I can meet that challenge. I think that I can 
proudly serve all Americans as their Surgeon General. Now, I 
know there have been a lot of statements made about me. 
Questions have been raised about my faith and about my 
commitment to the health and well being of all Americans, 
including gay and lesbian Americans. I'm deeply troubled 
personally, as you might guess, by these allegations because I 
don't feel that they represent who I am, what I believe or how 
I have practiced medicine for the past 40 years. So I'm anxious 
to have the opportunity to answer those questions with the 
members of this committee today.
    I can only say that I have a deep, deep appreciation for 
the essential humanity of everyone, regardless of their 
personal circumstances or their sexual orientation. I have 
tried to live out my life in the practice of medicine caring 
for people regardless of their personal circumstances. I am 
deeply committed to doing so and should I be confirmed as 
Surgeon General of the United States, I pledge to you today 
that I will continue that commitment to serve all Americans, 
regardless of sexual orientation or any other personal 
characteristic.
    Thank you, Mr. Chairman. I appreciate the time to be here 
and appear before the committee and I'm anxious to answer the 
questions.
    [The prepared statement of Dr. Holsinger follows:]
       Prepared Statement of James W. Holsinger, Jr., M.D., Ph.D.
    Mr. Chairman, Senator Enzi and other members of the committee, it 
is indeed an honor to appear before the Health, Education, Labor, and 
Pensions Committee to discuss my nomination to be Surgeon General of 
the United States. I would also like to thank Senators McConnell and 
Bunning for their support.
    With your permission I would be pleased to introduce some of my 
family members present today. I have lived my life in company with a 
group of remarkable women. First, Dr. Barbara Craig Holsinger and I 
have been married for nearly 44 years. That fact alone indicates that 
she is a person with exceptional stamina! We are the parents of four 
daughters, several of whom are able to be here today. Dr. Anna 
Holsinger Bampton and her husband, Dr. James Bampton, live in Richmond, 
VA where Jim practices family medicine. Our second daughter, Dr. Ruth 
Holsinger Lewellen and her family reside in New Zealand. The Reverend 
Sarah Holsinger-Friesen is a deacon in the United Methodist Church and 
her husband, Dr. Tom Holsinger-Friesen, teaches at Spring Arbor 
University in Michigan. Rachel Holsinger and her husband live in 
Lexington where she chairs the Science Department and teaches Biology 
at Sayre School.
    As is the case with all of us, I am the product of the home in 
which I grew up. My father, Brig. Gen. James Holsinger, is buried in 
Arlington National Cemetery beside his brother, RADM Raymond Holsinger. 
My 98-year-old mother, Ruth Holsinger, is here with us today. On June 
15, 2009, the President of the United States will have the pleasure of 
sending her 100th birthday card. My parents imbued in me a love of 
public service and through their example in serving the American people 
as a part of our greatest generation; I have attempted to live out a 
life of service to all Americans. Barbara's mother, Betty Craig, is 
also here today. She makes every mother-in-law joke a bad one, as she 
considers me her oldest son.
    Mr. Chairman, I am deeply honored to have been nominated for the 
position of Surgeon General. This is one of the most remarkable 
positions in our national government; a position held in deep affection 
by the American people; a position unique in its ability to make a 
difference in the lives of all Americans. The Surgeon General has the 
opportunity not only to make an impact on the lives of the people of 
the United States but on the lives of individuals around the world. 
Other nations have long desired to have such a position and even some 
of our States are in the process of creating State Surgeons General in 
order to provide health education to their people.
    So, why would I even dream that I could fill such a position? As I 
look back over my 40-year career in public service, I believe that in 
many respects my previous positions seem to have uniquely prepared me 
to serve in this role. Through these various roles, I have been able to 
support significant improvements in public health and quality health 
care. I have attached a brief summary of specific work that I have 
accomplished. I bring to the position a deep love of public service, a 
lifetime of providing quality healthcare to everyone, and a passion for 
education. Impacting on the health of all Americans will require using 
all my skills and persuasion to make a difference in their lives. 
Public service is a high calling and the Surgeon General of the United 
States is held in high esteem. I believe that I can meet the challenge 
and proudly serve all Americans.
    Should I be confirmed as Surgeon General, my major priority will be 
engaging in an all out fight against the obesity epidemic in America, 
and indeed around the world. Obesity is second only to smoking as the 
leading cause of death in the United States. Its impact on our children 
is becoming devastating and if we don't tackle the issue now its 
consequences will be too great to bear. Secondly, I will continue my 
predecessors' efforts to eliminate tobacco use in the United States. In 
my own State of Kentucky, we have pursued ordinances to ban smoking in 
restaurants and bars with minimal effect on their financial condition. 
Thirdly, I will focus on the readiness of the Commissioned Corps of the 
U.S. Public Health Service to meet man-made or natural disasters, 
including the development of rapid response teams which will place the 
Public Health Service at the forefront in capability for alleviating 
suffering in such situations. The Public Health Service Commissioned 
Corps should be second-to-none in its skill in dealing with these 
issues in the post-9/11 and Katrina era.
    Now, since my nomination on May 24, there have been several 
statements made about me. Questions have been raised about my faith and 
about my commitment to ensuring the health and welfare of all 
Americans, including Gay and Lesbian Americans. I am deeply troubled by 
these claims, which do not reflect who I am, what I believe or the work 
I have accomplished in over 40 years of practicing medicine. I am 
grateful for the opportunity to address those issues with you today. 
Let me be clear--I have a profound respect for the essential human 
dignity of all people, regardless of background or sexual orientation. 
Throughout my 40-year career, I have dedicated myself to serving all 
Americans regardless of their circumstances. I pledge to you to 
continue that commitment especially if I am confirmed as Surgeon 
General.
    Mr. Chairman, this concludes my opening remarks and I would be 
happy to respond to any questions.
                                 ______
                                 
                     public health accomplishments
    As Chief Medical Director/Under Secretary for Health, DVA (1990-
1993):

    <bullet> Established a registry for Persian Gulf veterans with 
health problems that may be related to their Gulf service, as well as 
three referral centers for special diagnostic problems related to 
Persian Gulf Syndrome.
    <bullet> Developed and led the implementation of national 
guidelines for preventive medicine programs in VA Medical Centers.
    <bullet> Launched a major effort to increase veterans' 
understanding of the hazards of smoking in an effort to decrease 
smoking in veterans.
    <bullet> Implemented a smoke-free environment in all VA Medical 
Centers and Clinics nationwide.
    <bullet> Opened four new Geriatric Research, Education and Clinical 
Centers designed to develop additional understanding of the medical and 
social needs of elderly veterans.
    <bullet> Published national infection control guidelines in an 
effort to reduce nosocomial infections and prevent the spread of 
infectious diseases.
    <bullet> Published the Blueprint for Quality, a national tool to 
coordinate, integrate, and streamline the quality management programs 
throughout all VA Medical Centers and clinics nationwide.
    <bullet> Developed a physician and dentist credentialing and 
privileging system which was recognized and promulgated by the Joint 
Commission on the Accreditation of Healthcare Organizations (JCAHO) as 
a state-of-the-art approach.
    <bullet> Established the VA/DOD Contingency Planning System to 
provide support for Operation Desert Storm including a system of 
providing up to 25,000 beds for DOD usage on 72-hours notice during the 
ground campaign.
    <bullet> Developed the first national health care plan, including 
preventive services, for VHA and its facilities nationwide including 
prevention programs.
    <bullet> Supported the development and first implementation of 
performance measures in the VHA, which became the foundation for 
culture change and improvement in the system.

    International Activities:

    <bullet> Led an international team of Chinese, Zimbabweans, and 
Americans which determined the need for and planned the development of 
a School of Health Sciences at Africa University, Mutare, Zimbabwe, 
including nursing and public health programs in an effort to train 
young men and women for combating HIV/AIDS.
    <bullet> Assisted in obtaining a USAID grant to build the facility 
to house the School of Health Sciences at Africa University (Includes a 
HIV/AIDS laboratory).
    <bullet> Trained Chinese academics in Public Health approaches at 
Szechwan University and Shandong University, PRC.

    As Chancellor of the University of Kentucky Medical Center (1994-
2003):

    <bullet> Developed Corporate Compliance programs to ensure access 
to quality care for all patients requiring treatment at UK Hospital.
    <bullet> Oversaw the creation of the College of Public Health at 
the University of Kentucky, the first new college created at the 
University since 1966.
    <bullet> Developed and gained approval for two new public health 
degrees at the University of Kentucky--Master of Public Health and 
Doctor of Public Health.
    <bullet> Developed the rationale for housing the College of Public 
Health on campus to facilitate a close interaction between the 
colleges.
    <bullet> Developed and implemented a Ph.D. program in Gerontology 
to train scientists to address scholarly questions in the aging.
    <bullet> Developed the funding for the new building to house the UK 
Rural Health Center in Hazard, Kentucky.
    <bullet> Issued directives to make the Chandler Medical Center a 
non-smoking healthcare facility protecting patients from the effects of 
second-hand smoke.
    <bullet> Directed the creation of a Women's Health Center to study 
the needs of women including issues of disease prevention.

    As Secretary of the Kentucky Cabinet for Health and Family Services 
(2003-2005), led many efforts to expand health care coverage and 
services, including:

    <bullet> Chaired the Board of Get Healthy Kentucky, an initiative 
to address obesity, smoking and sedentary lifestyle and create a 
healthier population in Kentucky.
    <bullet> Modernized Kentucky's Medicaid system by improving 
technology, care and benefit management and thus maximizing the number 
of individuals being cared for as well as improving the quality of 
care.
    <bullet> Launched a strategy to improve Kentucky's insurance market 
by attracting more insurance carriers to the market.
    <bullet> Advocated to promote exercise and improve school nutrition 
in Kentucky elementary schools.
    <bullet> Initiated legislation to expand Kentucky's newborn 
screening program from four tests to the national standard of 29 tests.
    <bullet> Launched a comprehensive survey on the preparedness of 
Kentucky communities to meet the needs of the aging baby boomer 
population.
    <bullet> Expanded the Kentucky All Schedule Prescription Electronic 
Reporting (eKASPER) System to an electronic format to prevent the abuse 
of prescription drugs.
    <bullet> Worked with the National Alliance on Mental Illness, to 
preserve the use of second-generation anti-psychotic medications by 
identifying inappropriate prescribing of the drugs to other 
individuals.
    <bullet> Initiated the redesign of the delivery of services for 
people with mental retardation, other developmental disabilities and 
mental illness.

    As a Professor of Preventive Medicine and Environmental Health 
(2005-Present):

    <bullet> Developing a Patient Safety Organization for Kentucky in 
cooperation with and between the Kentucky Medical Association and the 
Kentucky Hospital Association in an effort to provide quality and safe 
care to all Kentuckians.
    <bullet> Assisting in development of a new residency training 
program in Preventive Medicine and Environmental Health.
    <bullet> Assessing Kentucky certificate of need legislation and its 
impact on access to care.

    The Chairman. Well, thank you. Thank you, Doctor. We have 
one member of our committee, Senator Brown is going to have to 
preside. We'll do 7-minute rounds. But he's going to have to 
preside. So we'll necessarily be absent and I'll be glad to 
have him yield for his questions at this time.
    Senator Brown [presiding]. Thank you, Mr. Chairman. I 
appreciate that and Doctor, I also want to thank you for your 
visit to my office and your candor and particularly your 
comments about obesity, which I want to get to in a moment. But 
I wanted to address some other issues first.
    The outgoing Surgeon General, as Chairman Kennedy said, 
testified before Congress and voiced his frustrations with the 
Administration this way. He said, ``Anything that doesn't fit 
into the political appointee's ideological, theological or 
political agenda is ignored, marginalized or simply buried.'' 
To what extent do you think scientific evidence versus 
political or religious ideology should influence the Surgeon 
General's recommendations?
    Dr. Holsinger. Senator, I am committed to using science as 
the method under which I deal with issues that might come 
before the Surgeon General. I believe that is the position of 
any Surgeon General that it is the science that drives the 
direction in which I would speak.
    Senator Brown. There have been reports that over 50 Arabic 
translators have been fired from the Pentagon simply because 
they are gay. Given your past statements on homosexuality, what 
do you see as a greater threat to the health and safety of 
Americans--un-translated documents and intercepts from Al-Qaeda 
or gay people?
    Dr. Holsinger. Well, that's certainly an interesting 
question that you have posed, Senator. I've not had an 
opportunity to think through, as you might guess, an answer to 
that question at all. I think that I would have grave concern 
for having the effective translators that we might need in 
order to be able to provide for the safety of our American 
people.
    Senator Brown. OK, thank you for that. I asked that because 
as we know, terrorist attacks claimed the lives of 3,000 
people. The war has since claimed more than 3,600 American 
soldiers and too often, this Administration has allowed 
ideology to override qualifications when it comes to critical 
positions: Michael Brown at FEMA; Harriet Miers for the U.S. 
Supreme Court; and Monica Goodling at the Department of 
Justice. I just don't want to see us go down that road again.
    Let me shift to the issue that we discussed for a moment, 
for a few moments in my office about obesity. A couple of 
specific questions and then I'd like to get your feelings 
generally on what we do with the questions of obesity and 
especially children. Then I'll just ask all three and then take 
the rest of the time for you to answer. Do you think that junk 
food, like sodas and soda pop, sugar cereals should be 
advertised on television to children? Do you think we should 
ban all junk foods from being sold to children in schools? And 
then, in the context of the larger question, what are the 
specific five things you would do to make a difference in the 
obesity epidemic among children, but specifically if you would, 
give us five but I'd like to hear your answer on soda, chips, 
sugar cereals and junk food being sold to children in schools.
    Dr. Holsinger. Well, I think as you are aware, Senator, I 
had the opportunity to work diligently with one of our State 
Senators, Alice Forgy-Kerr in putting through a healthy 
children's bill through the Kentucky legislature in the 2005 
legislative session. This was an effort to specifically deal 
with, in Kentucky, the issues surrounding the vending machines 
in our schools and the food served in our school cafeterias. 
There were remarkable things that came to light, obviously, as 
to what was available in the machines and we moved to try and 
develop a situation where our Department of Education and the 
School Board for the Commonwealth of Kentucky would issue the 
appropriate regulations to control the types of food that 
appeared in those vending machines. They did an outstanding job 
of doing that.
    In addition, though, we found very remarkable things, such 
as taking already deep-fried chicken nuggets and thawing them 
by throwing them back into the deep fat fryer and re-greasing 
them once again. So we worked very diligently to try and 
develop an approach that would provide for much healthier food 
in our school cafeterias.
    I believe that there is a real place for legislative action 
in the area of what appears in the vending machines within 
schools. Junk food certainly causes major issues as far as the 
obesity epidemic is concerned. I think that if you look at a 
variety of the kinds of things that can be done--first of all, 
let me say that should I be confirmed as Surgeon General, one 
of the first things I would try to do is to bring together a 
Best Practices conference to determine what are the best 
practices out there that we could attack the problem of 
childhood obesity in a concerted way, putting all of our time, 
effort, energy and money, both from within the Federal 
Government, the State and from private sources, into the fight 
for obesity, childhood obesity.
    I think that it is awfully easy for us with so many 
organizations involved, to run in parallel and not to pull 
ourselves together where we are actually pinpointing the places 
where we can make the biggest difference in the lives of 
children the quickest. Clearly there are issues, as you 
mentioned, around the issue of various foods being advertised. 
I think that I would be willing to work very closely with the 
appropriate agencies to look at how we might address those 
issues in a way that would be positive for our children and for 
dealing with the obesity epidemic.
    Senator Brown. Would you lead an effort to ban advertising 
of junk food to children on television and radio and 
newspapers?
    Dr. Holsinger. I think that that would be an effort that I 
could join in, with whichever was the appropriate Federal 
agency. It is obviously not the specific thing that a Surgeon 
General can put into place but he can certainly stand on the 
bully pulpit and deal with the issue of attempting----
    Senator Brown. And you would do that?
    Dr. Holsinger. I would do that.
    Senator Brown. Last question. If this or a future 
administration pressured you to modify your medical advice in a 
way that counters prevailing science, what would you do?
    Dr. Holsinger. Well, the first thing I would do is to work 
to use the tried and true leadership techniques that I've used 
throughout my life, which is one of bringing people to 
consensus in an effort based upon education and I would use the 
science to attempt to educate the policymakers that were 
involved in an effort to bring them to a point where the 
science would have the appropriate impact. I think that I would 
utilize my personal ability to do that kind of leadership in an 
effort to make a difference.
    Quite candidly, if I were unable to do that and I was being 
overridden, if necessary, I would resign.
    Senator Brown. Thank you.
    The Chairman [presiding]. Thank you. We're going to 
accommodate our colleagues on both sides, necessarily 
scheduled. As I said, we'll have 7-minute rounds. Doctor I want 
to come back to the issue of science because we have seen and 
it's important. I mean, you've had important references about 
your humanity and there is testimony. I want to indicate that I 
read letters from your children as well. You probably don't 
even know about it but that's certainly very decent and 
wonderful. I don't think there's any question about that.
    The challenge that I think that we're facing in terms of 
your particular position is whether science and--ideology 
overrules the science of our time and the information that is 
available. As has been pointed out, we have seen with regards 
to the environment, global warming, the distinguished leader at 
EPA, Mr. Hanson saying that ideology overrode science. Many of 
us believe that that's been the same with regard to stem cell 
research, many of us. We saw it with regards to the FDA and the 
Plan B program. We listened to it on the networks and in 
testimony yesterday from Dr. Carmona, talking about it.
    So this is something that is enormously relevant and you 
wrote a very important paper. In fact, it goes back to 1991, 
where there are so many that say that you did not look at the 
real science and that you were controlled by ethics and by your 
morality and religion, all of which are admirable elements and 
all of which have value in terms of politics--ethics--and in 
terms of making judgments and decisions. But the issue is, did 
you avoid available science in terms of your particular 
document at that time?
    That's a very important issue and a second related issue, 
particularly when we have, at this time, so many different 
studies that have been done by the American Psychiatric 
Society, American Psychological Association, American Academy 
of Pediatrics, American Public Health Association, World Health 
Organization--all of which had very important scientific 
information on what, as I understand in reading the notes from 
the meetings of your superiors when you were tasked to do this 
study, were directly related to the subject matter in which you 
were challenged to and all of that scientific information was 
effectively ignored. None included.
    And what we also had in this situation, in this paper, is 
the fact that you quoted three different articles--your paper 
cited three sources in the bibliography that were not used or 
cited in the paper. Torre, Busch and Eckert. You cited these 
sources. They had nothing to do with the issue of homosexuality 
as sexual preference and I'm unsure why you included them. It 
looks like obvious padding of a bibliography, that's what it 
appears. I mean, you added this information and all of whose 
studies come to different conclusions than you raised. But you 
cited them in terms of support for your outcome.
    This raises serious questions about your willingness to use 
the best in terms of science and it's against a very 
challenging background that we have seen on this and I want to 
give you an opportunity.
    We're limited on the time as well but I want to give you an 
opportunity to address it and then I want to give you an 
opportunity to explain whether this is the same view that you 
have today as you had then and if it isn't your same view, do 
you have a different view and what is the basis for that 
different view? So that we can really give not just to the 
committee but really, to the American public, should you be 
confirmed that you are going to follow the science and that you 
are going to have the kind of basic and fundamental integrity 
to speak truth to power, should it come, as we've seen it out 
there. That's what I'd like to try and do, at least in my first 
round, if you'd be good enough to address that issue. I can get 
into greater specificity about it but you know what I'm talking 
about in this question.
    Dr. Holsinger. Certainly, Mr. Chairman. Thank you. I think 
that it would be helpful to perhaps understand the context a 
little bit better on the paper. The paper I was asked to write, 
I was asked to deal with certain specific issues because the 
other ones had already been covered in other papers that had 
been presented to the committee over a significant period of 
time. I was asked to do essentially a letter to review the 
health issues surrounding the issue of homosexuality. It was 
not a paper dressed to the question of sexuality but to 
homosexuality specifically because that's what the committee's 
charge by the 1988 General Conference was.
    There was no attempt to pad the bibliography, Mr. Chairman. 
The situation was simply that in the case of paper after paper 
that were presented to this committee, we offered additional 
information besides what was quoted in the papers in an effort 
to provide reading material potentially for the individuals who 
were on the committee. Members of the committee brought in 
papers that they found or news articles that they had 
discovered.
    I've gone back also and reviewed my files on the 
committee's work. They stand about a foot and a half tall. So 
there were a significant number of documents that were 
provided. I did not attempt to write a definitive scientific 
paper. I was writing for a lay audience composed of 
theologians, biblical scholars, pastors, individuals that had a 
Christian emphasis who had difficulty understanding some of the 
issues surrounding the practice of homosexuality and that was 
my sole intent, was to try and provide them with the 
information that they indicated that they needed in order to be 
able to make their own decisions about what direction things 
would go.
    The Chairman. Well, your response is, your bibliography is 
just to add different, additional information so that it could 
be used as reference material for people? That's rather a 
bizarre view of a bibliography, isn't it? I mean, don't people 
generally include in the bibliography the references that 
support their positions or that are used about--that was always 
my sense about it.
    Dr. Holsinger. Certainly for a scientific paper, it would 
be a bizarre use of a bibliography. This was not written as a 
scientific paper. It was written for a lay audience to have the 
assistance that they felt they needed in order to be able to 
move forward with their work. So I was simply using the same 
techniques that other people had used, which was to provide a 
maximum amount of information for other members who might want 
to have additional papers and information that they could look 
at.
    The Chairman. But if it's the literature review, why would 
you not then reference the most prominent medical journals and 
scientific journals that the country has? I mean, in terms of 
the American Academy of Pediatrics, the Public Health 
Association, the Psychiatric Association, the Psychological 
Association or the World Health Organization? The list of 
distinguished publications that all come to rather dramatic 
different kinds of conclusions. If the bibliography is to try 
to inform and give greater information to people to understand 
what this issue is, why would you not--did you think about it, 
about providing it? And then I have one further question and 
then I'll yield.
    Dr. Holsinger. I thought that much of that information had 
already been presented in previous papers and in previous 
discussion. I thought that I had a very narrow focus that I was 
asked to discuss and that was what I was attempting to do, 
Senator.
    The Chairman. OK. Just finally, are we to understand then 
that your paper represented your understanding of the best 
science that was available at the time? Is that a fair 
characterization?
    Dr. Holsinger. I'm sorry, I didn't mean to interrupt you, 
Senator. It represents the literature search that was done for 
me through our library. I happen to have a copy still in my 
file of that original Med-Law search and it was from that Med-
Law search that I went to and worked to obtain the documents 
that I used to perform the literature review.
    The Chairman. Just finally and your position today, given 
as a medical official and obviously as a doctor. Is your 
position the same as it was then, based upon your own 
understanding and reading of various journals and articles that 
are in the scientific community and if it is different, how is 
it different?
    Dr. Holsinger. I think that the issue is very different 
today. We are nearly 20 years past with the majority of the 
papers that were cited. They were 1986, 1988 papers, as I went 
back and looked at it. We're now 20 years later. I don't even 
think the same questions, Mr. Chairman, would be asked today as 
were asked 20 years ago, at the height of when Dr. Koop was 
having his hardest work on the whole HIV problem. The issues 
that appeared in the review would not even be the major issues 
in front of our gay and lesbian community today.
    The Chairman. I've overstayed my time. I'll come back. 
Thank you very much.
    Senator Enzi.
    Senator Enzi. Well, this isn't where I had intended to 
start but I will anyway because we can all see that there are--
have been concerns I guess raised about your willingness to 
serve the gay and lesbian population if you are confirmed as 
Surgeon General. It seems to me an important question in this 
discussion is whether you would render medical information and 
treatment to all persons, regardless of race, sex, age or other 
status. So could you perhaps provide some examples where you've 
provided medical information or treatment to gays and lesbians 
and/or promoted initiatives that have been of benefit to the 
health of the gay and lesbian community?
    Dr. Holsinger. I'd be happy to do that, Senator Enzi. Yes, 
I have worked diligently throughout my 40-year medical career 
to provide quality healthcare to everyone, regardless of the 
various personal characteristics that any of us may have, 
including our sexual orientation and I think I can demonstrate 
that through several ways.
    First, in 2002, I came under intense fire politically in 
the Commonwealth of Kentucky because our Women's Health Center 
was holding a conference in which a major section of it was 
dealing with the needs, the health needs of our lesbian 
population. I believe absolutely that everyone needs to--
everyone who is a practitioner--needs to understand the health 
needs of our gay and lesbian community in an effort to be able 
to provide quality healthcare to all individuals. So I fought 
fiercely for that, even though I had a huge political pushback 
on it. In fact, our budget was actually being threatened in the 
State legislature.
    I have, as you all know from the letters that you have 
received, when I have been--I'm often asked by people to help 
them with healthcare issues. They come to me for advice on who 
to see as a physician and help to get into an appointment and 
this sort of thing. I clearly have done that regardless of a 
person's sexual orientation, as you know from some of the 
letters that you have received. I feel that it's part of my 
role as a physician to broker healthcare for all individuals. 
One of my dearest friends at the University of Kentucky, late 
one Friday night, received a phone call that he had been 
diagnosed with cancer of the colon. He called me early on 
Saturday morning to tell me what had happened and I asked him, 
I said, ``Where are you?'' And he said, ``I'm at home'' and I 
said, ``Well, stay right there. I'm on my way.''
    And I went to his home and I worked with him and his 
partner as we worked through the issues of what he might expect 
with a diagnosis of colon cancer. I walked with him through 
that entire period of 3, 3\1/2\ years until his death occurred. 
He was one of my dearest and closest friends. It was 
catastrophic, both to all of us and to our university when he 
died of his colon cancer.
    I had the opportunity back in the late nineties and early 
part of this century, to work with Africa University in Mutare, 
Zimbabwe. In the creation, I led an international team of 
Chinese-American and Zimbabweans health care professionals in 
putting together a plan to help them deal with the AIDS crisis 
in Sub-Saharan Africa. There, as an educational institution, we 
came up with the fact that the best way to do that was through 
the creation of a School of Health Sciences with a program in 
nursing, which they did not have and one in public health, in 
an effort to educate young Zimbabweans and other Africans to be 
able to enter the fray on the field and deal with the AIDS 
crisis in Africa. I helped them obtain a USAID grant to build 
the buildings, which houses one of the few AIDS laboratories in 
all of southern Africa and they are in the process now of 
working with an American institution to field test an AIDS 
vaccine in Zimbabwe.
    My point simply is that I don't believe there is a place in 
my life as a physician to do anything that would be inimical to 
the healthcare of anyone, regardless of their personal 
characteristics. The AMA has taken a strong position on this 
issue and as an AMA member, I'm proud of what we've done in 
trying to say that for physicians, it makes no difference what 
a person's personal characteristics are. We want to take care 
of them.
    Senator Enzi. Thank you. I'll switch to a different topic 
then because I believe that smoking is a critical issue and 
you've indicated that reducing the health burden of tobacco is 
important to you. Being from Kentucky, how did you approach 
this issue and what role do you believe the Surgeon General can 
play in that issue?
    Dr. Holsinger. I live in the largest burley tobacco growing 
State in the Nation and until just a few short years ago, my 
home county of Fayette County was the No. 1 burley producing 
county in America. It is a key issue in Kentucky and we tackled 
this--we had the lowest cigarette tax or the second lowest 
cigarette tax in the country at 3 cents a pack. I wanted to go 
to the national average. I pushed hard for 75 cents. Through 
the political process, we got 30 cents, a 10-times increase. 
But out of that just in the 3 short years since then, we have 
watched what we knew would happen because of the price 
sensitivity of tobacco products to teenagers, we've seen an 11 
percent decrease in teen smoking in the Commonwealth of 
Kentucky.
    When I was Chancellor of the University of Kentucky 
Chandler Medical Center, I made it a smoke-free facility. That, 
in its day, in the late--mid to late nineties, was a remarkable 
accomplishment in the Commonwealth of Kentucky. I took VA 
Medical Centers smoke-free back in the nineties.
    I have testified for local ordinances. For example, in 
Louisville for local ordinances to ban cigarette smoking in 
restaurants and bars and I'm happy to say, the election in 
Kentucky in my hometown has one of the strongest local 
ordinances in Kentucky. We now have 12 to 15 different counties 
and cities that have taken this step and I believe that there 
is a strong place for commonwealths and States all across the 
country to move in this direction.
    Senator Enzi. Thank you. I've almost used up my time.
    The Chairman. Thank you.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman. Well, Dr. 
Holsinger, we meet again.
    Dr. Holsinger. Yes, Senator.

                     Statement of Senator Mikulski

    Senator Mikulski. I remember our meeting from 1990 to 1993, 
you were the Medical Director of VA and I chaired the Senate 
committee on Appropriations that dealt with VA. As I recall 
during those 3 years, we did not have a good time together. We 
clashed on a number of issues.
    As I recall those times and reviewed the record, our 
experience with you was that you resisted change in the area of 
quality control. You were often indifferent or dismissive of 
oversight when it came to the healthcare of women veterans and 
also sexual harassment at VA medical facilities. I'm going to 
review the record and then I'm going to ask you what's changed, 
if anything.
    I recall that in 1991, soon after you were appointed, a GAO 
report, along with newspaper accounts indicated that there was 
a very serious issue of quality control at several VA hospitals 
and in particular, there were even a particular hospital in 
which six veterans had died. You told the committee that yes, 
there were management changes but no system was perfect and 
then you were resistant to changing some of the systemic 
problems at VA.
    Then at that time of great reform coming from this 
committee, we worked on mammogram quality standards and also 
something called CLEA, the Clinical Laboratory Improvement. It 
came because a large part, we found, was laboratory problems 
and particularly in the area of pap smears. We asked you to 
implement CLEA at VA but you fought us tooth and nail to adopt 
CLEA standards at VA and when I directly watched your attention 
to problems with pap smears, the record will show, if one 
chooses to review it, that you told me it would not be a 
problem. VA didn't do a lot of pap smears.
    Then we had the unhappy situation of sexual harassment at 
Atlanta Hospital that was so pervasive that even the Inspector 
General called it the worst scandal since Tailhook for which 
there was then a culture of silence in terms of both at the 
Atlanta Hospital and then others. I will not read what the 
Inspector General found that were often the comments that were 
directed at women staff. That would be too inappropriate to 
share with the committee.
    There was a culture of silence and the response of your 
leadership at VA was just to kind of move people around. So we 
kind of went at it for some time, as you know and then when 
there was a change in administration, you then chose to go to 
Kentucky. But for those 26 years, I can't speak to that. But I 
can raise those issues about when we did this.
    You know, I believe we all change and this was 15 years 
ago. So my question to you is, what has changed? The Surgeon 
General is the advocate for all of the people. Senator Kennedy 
raised those issues. You know my concern about women's health. 
But it's also about quality and yet, our experience was that 
you advocated the status quo, whether it was on quality of 
care, the treatment of women in healthcare and also a culture 
of sexual harassment that had developed at some institutions.
    So now, as we look at your role to be, the chief spokesman 
in the area of healthcare for the United States of America and 
to be an advocate, what has changed? And what can I count on 
you to have changed in those years that have transpired since 
that really very unfortunate time?
    Dr. Holsinger. Yes, thank you, Senator for keying up that 
question. First of all, let me just simply say to begin with 
that I hope, should I be confirmed as Surgeon General, that you 
will give me the opportunity to work with you to work for the 
health and the well-being of the people of Maryland and of the 
United States. I would relish the opportunity to do that.
    I could go back and provide countervailing arguments to 
many of the things that you've said. I think that would be 
nonproductive. I think what you want to hear from me is who am 
I?
    Senator Mikulski. Who are you now?
    Dr. Holsinger. Who am I now? I believe that as a person 
that I am a deeply compassionate person that I care greatly for 
the issues around women's health. As you have seen, I have four 
daughters, who I am exquisitely proud of. They are an 
outstanding group of young women. I have mentored women 
throughout the last 15 years, actually before that but 
specifically through the last 15 years and there are a number 
of women who come to me for mentoring because they feel that I 
am willing to do that when perhaps other people are not.
    I have had the opportunity and for example, just in the 
past year and a half, as a faculty member at the University of 
Kentucky in our College of Public Health. Our College of Public 
Health has the most diverse student body of any college at the 
University of Kentucky. It has a predominant number of women 
that are our students in and among our faculty and I have the 
joy of working with them on a day-to-day basis.
    Senator Mikulski. Well, first of all, I salute you in terms 
of your family and we acknowledge this. This is not easy. I 
know it's not easy for you and it's not easy for us to have to 
bring this up but we do have the responsibility of advise and 
consent. I want to go to organizations. I want to go to 
systemic change. I believe that the individual efforts that 
you've just recounted are really quite positive. But I want to 
go to where you would be as the Surgeon General and what do you 
envision?
    Let's take the issue of quality of care. You say we have 
the best healthcare system in the United States of America, yet 
we do know we need to improve quality. We've been a great 
advocate of the new, electronic record system to eliminate 
errors, drug safety, et cetera. Where would you come in and how 
would this be different because you seem to be resistant of 
regulatory change or Congress advocating change that improves 
quality. What have you done in that and where would you see 
being the Surgeon General in terms of quality care from an 
organizational and systemic and cultural approach?
    Dr. Holsinger. Well, Senator, I am a strong advocate for 
change in our structural systems. Let me give you an example. I 
signed at the time, the largest contract ever signed at the 
University of Kentucky--$70 million to put in a new electronic 
medical records system, including all the facets of it. I 
believe we must move in that direction if we're going to 
improve our quality of care in America. We know the IOM reports 
over issues surrounding deaths from errors in American 
hospitals and across our medical system. We can't stand to keep 
that going. We must make systemic changes. We do need the 
support of Congress to do that, obviously.
    I served for 6 years on the Board of Commissioners, the 
Joint Commission on Accreditation of Health Care Organizations. 
I've been up to----
    Senator Mikulski. Do you have ideas and recommendations 
that you would do as Surgeon General?
    Dr. Holsinger. I believe--yes. I think that I would 
strongly advocate for an electronic medical record that would 
allow us to provide information across facilities, across 
practices in an effort to be able to take your record with you, 
in essence, so that you, as the individual, can have what you 
need, wherever you might be seen in a facility in America or in 
a physician's office. We've got a situation right now where it 
is so fragmented that we can't provide the kind of quality care 
to all Americans.
    Senator Mikulski. So we're up to electronic records. Do you 
have any other ideas?
    Dr. Holsinger. Yes. I think that we need to move ahead with 
dealing with the issues of drug/drug interactions in a way that 
will reduce the errors that occur that result in people's death 
or their additional impact on their lives. I think we need to 
move forward in looking at how we can, as a people, have a 
better understanding through our education of our healthcare 
practitioners and the needs of all Americans and how we take 
care of them.
    Senator Mikulski. Mr. Chairman, I see our time is up. We'll 
come back. I know you've been generous.
    The Chairman. Fine. Thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. Dr. Holsinger, 
your prepared remarks make reference to your 98-year-old mother 
being in the audience. I've looked all over for a 98-year-old 
person. I don't see one.
    [Laughter.]
    Is she here?
    The Chairman. Aww, there's a smooth-talking gentlemen here. 
We've got a smooth talker. We love it. We always benefit from 
that southern charm.
    [Applause.]
    Senator Isakson. I was hoping Senator Burr would be here 
for her to say hi to him. Doctor, you answered Senator Brown's 
question on scientific influence, on scientific decisions, I 
think in the following way. He asked you if the President of 
the United States or his or her emissaries tried to get you to 
take a position that you believed was scientifically incorrect, 
that you would do everything you could to advocate why you 
thought that was true but in the end, if you were being asked 
to take a position you believed was scientifically incorrect, 
that you would resign. Was that your answer?
    Dr. Holsinger. That's potentially my answer but there's an 
awful lot that goes in between those two steps.
    Senator Isakson. Which is my point. I want to ask a second 
question. Let's just assume that the President of the United 
States for whom you work, he or she, comes to you and asks you 
to take a position that you believe is morally wrong. You would 
advocate your moral position, reasons why and in the end, if 
you did not prevail, would you resign then?
    Dr. Holsinger. I would.
    Senator Isakson. Then you reached the $64,000 question, 
which all of us in government have to deal with lots of times 
and that is, where there are both moral and scientific 
implications. What do you do in that case?
    Dr. Holsinger. I think that you must balance those. I think 
we cannot have unfettered science without moral and ethical 
implications being looked at on all of those kinds of things. I 
think that it's clear that there are balances. I think we 
cannot have simply unfettered moral or ethical things that 
depend on our individual propensities. I think we need to work 
together to come to a consensus around the best approach to 
meet the needs of Americans and to meet our own moral and 
ethical standards as a people.
    Senator Isakson. Well, I appreciate that answer because 
having been in an appointed administration position, nonelected 
position myself, chairing the State Board of Education, I had 
to deal with the whole issue of sex education--at what grade it 
was appropriate, what was appropriate and obviously that has 
many moral and scientific implications, which in the end, we 
came to the decision that the parents should make the decision. 
We should provide the information and they should know the 
curriculum. If they felt it was inconsistent with their 
beliefs, they could opt their child out of the curriculum but 
they couldn't deny everybody else because of it. Those are the 
types of issues where both morality and science, in fact, do 
come into play.
    Dr. Holsinger. Correct.
    Senator Isakson. And I appreciate the way in which you 
answered both of those questions. On the obesity question, I 
read and I'm sorry I didn't bring it. I meant to. I read a 
couple of days ago and one of the things I read that some of 
the obesity programs, information programs around the country 
that have been attempting to reduce student consumption of 
concentrated fats and fast foods and all those other things, 
had done a pretty good job of awareness but hadn't done 
anything to reduce it.
    You've worked a lot on obesity in Kentucky. You've made 
reference to policies and procedures in the cafeterias in terms 
of frozen food, not refrying them, things like that. Are there 
other things like that you did in Kentucky in this obesity 
program that have actually paid dividends in reducing it?
    Dr. Holsinger. We have also worked very diligently trying 
to bring about change in the whole area of our sedentary 
lifestyle. Kentucky is a remarkable State from a variety of 
points of view but we are also remarkable from a variety of 
points of view that aren't so positive. We have one of the 
largest percentages of our population being obese or 
overweight, both among adults and children, of any State in the 
country and we're also one of the most sedentary populations in 
the United States. The coggling of these two things are 
obviously exquisitely important and one of the problems that we 
have faced and which I think is not unusual across the various 
States of the union, has been the difficulty in getting the 
whole concept of how we can develop physical exercise within 
the school day without it impairing the ability for our 
teachers to teach and students to learn and meet the testing 
requirements.
    It usually comes back to physical education as being the 
result. I'm talking about physical exercise. I think there are 
a number of ways that we could help our teachers, increase the 
amount of movement of children within the classroom that would 
allow for additional exercise than what is normal in the school 
day. So we worked hard to try and bring that about. We failed 
in our 2005 bill. We came back again in 2006, failed again. 
We're not through with that effort in Kentucky but I think we 
have to deal with the whole issue of our sedentary lifestyle as 
Americans and particularly for our children.
    Senator Isakson. I too, appreciate that. You know, C. 
Everett Koop got great praise for his AIDS initiative but he 
also got me to quit smoking, which is one of the smartest 
things I ever did and he was a great advocate. I think the role 
of the Surgeon General and there are clear examples--Senator 
Kennedy's introduction pointed out, where there are clearly 
people in history in that position who've made a remarkable--
had a remarkable impact on health without banning things or 
doing things by fiat but instead by taking the bully pulpit and 
using it.
    On the obesity issue, I think that is the issue before the 
next Surgeon General and I think it is where that next Surgeon 
General can make a major difference. We have some good examples 
of where businesses and food producers have voluntarily gotten 
rid of trans fats or set targets to do that. The soft drink 
industry, both Pepsi and Coke have voluntarily began taking 
positions on what they will and will not vend in vending 
machines.
    You as an advocate, being outspoken and talking about the 
benefits to people--which is ultimately why people do 
anything--can make a remarkable difference so I would just 
encourage you, should you be confirmed for this position, to 
take that advocacy role to its fullest, not only on obesity but 
the other initiatives that are so important to the quality of 
life of Americans. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Murray.
    Senator Murray. Dr. Holsinger, welcome to the committee. 
You and I have not met. I was one of the offices that you did 
not choose to come and talk to beforehand so this is my first 
opportunity to have a discussion with you and I think you may 
know from the past that I care deeply about the offices of FDA 
and the Surgeon General and the independence of those offices 
because those of any in our government are ones that everyday, 
average citizens have to really count on, rely on. It takes an 
incredible, impeccable resume of a wide variety of people 
across this country to place their trust into somebody and we 
certainly do need that in a number of areas in the medical 
profession today, to have the trust of this country as we move 
forward, whether it's on obesity or whether it's on teen sex or 
whatever the issue is.
    So this is extremely important and I am deeply troubled by 
a number of the decisions made by this Administration and 
that's why I'm looking at your background and your answers 
today as extremely important. Senator Mikulski and Senator 
Clinton and I have had to fight this Administration tooth and 
nail to ensure that women have access to safe and effective 
drugs and we've watched some pretty misleading ideology be 
placed in a number of very important critical positions that 
are deeply troubling and obviously, this week as we heard past 
Surgeon Generals testify that they were censored, their 
speeches were edited--these things are deeply troubling to all 
of us because we need someone in this office that can be 
independent that Americans trust.
    So having said that, let me ask you, you obviously have 
heard the testimony of Dr. Carmona this past week and having 
been subjected to political interference based on ideology and 
religious beliefs and I wanted to know what your reaction was 
as you heard him testify.
    Dr. Holsinger. Well, first of all, I've not had the 
opportunity Senator, that I know of, to ever have met Dr. 
Carmona so I have----
    Senator Murray. You've certainly heard about his testimony 
this week.
    Dr. Holsinger. Right. Oh, I have. But I'm just saying, I've 
not had the opportunity to have a direct conversation with him 
about his work.
    Senator Murray. I'm not asking you about him. I'm asking 
you about the fact that he felt that he was told to edit his 
speech and do different things based on political beliefs, not 
based on himself. What was your reaction personally when you 
heard that?
    Dr. Holsinger. Oh. I would obviously be deeply concerned 
that any Surgeon General would feel that that has occurred. 
Certainly from my perspective, I would commit myself to, should 
I fill this job, to using the science as the basis on what 
might----
    Senator Murray. But do you think what he testified to was 
inappropriate or was it just part of his job?
    Dr. Holsinger. Since I don't have the firsthand experience 
in knowing, it's hard for me to answer that question, Senator.
    Senator Murray. Well. OK.
    Dr. Holsinger. I would be troubled if that were to happen 
in my life, obviously. So I can understand where he might feel 
the same.
    Senator Murray. But do you think it's appropriate for the 
White House or for HHS to edit speeches that you were to give?
    Dr. Holsinger. I'm struggling with having an understanding 
of how I think that would happen. The three things that I think 
are of overriding importance going into this position, should I 
be confirmed are obviously obesity. The second one is smoking 
and the third----
    Senator Murray. I heard your issues and I appreciate that. 
I want to know, if the White House told you that they wanted to 
edit your speeches, what would you tell them?
    Dr. Holsinger. First of all, I would sit down and talk 
through the situation and find out what the issue was that they 
wanted to edit, if that were the case and then determine 
whether I thought it was appropriate for it to be so edited. If 
I didn't think it was appropriate to be so edited, then I would 
have a conversation with the appropriate people to discuss my 
position.
    Senator Murray. If you were told to mention the President 
at least three times in every speech, would you do that?
    Dr. Holsinger. Well, it would clearly depend on what the 
speech was, whether it was appropriate to or not. If there were 
no reason to, then I would probably not find myself in a 
position to do that.
    Senator Murray. If you were Surgeon General and there was 
an extremely important scientific report that was out there and 
you were told, do not release that report, what would you do?
    Dr. Holsinger. If I felt that it was of overriding 
importance, as I said before, I would resign.
    Senator Murray. What would be of overriding importance to 
you?
    Dr. Holsinger. It would depend on the particular situation 
and what the report was about. It's hard for me to speculate 
exactly what that might be. I have not had that experience. My 
problem is, I gave many, many speeches in 2 years as Secretary 
in the Commonwealth of Kentucky. I was never told by the 
Governor to mention his name. I was never told--my speeches 
were never vetted. I don't anticipate----
    Senator Murray. And you may be asked to do this. What would 
you say to somebody from the White House if they told you that 
they did not want to release a report? What would you say?
    Dr. Holsinger. I would say, I would sit down and say, 
``let's talk about it. Let's find out what the issue is. Let's 
find out whether we can reach any kind of consensus on what is 
the appropriate way to go.'' If we can't and I felt it was of 
overriding importance, I would quit.
    Senator Murray. Can you give us an example of an area that 
you would see as a conflict between yourself and what you have 
seen from this Administration, regarding any of their 
decisions? At FDA or health-wise, in the last 4 years?
    Dr. Holsinger. I'm struggling with trying to figure out how 
to pick out something because it's--I have not been tracking 
all of those kinds of issues as closely as I might of, if I had 
known I was going to be nominated for Surgeon General of the 
United States. I haven't had the reason to. I've been busy with 
Kentucky. So if you could help me----
    Senator Murray. Let me ask you a specific one. For the past 
decade, the Federal Government has spent more than a billion 
dollars on unproven, dangerous abstinence only programs. It's 
been the most dramatic fundraising--or funding increase 
occurring during the Bush administration for the last 6 years 
and a 2004 report by the House Committee on Government Reform 
revealed that many of the most common abstinence-only curricula 
contained errors, contained distortions, contained stereotypes. 
If you had that scientific report in front of you, what would 
you say to the Administration?
    Dr. Holsinger. Well, if it was one that I was supposed to 
sign off on, I wouldn't be able to. I mean, if there were 
distortions and inappropriate----
    Senator Murray. What do you think--tell me what you think 
of the abstinence only studies that have been done?
    Dr. Holsinger. Well, I don't--I have not had an opportunity 
to study them or the science surrounding abstinence education 
and so until I was able to do that, I could not give you an 
informed opinion.
    Senator Murray. So you don't have an opinion on abstinence 
only studies--abstinence only curricula at all?
    Dr. Holsinger. Oh, I think abstinence is one of the 
mechanisms that we can use in dealing with issues around 
unplanned pregnancies.
    Senator Murray. What about STDs?
    Dr. Holsinger. And STDs as well. But I'm just saying, I 
have not studied the literature to be able to give you an 
informed answer. That's all I'm saying.
    Senator Murray. As Surgeon General, if you were asked about 
whether or not the correct and consistent use of condoms or 
other methods of contraception is an effective way to prevent 
unintended pregnancy, how would you answer?
    Dr. Holsinger. Well, I think condom use is an important 
approach to unintended pregnancy. I would encourage condom use.
    Senator Murray. For young people? Unmarried people? Would 
you qualify it?
    Dr. Holsinger. Well, yeah, I think that the--I would 
certainly do that for individuals that----
    Senator Murray. As Surgeon General, you would be speaking 
across the country or talking to a group of high school 
students----
    Dr. Holsinger. If you're talking about----
    Senator Murray. If you're talking to a group of high school 
kids and you're asked a question about the use of condoms for 
young people, how would you respond?
    Dr. Holsinger. I would respond that that is one of a number 
of appropriate means of birth control and prevention of STDs. I 
would also talk about others. It's just the fact that they need 
to have conversations with their families around their sexual 
lives and what's appropriate. I think that I would encourage 
them to consider abstinence as one of those possibilities. I 
think that they need to be fully informed as to what the 
science shows as far as the ramifications of unplanned teen 
pregnancies and the impact it has on the lives, usually on the 
mother, not the father and that we need to have a fully 
informed group of young people in this country.
    Senator Murray. What about Plan B? How would you respond if 
you were asked about that?
    Dr. Holsinger. I think Plan B is available. So I don't know 
why that would be an issue.
    Senator Murray. Mr. Chairman, my time has expired. Thank 
you.
    The Chairman. Thank you.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you and I want to 
welcome you to the committee here, Dr. Holsinger. You do have 
an outstanding academic resume when I look at it, having 
graduated from medical school and then proceeding on to become 
a Ph.D. and then actually Chancellor of a university. You then 
spent a considerable amount of time in public service. I 
congratulate you on being willing to serve the people of 
Kentucky and also the people of the United States. Right now 
we're looking at you as a candidate for Surgeon General, which 
in my view, is an extremely important position as far as 
healthcare is concerned and I do think that your record as a 
public official is very important.
    I'm interested in your serving, first of all, as Secretary 
of the Cabinet for Health and Family Services. During that 
time, Kentucky was the only State to receive an A on the school 
foods report card. Can you detail what changes you undertook 
that supported this award as well as discuss what you consider 
as some of your other accomplishments in that and if you think 
it's appropriate to carry that experience to the Federal 
office?
    Dr. Holsinger. Thank you, Senator. I'm very proud of the 
fact that Kentucky, which has been noted for not often having 
very high marks in many of our health issues, received that No. 
1 ranking in that report and it came about clearly because of 
our work on the Healthy Children's bill in our 2005 legislative 
session.
    But we couldn't do that alone and as part of what I was 
involved with during that time, I also chaired the Healthy 
Kentucky Board for the Commonwealth of Kentucky. This was a 
group of individuals that came together to try and deal with 
these specific kinds of issues--whether we can make a 
difference in the lives of all Kentuckians. And with their 
strong support, we were able to get the bill passed and also 
with their strong support in working with our Department of 
Education and with the State School Board, we were able to get 
very, very good regulations written on the issue of vending 
machines and the school cafeteria program as well.
    I think that the fact that we were able to work together in 
a collaborative method, in an effort to bring together all the 
people that needed to be there to make a difference is one of 
the reasons why we were successful and we were able to bring 
together both people from across the isle, because as maybe 
you're aware, we have a Democratic-controlled House of 
Representatives and Republican-controlled Senate and so it was 
necessary to work with both portions of our legislature in 
order to be successful.
    I think that we also, though, need to be prepared to deal 
with the sedentary life issue as in Kentucky and that one has 
so far been slightly beyond us. We do have now a Governor's 
Physical Fitness Council, which is making inroads, I believe, 
in that problem but we're still going to need some legislative 
assistance to make the difference.
    Senator Allard. And I assume that also, you view that as a 
problem nationally?
    Dr. Holsinger. It is a problem nationally.
    Senator Allard. Now, you were also Undersecretary of Health 
for the Veterans Administration under Secretary Brown and as a 
part of the Clinton administration. When you left, I understand 
that you had some positive statements from Secretary Brown 
about your work there. Can you give us some examples of your 
work as Undersecretary of the VA?
    Dr. Holsinger. Well, one of the key things that I was faced 
with in August 1990, when I arrived as Chief Medical Director 
and then became Undersecretary of Health in the VA was the 
issue of the quality of healthcare in VA hospitals. One of the 
first things I did was to bring in an Associate Chief Medical 
Director for Quality and Management, Dr. Galen Barber. And 
Galen's major assignment was to develop a Blueprint for Quality 
for the VA. That document was produced and was moved forward 
and became basically the basis for the growth in the 
development of all of the quality efforts within the VA over 
the years to come. It was a bedrock document that he produced 
under my overall leadership. We worked at----
    Senator Allard. Is that document being used in this current 
Administration?
    Dr. Holsinger. The document would be outdated now because 
things have progressed in quality management techniques beyond 
where we were but at the time when we came in, the quality 
management techniques in the Veterans Health Administration 
were over 20-years old. They had not kept pace with the 
scientific knowledge and quality management that was present at 
the time. Things have grown past that subsequently.
    One of the first things I was also faced with was the fact 
that in the previous 11 years, in 8 of those, there had been a 
GAO or IG report stating that the VA's Credentialing Program 
for Physicians and Dentists was broken. One of the first things 
Secretary Diwinsky gave me as a task, he said, ``You've got to 
fix it'' and I told him, I could fix it and I would fix it. And 
that was clearly demonstrated a year later, when the Inspector 
General went out and did another survey and came back with a 
report that the system was fixed and part of the Joint 
Commission used that system as a best practice for years in 
their Joint Commission Accreditation visits.
    Senator Allard. One other thing I'd like to clear up for 
the record. My understanding is that you did offer to meet with 
all members of the committee. Is that true?
    Dr. Holsinger. That was my understanding that the staff of 
the Department of Health and Human Services----
    Senator Allard. Had extended an invitation for you to meet 
with all members.
    Dr. Holsinger. That's correct. I was hoping to meet with 
every member.
    Senator Allard. And the staff had informed you they'd made 
that effort?
    Dr. Holsinger. That was my understanding, yes.
    Senator Allard. Yes. And did all of them choose to meet 
with you or not?
    Dr. Holsinger. I did not have an opportunity to meet with 
every member of the committee, no sir.
    Senator Allard. Well, did the staff inform you that any 
members of this committee chose not--said they just didn't have 
time to meet with you or what was the response?
    Dr. Holsinger. I was not informed that that occurred. It 
was simply that----
    Senator Allard. It was just that you just didn't have an 
opportunity to meet with all of them?
    Dr. Holsinger. Well, these were the members that had been 
able to find time for me to meet with them and that apparently, 
others did not.
    Senator Allard. I see. And, now----
    Dr. Holsinger. To my knowledge, no one refused to meet with 
me is the point I'm trying to make, Senator. I have no 
knowledge of that.
    Senator Allard. OK. But that was handled through the staff.
    Dr. Holsinger. That's correct.
    Senator Allard. Yes. Not through your own personal decision 
necessarily.
    Dr. Holsinger. Well, I was willing--more than willing to 
meet with any member.
    Senator Allard. Yes, it was important, I think. Can you 
tell me a little bit about some of your goals that you would 
like to see implemented when you are the Surgeon General?
    Dr. Holsinger. There are three things that I think that are 
on the plate for--I mean, should I be confirmed as Surgeon 
General. One we've talked extensively about, which is the 
obesity issue. I am concerned that we're going to have a 
devastated group of children from obesity if we don't move 
rapidly to deal with the issue and the personal impact on their 
lives of the early onset of diabetes and other diseases will be 
devastating their lives, let alone as far as our budget is 
concerned, as far as healthcare is concerned. So we've talked 
about that extensively.
    Smoking and tobacco use, I am committed to continuing all 
of my predecessors since Dr. Terry's efforts at making America 
a tobacco-free Nation. I think that's where we need to go and 
that's where I'm going to push to try and push one more step 
closer to that, should I be confirmed.
    The third thing is that I am really convinced that one of 
the things that has to happen is the Commission Corp, the 
Public Health Service has to be that leading edge group for us 
to deal with manmade or natural disasters in this post-9/11 and 
Katrina period. We need to have an office--a Commission Corp 
that is second to none in their ability to respond as first 
responders to those kinds of issues and I am committed to 
making sure, should I be confirmed that they have the training 
that's necessary, the organization that's necessary, the 
logistical support that's necessary in order to be able to make 
a difference in the lives of Americans when those kind of 
disasters occur.
    Senator Allard. Well, on your third suggestion, I think 
that there is a lot of foresight in that and obviously, with 
the current threats that we're having now from terrorism and 
what not, I think it's an important part of your 
responsibility, to make sure that the communities and the 
States and the Federal Government are well prepared to address 
many of those potential threats. I know historically, the 
Surgeon General has assumed that role. We haven't talked much 
about it because more popular items have been brought up, like 
the BC and smoking but, the third one is not one where you have 
any special interest group pushing it but it's certainly very 
important to the health and welfare of this country. Thank you.
    Dr. Holsinger. Thank you, Senator.
    The Chairman. Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman. Mr. 
Chairman, the essential problem with the hearing today has 
nothing to do with Dr. Holsinger and his qualifications. It has 
to do with the fact that really the most important witnesses 
are not here and that is the President of the United States, 
the Vice President, Karl Rove and other political appointees 
because no matter how qualified you may be, Dr. Holsinger, what 
we are hearing from the White House is that you may not be able 
to do your job. They will dictate what your job is.
    Let me just quote, if I might, from yesterday's New York 
Times.

        ``The Administration,

Dr. Carmona said,

        would not allow him to speak or issue reports about 
        stem cells, emergency contraception, sex education or 
        prison, mental and global health issues. Top officials 
        delayed for years and tried to water down a landmark 
        report on second-hand smoke,''

he said. Released last year, the report concluded that even 
brief exposure to cigarette smoke could cause immediate harm. 
Dr. Carmona said he was ordered to mention President Bush three 
times on every page of his speeches. He also said he was asked 
to make speeches to support Republican political candidates and 
to attend political briefings. That's yesterday's New York 
Times.
    I regard that as an outrage. I regard that as an extremist 
administration intimidating a public official who is supposed 
to be America's doctor and not just an exponent of a right-wing 
ideology. I consider that to be an outrage. What is your 
response to that report from Dr. Carmona?
    Dr. Holsinger. Well, my sense would be very similar to 
yours, did I know that the facts were that. I simply, as I 
said--I've not had a chance to talk to Dr. Carmona so I have no 
idea as to the kinds of things he experienced. I would tell you 
that I intend--I met with Dr. Koop several weeks ago. I would 
intend to meet with all of my predecessors in an effort to 
understand what their life was like and what I might expect and 
how I might deal with issues.
    Senator Sanders. See, the difficulty that I am having is 
not necessarily the strength or weaknesses of your 
qualifications, be that as it may. It's your willingness to 
stand up to this Administration and say, ``I have a job to do 
to be the doctor for all of the American people and not just to 
espouse a right-wing political ideology and I must be honest 
with you.'' I have not heard you make that commitment to us. 
What happened to Dr. Carmona sounds more like what would 
happen, frankly, under Stalinist Russia than an American 
democracy--that a Surgeon General has to mention the President 
of the United States three times on every page? This doesn't 
sound like the America I know. I think it's an outrage. Tell me 
how you respond to what the New York Times reported.
    Dr. Holsinger. Well, all I can say, Senator, is that, as I 
said before, I think that if I were faced with a situation that 
I felt I could not, in conscious, do, I think I have a clear 
response to that. I would resign. The point being, though, is--
which I'm sorry. I didn't mean to interrupt you.
    Senator Sanders. No, no. Please.
    Dr. Holsinger. The point would be this: I have a particular 
leadership style. Mine may be very different from Dr. 
Carmona's. As I said, I don't know him. I work under a process 
of trying to work with people to understand the issue, to 
determine what I might need to do or not do----
    Senator Sanders. But in all due respect, when you're 
dealing with people like the President, the Vice President, 
Karl Rove--these are very sophisticated political operatives. 
They are very smart. They know what they want to accomplish. 
Have you gone to the President and said, ``Mr. President, under 
no circumstances will I take that kind of censorship and that 
kind of direction. I won't work under those conditions. I need 
to be an independent Surgeon General.''
    Dr. Holsinger. Well, I think that my approach would be that 
as I have stood forth for decades in my life, Senator, I 
believe in doing the right thing in the right way the first 
time. You know, it's just too expensive to do it the other way. 
I believe in doing only what is legally and ethically and 
morally right.
    Senator Sanders. Let me change direction here if I can, 
Doctor.
    Dr. Holsinger. OK.
    Senator Sanders. OK. Let me ask you this. You are, if 
confirmed, will be America's doctor.
    Dr. Holsinger. Yes, sir.
    Senator Sanders. In America today, we have 46 million 
Americans without any health insurance. The cost of healthcare 
is soaring. We are the only Nation in the industrialized world 
that does not guarantee health care to all people. There are 
studies that indicate some 17,000 people die every single year 
because they don't have health insurance. As America's doctor, 
will you advise the President that we have got to move to 
universal healthcare so that all of our people have healthcare 
as a right of citizenship?
    Dr. Holsinger. I would clearly advise that we move to 
remove the uninsured. I don't know what the best way to do that 
is. I think that we need to have every American covered for 
healthcare. As I said, I don't know from a political policy 
point of view what is the best method. But I believe that is a 
position I could advocate strongly for across America, that 
every American needs full, unfettered, nonjudgmental access to 
healthcare regardless of their personal circumstances, period.
    Senator Sanders. With 46 million people uninsured----
    Dr. Holsinger. Is unconscionable.
    Senator Sanders. Thank you. With 46 million people 
uninsured, we pay at least twice as much per capita for 
healthcare as any other Nation on earth. What can we do about 
that?
    Dr. Holsinger. We have spent years bandaiding our system.
    Senator Sanders. I'm sorry?
    Dr. Holsinger. We have spent years bandaiding our system. I 
think that it may be time for us to think about what is the 
system that we would like to see in place.
    Senator Sanders. Are you an advocate of a national 
healthcare system guaranteeing healthcare to all people, as 
every other major country has?
    Dr. Holsinger. Well, you'll have to--you have to remember, 
Senator, that Ovy Rhinehart told me back when I was head of the 
VA system that I was running the largest socialized system in 
the world.
    Senator Sanders. Right. You were.
    Dr. Holsinger. America's--the world's top socialized 
doctor.
    Senator Sanders. And it's a very cost-effective system, is 
it not?
    Dr. Holsinger. I think there are methodologies that we can 
see in both the Federal Employee Health Benefits Plan. There is 
an approach in the VA, potentially is an approach. I think 
there are a variety of approaches. I think that's going to take 
a huge----
    Senator Sanders. Let me ask you this--and I'm sorry to 
interrupt you. It's just that there is a limit of time here. We 
have 9 million--I was shamed, I believe--9 million children in 
this country who have no health insurance at all--not to 
mention 46 million. Will you join some of us in advocating at 
least that every child in America, as soon as possible, has 
health insurance through the expansion of the ASTRA program or 
other programs?
    Dr. Holsinger. I have worked diligently in Kentucky to get 
the maximum of children on the K-Chip program.
    Senator Sanders. Will you support those of us?
    Dr. Holsinger. I support trying to get every child covered, 
one way or another but--and that's the reason why when I re-did 
the Medicaid program in Kentucky, I did it in a way that 
wouldn't cut people off the rolls, as my States around us are 
having to do.
    Senator Sanders. Let me--thank you. Let me just switch 
gears a little bit. As a Nation, we pay by far the highest 
prices in the world for prescription drugs, by far. It's a very 
serious problem for many people. The pharmaceutical industry in 
the last 10 years has spent something like $900 million on 
lobbying to make sure that we pay the highest prices in the 
world. Do you have any views or thoughts about how Congress can 
get a handle on the escalating costs of prescription drugs and 
take on the pharmaceutical industry?
    Dr. Holsinger. I do and it may not be palatable to the 
Congress.
    Senator Sanders. Well, let's hear it.
    Dr. Holsinger. That would be to rescind legislation that 
allows the direct advertising of pharmaceutical agents to the 
public.
    Senator Sanders. OK. So your view is that the 
pharmaceutical companies putting ads on television, pushing 
their products--that should be rescinded, which I, by the way, 
would agree with you. Is that what you're saying?
    Dr. Holsinger. Yes. What I'm saying is, is that puts an 
unconscionable pressure on America's physicians to prescribe 
the blue pill or the pink pill or whatever the pill of the 
month might be and I think that we have done a disservice to 
our physicians by allowing that to occur.
    Senator Sanders. Thank you. I would tend to agree with you. 
My last question. A lot of debate about the impact of 
environmental degradation on health. I come from a small State 
in the Northeast. A lot of my kids have asthma. We think it 
might be related to some of these coal-burning plants in the 
Midwest but that's not the only problem. What role do you see 
as the Surgeon General playing in terms of addressing the 
health problems caused by pollution and environmental 
degradation?
    Dr. Holsinger. I think there is a clear role for the 
Surgeon General to speak to that issue from a bully pulpit. 
Asthma is a major issue in the Commonwealth of Kentucky. It is 
one of the highest costs in our Medicaid program. We are 
clearly aware of the issue and----
    Senator Sanders. Is it tied, do you think, to environmental 
degradation?
    Dr. Holsinger. Well, I'm not 100 percent sure whether it's 
environmental degradation in our case or it's the large amount 
of pasture land that we have because we're such a major horse 
raising State and a major agricultural State. But I think that 
those are the places where I would look to the science to say, 
``What is the issue and where do we go from here?''
    Senator Sanders. Well, let me just conclude and I thank you 
for your presentation. It seems to me that the challenge that 
you face is convincing me and this committee that you are 
prepared to tell the President of the United States that you 
believe in science, you believe in medical knowledge and not 
extremist political ideologies.
    Dr. Holsinger. If I could just say one thing, Senator. I've 
taken positions in my life that have not been comfortable 
positions. Back in 1991, following the end of the Persian Gulf 
Land Campaign, when we first saw the return of Persian Gulf 
veterans complaining of a strange syndrome, Persian Gulf 
Syndrome, I went out on a major limb and issued a directive to 
all VA Medical Centers that we would treat every single 
returning Persian Gulf veteran, whether they were service-
connected or not because by that time, really they weren't and 
who weren't going to get care otherwise, just like we're 
treating individuals who claimed Agent Orange exposure from the 
Vietnam War. I took tremendous heat over that decision but was 
strongly supported in that decision by Congressman Sonny 
Montgomery, who was Chair of the House Veterans Affairs 
Committee at the time and who, within 6 months, was able to get 
the legislation I needed.
    In 2002, I took a stand in a 10-years later report or 
hearing to say that the Secretary of Veterans Affairs needed to 
have congressionally approved standby authority to be able to 
move rapidly to take care of returning service men and women 
from a period of conflict before we actually would know what 
the issues were that were going to require them to be service-
connected.
    Quite honestly, I think if my recommendations had been 
taken in 2002, we may not be in some of the problems we're 
having today with our returning men and women from Iraq and 
Afghanistan. Those were not popular opinions to hold but they 
represent the fact that I am willing to take a stand. I was 
willing to take a stand for America's veterans. I grew up in 
the home of one. It was exquisitely important to me that 
America's veterans received care as the VA's motto is Second to 
None and I stand on that today.
    Senator Sanders. Thank you very much, Doctor.
    The Chairman. Thank you. Thanks very much. I think you--
certainly as a result of the hearing, during the course of the 
morning--have some understanding of the anxiety that exists on 
this committee and I think Senator Mikulski pointed out that 
these are tough issues. These are tough questions but we've got 
to meet certainly our responsibility in terms of advice and 
consent and I think you have to gather, from the sense of the 
questions that have been there, of those of us who have been 
committed to the science over the period of time and understand 
the importance of certainly ethics dealing with the science. I 
mean, you can go nuclear weaponry--there are many other issues 
but that's certainly a part.
    But the whole question, as you've gathered, whether it's in 
the environment, particularly in the health areas, is the 
willingness of people to be--to stick with it and we've had--we 
have a marvelous head at the NIH, Dr. Zerhouni, who testified 
in terms of stem cell research. That took a position different 
from the Administration, a courageous position on his part. He 
was willing to face science but we have seen so many instances, 
as has been pointed out in these questions, where individuals 
have--and Carmona's testimony has really reflected, where the 
science has been subverted and that's just really unacceptable 
and these questions, obviously, to trying to get some ideas 
about where are your own kind of positions. We go back in terms 
of some of these other documents, the older documents, 
primarily to get some kind of an indication as to your 
adherence to science and good science over the past.
    The troublesome aspect in terms of going back to the 1991 
document is that it really represented more of a viewpoint 
rather than the best science that was available. The question 
that I asked you just before my time wound up is what your own 
kind of view about that study was. I think, quite frankly, it's 
a significant stretch to say that was based upon the science 
that was available at that time and we could go over that, 
whether it was a selection in terms of the Copenhagen study, 
one STD clinic there, representing a general population or 
whether the information that was gathered from clinics and from 
trauma centers represents a general population with regards to 
a homosexual community. I don't think that it does and I think 
we want to try and sort of move beyond but I want to be able to 
give you a fair opportunity to make just a final comment about 
that study.
    Because I personally feel that it's flawed and failing to 
take advantage of the range of different information that was 
available and the publication on the bibliography not in--
producing the other information that gave a more balanced and I 
think, more scientifically accurate information, I find 
troublesome. But I'm interested in moving on but I've got to 
know, quite frankly, where you stand on that document because I 
think, at least for me, it's somewhat of an indication. You may 
differ--I mean, you may say, ``Well Senator, I think--I'm 
prepared to take the time, go over the document in detail and 
look at the other information. I think it was sound at the 
particular time.'' But I've got to know what your own view 
about that document is today and what your view is about the 
issue that you were asked to write about in terms of your own 
understanding about the science and where it is today.
    Dr. Holsinger. I think that's a very fair question, Mr. 
Chairman, and I'll attempt to answer it. First of all, the 
paper does not represent where I am today. It doesn't represent 
who I am today and it represented a specific time in a specific 
context and a specific purpose. It's not a published paper. 
I've published outstanding scientific papers. In fact, if 
somebody really wants to read a good paper that I wrote and I 
just published one last year, on what physician professionalism 
in the 21st century should look like and it says we need to get 
away from being independent as physicians and place our effort 
on the needs of the patient, for example. I think that--you 
know, you raised the Copenhagen study. I specifically selected 
this Copenhagen study for a specific reason. It's because of 
the things that were going on in the committee at the time. A 
paper from the United States would have been suspect from the 
point of view of American homophobia for the committee. A paper 
without male and female authorship would have been considered 
patriarchal by the committee. I was looking for a paper that 
addressed not just homosexuality but bisexuality and 
heterosexuality in an effort to give balance to the paper. It 
was a specific effort to try and do something that would be 
found by the committee members to have some substance. I was 
faced with major issues in this committee over those kinds of 
issues. That's the reason why it is a selected paper. It was 
not meant to be all inclusive and it was not meant to be a 
scientific paper that I would ever publish. The fascinating 
thing is, it's had wider distribution of anything I've ever 
written and yet it was never meant to be distributed beyond a 
few people for their own personal use. It's an amazing 
situation as far as I can tell. I'm sorry. I wish I could give 
it a different----
    The Chairman. Well, let me just mention on the Copenhagen 
study, for example. You had one study, one single study and you 
mention the Copenhagen and it was one STD clinic.
    Dr. Holsinger. Yes.
    The Chairman. And yet your paper fails to mention the 
source of the data--relies--is from the STD clinic study and 
the reader is left to assume the figures were taken from a 
general population of Copenhagen, sort of a very small sample 
of men who visited one STD clinic and that's the type of issue 
and question in terms of science.
    Dr. Holsinger. I understand that and that clearly wasn't my 
intent. My intent was to provide----
    The Chairman. You can understand how people----
    Dr. Holsinger. I can clearly understand and I understand 
the reason why people are concerned. And if I've hurt anyone, 
Senator, by that paper----
    The Chairman. Now, it isn't a question of hurting, you 
know. We're not--it's just getting the science right.
    Dr. Holsinger. But I'm also concerned that people take that 
as an example of my scientific work. I would simply ask you to 
read scientific papers that I've published as an example of my 
scientific work.
    The Chairman. OK, fair enough. Let me go into, as the time 
is moving on, into stem cell research. Obviously, there's--I 
don't think there are probably many other areas that have been 
politicized and distorted as the issue of stem cell research. 
Basically, it's not a partisan issue. One of our colleagues, 
Senator Hatch, others on this committee, Mrs. Reagan, others 
have been strong supporters of it.
    On March 20, 2002, at a Kentucky Senate Judiciary Committee 
hearing, you voiced opposition to a bill that would have 
criminalized embryonic stem cell research. Let me remind you of 
some of the other provisions of the Kentucky Human Cloning 
Prohibition Act. It banned both the cloning of a human and the 
development of stem cells for research purposes. It made 
embryonic stem cell research a Class C felony and could have 
led to the imprisonment of doctors, scientists and researchers. 
It also subjected doctors to millions of dollars of fines for 
working with stem cell lines that the National Institutes of 
Health were providing the funds for.
    Do you remember which of the provisions caused you the 
greatest concern?
    Dr. Holsinger. Well, the entire bill caused grave concern 
for me. The reason simply is, is that it would have banned all 
research, regardless of whether it met the President's decision 
in 2001. We were doing research under that decision on the 
current stem cell lines but it would have banned all research 
and not only that, any patient that left the Commonwealth of 
Kentucky and went to another State, should it have passed, and 
come back home to Kentucky with tissue implanted in them 
secondary to an ongoing study in another State, it would have 
criminalized the return to the State. It would have made it a 
Class C felony--in Kentucky, it's the same thing, same level, 
as a second-degree rape or a second-degree manslaughter. It's 5 
to 10 years in prison.
    It was a huge issue for me, likewise for our research 
scientists. Virtually every research scientist with a Federal 
grant has part of their salary paid off of that grant. That's 
part of what has to happen in order to pay their salaries. It 
would have criminalized that to the tune of a million dollar 
fine and a Class C felony.
    The Chairman. Let me just ask, there's--and I won't take 
the time--the overwhelming scientific community, including the 
Director of the NIH, that the current restrictions on stem cell 
research are unjustified. How do you stand? Do you stand with 
the scientific community in agreeing that we ought to move 
ahead with the embryonic stem cell research?
    Dr. Holsinger. Well, in the case of stem cell, I'm in favor 
of doing stem cell research. We are currently doing that. We 
are doing it effectively under the President's current 2001 
decision, which allowed, as I remember, for the first time for 
Federal funds to be used for stem cell research. I think that, 
it seems to me that we're going with an effective program at 
the moment and that we should continue to track and see how 
things turn out if we go forward.
    The Chairman. Senator Enzi. My time is up. I might just 
come back to that in a minute.
    Senator Enzi. Thank you, Mr. Chairman. I came here directly 
from receiving a grant on behalf of the Wyoming State 
Historical Preservation Society from the First Lady on behalf 
of President Bush and it was also an opportunity for an 
historic preservation program that President Bush is supporting 
that I think will make a difference in all 50 States. President 
Bush had Laura do an outstanding job of making that 
presentation.
    Now, the reason I just mentioned this, is I just used 
President Bush in a speech three times. I don't think I 
impugned my integrity at all.
    [Laughter.]
    If anybody can't work the President into a speech when it 
deals with the United States three times without impugning 
their own integrity, they're not very conversant, probably. So 
I appreciated your answers where you mentioned that it mattered 
what context it was supposed to be in. That is a difference and 
I appreciate your integrity on your answers on that.
    We've gone into a lot about what your public pronouncements 
might be and during the term of being Surgeon General, you 
might make some great pronouncement that would make a dramatic 
change in the health of this country and I would hope that 
would be the case.
    But the job is really a lot about management and that's 
probably where the biggest difference will be made. You have 
the oversight for the Commission Corp and given the changes 
since 9/11 and our renewed Federal response after Hurricane 
Katrina, could you more fully describe your vision for this 
Commission Corp? What key items would be addressed so that the 
officers can appropriately respond? How do you keep those 
individuals focused on both the day-to-day public health 
activities as well as potential disaster response? That's going 
to be one of your major functions, I think.
    Dr. Holsinger. You have just hit on a major issue, Senator 
Enzi. I think that one of the most important things that can 
come out of the next budget cycle for the Public Health Service 
Commission Corp is the rapid response team's additional 220 
lines that I've heard are supposed to be in that budget.
    This would allow for the Commission Corp to have two 
dedicated rapid response teams who would be full-time rapid 
response teams. As you know, currently every Corp Officer is 
assigned to an agency and in order to be able to pull the rapid 
response teams in requires pulling them from the agency in 
which they work full-time. That would then move to the second 
tier of individuals.
    But in order to be able to have a Commission Corp that is 
ready to go into action in the case of a manmade or natural 
disaster, we need to have well-done, appropriate readiness 
training carried out and I would work to develop and make sure 
that we had the funds available to have that kind of 
outstanding training available. I've heard recently that there 
are some 800 officers going to Fort Sam in Houston, Texas to 
Camp Bullis for in-the-field training in this cycle. I think 
that is absolutely critical.
    If there is one thing I learned out of 31 years in the Army 
Reserve, it's the importance of having your troops trained and 
ready to move at a moment's notice.
    The other thing that's got to be key is making sure that 
the Corp has the logistics available that they need in order to 
be able to respond and be where they need to be in the time 
they need to be there. But I think that we can work through 
those kinds of issues as part of the transformation of the 
Public Health Service Commission Corp, which is currently 
underway and which I would move to rapidly bring to fruition 
and finalize it in an effort to be able to move as forward in 
this post-9/11 and Katrina period.
    Senator Enzi. Thank you and I appreciate the meeting that 
we had and more depth of questions that I was able to go into 
at that time. I really appreciate the management skills that 
I've learned about and read about and I appreciate the 
leadership that you provided when you were on the Cabinet of 
Health and Family Services in Kentucky, where your State did 
get the A in School Foods Report Card and the changes that you 
put into place to get that award.
    I think you have a wide range of knowledge that would serve 
us well in the position of Surgeon General and I hope members 
of the committee will look at the record, probably ask some 
additional questions and then get you confirmed so that you can 
be in a position where you can do the kinds of things that will 
lead this country on as the Nation's doctor.
    Thanks again, as I mentioned in my opening remarks, for 
subjecting yourself to this important process and it is an 
important process and seeing it as an opportunity to answer 
questions that may have been taken out of context before. So I 
appreciate the wonderful job you've done doing that.
    The Chairman. Thank you. Let me, Doctor, I'll just conclude 
here. On the stem cell research, there are obviously moral and 
scientific judgments. I'm interested just in the scientific 
judgment. Would the opportunity for scientific and medical 
progress be greater if the President's restrictions on the 
Federal funding of stem cell research, if they were rescinded?
    Dr. Holsinger. I have to confess, Senator Kennedy that I 
have since the 2002 hearing, not had a lot of reason to stay 
engaged in the stem cell discussions. So I'm not as informed on 
both the science on current stem cell work as well as some of 
the new alternative processes that are coming. I simply don't 
feel comfortable giving you my opinion when I don't feel like 
I've had the proper time to study it.
    The Chairman. Let me just mention on one final item. On 
these first responders, if this moves ahead, it's going to be 
one of the key issues in public policy, is whether on this 
first--what kind of compensation they're going to receive and 
whether they are going to be indemnified if they get on into 
these dangerous situations. We're asking people to volunteer if 
we have a dangerous pandemic or biochemical kind of talk and 
asking the first responders--firefighters and policemen--to go 
over and check out something. If they are going to be 
contaminated and endangered and lose maybe their lives or be 
seriously injured, if we're not going to be able to invest in 
them and ensure that their well-being, themselves and also 
their families, this process isn't going to work. You have seen 
this in the past. So I hope--but that's very--that's an issue 
that's divided up to here in terms of what we ought to do about 
it. But another issue at another time, we'll come to grips 
with.
    Thank you, thank you very much. We thank all your family 
for being very patient and we thank all of our audience for 
their courtesy in listening through. The committee now stands 
in recess.
    Dr. Holsinger. Mr. Chairman, thank you so much for this 
opportunity. Senator Enzi, thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Clinton

    Chairman Kennedy and Ranking Member Enzi, I would like to 
thank you for holding this hearing on the Administration's 
nominee for Surgeon General.
    We must not underestimate the crucial role the Surgeon 
General plays in promoting public health and raising awareness 
and educating the public about important health issues.
    We witnessed the impact of this position in the early 
1960s, when Surgeon General Luther Terry increased public 
understanding of the adverse impacts of smoking on our health, 
laying the groundwork for our current smoking cessation and 
secondhand smoke awareness efforts. We witnessed the impact of 
Surgeon General C. Everett Koop providing Americans with 
honest, scientific information about HIV and prevention methods 
at a time when there was much fear and ignorance about AIDS. 
And we saw the impact of Surgeon General David Satcher's focus 
on issues of health disparities, and the need to reduce the 
disproportionate burden of often-preventable diseases on our 
communities of color.
    Unfortunately, this Administration has sought to use the 
Surgeon General's office not as a platform to provide accurate 
information about health care, but to advance an ideological 
and political agenda.
    Earlier this week, former Surgeon General Richard Carmona 
testified before the House of Representatives, noting that 
during his tenure, he faced significant interference from the 
current Administration. In his testimony, he states that the 
Administration went so far as to discourage his cooperation 
with a Special Olympics event--an organization that has helped 
millions of children with special needs--because the group was 
founded by Democrats. As Dr. Carmona noted, ``The job of 
surgeon general is to be the doctor of the Nation--not the 
doctor of a political party.''
    But I am concerned that President Bush is doing exactly 
that--placing ideological beliefs over the Nation's public 
health needs.
    Among other duties, the Surgeon General is charged with 
protecting and advancing the health of the Nation through 
disease prevention and health promotion efforts. He or she is 
supposed to articulate scientifically based health policy 
analysis and advice for the President and the Secretary of 
Health and Human Services. And the Surgeon General is supposed 
to elevate the quality of public health practice in the 
professional disciplines through the advancement of appropriate 
standards and research priorities.
    I have grave concerns about the ability of Dr. Holsinger to 
fulfill these duties.
    A quarter century after the AIDS epidemic first appeared in 
our country, there is still stigma and ignorance about HIV. We 
need, as our Nation's chief health educator, someone who will 
be able to provide unbiased and accurate information about 
prevention and treatment.
    Several of the comments Dr. Holsinger has made about 
homosexuality raise doubts about his ability to be effective in 
this role as chief health educator, especially if the American 
people cannot rely on him as a source of unbiased scientific 
information.
    Many of our Nation's HIV and AIDS groups, including the New 
York AIDS Coalition, have stated their opposition to Dr. 
Holsinger because of these comments. If there is distrust 
between those who are on the front lines of our prevention 
efforts and the lead prevention advocate of our Federal 
Government, I fear that it will set back our efforts to prevent 
the more than 40,000 new HIV infections we face annually.
    I am also concerned about Dr. Holsinger's management record 
while serving as Chief Medical Director for the Veterans Health 
Administration. During his tenure, the General Accounting 
Office released with a report documenting several cases where 
patients died because of substandard care at the VA. And during 
his tenure as Kentucky's Secretary for the Cabinet and Family 
Services, Dr. Holsinger failed to adequately address problems 
at a State institution for individuals with developmental 
disabilities, leading the Center for Medicare and Medicaid 
Services to notify the facility that it would be cutting off 
Medicaid funds due to lack of compliance with Federal 
regulations.
    This experience does not bode well for the ability of Dr. 
Holsinger to elevate the quality and standards of public health 
practice in our Nation.
    Indeed, our Nation's leading public health advocacy 
organization, the American Public Health Association, has 
stated their opposition to Dr. Holsinger's nomination. At a 
time when we have so many pressing public health issues facing 
us, it is critical we have someone who will inspire confidence 
among providers, patients and the public.
    Because of the questions that have been raised about Dr. 
Holsinger's qualifications and ability to fulfill the duties of 
the job, I do not believe that he will be able to provide 
adequate leadership in the public health field as Surgeon 
General, and I must go on the record as opposing his 
nomination.
                           LETTERS OF SUPPORT
        The C. Everett Koop Institute at DARTMOUTH,
                                    Hanover, New Hampshire,
                                                      July 2, 2007.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Building,
Washington, DC. 20510.
    Dear Ted: I am writing today in support of Dr. James W. Holsinger. 
Jr.'s nomination as Surgeon General of the U.S. Public Health Service. 
Since serving as Surgeon General 20 years ago, I have never written on 
behalf of a nominee.
    As the Nation faces unprecedented rates of chronic disease and 
other public health threats (to say nothing of natural or intentional 
catastrophies), we need a physician with the experience and leadership 
to educate the American people as Surgeon General. His 40 years of 
public service as a physician and an educator make him an impressive 
choice. He has a proven record during that time of bringing diverse 
parties together to address challenging issues. Most recently, he has 
worked to address the growing obesity epidemic by successfully leading 
the Healthy Kentucky initiative in his home State. Those I know who 
know him well concur.
    Since 1871, the Surgeon General has served as American's chief 
health educator, giving our citizens the best, most up-to-date 
information on how to improve their health and reduce the risk of 
disease. Surgeon General Luther Terry's 1962 report raised concern 
about smoking and health that led to today's broad-based efforts to 
reduce tobacco use. During my tenure as Surgeon General, I issued a 
report on AIDS, which helped provide accurate, comprehensive 
information to give Americans a greater understanding of a new and 
frightening disease, and proved tobacco was addictive and side-stream 
smoke, a killer. I know that Dr. Holsinger will continue in this 
tradition and serve as a strong voice for the public health needs of 
all Americans.
    Dr. Holsinger's experience is outstanding. I have confidence that 
he is an admirable choice to carry on as the 17 Surgeon Generals who 
preceded him. I urge the Senate to act quickly to confirm him.
            Sincerely yours,
                                C. Everett Koop, M.D., ScD.

    PS: I miss the days you and I stood in the ``swamp'' in front of 
the Capitol and put the cigarette folks in their place.
                                 ______
                                 
                           World Methodist Council,
                            Lake Junaluska, North Carolina,
                                                      June 8, 2007.

    The World Methodist Council, a Christian World Communion, began in 
1881 and today is composed of 74 denominations in more than 132 
countries with ministries that reach 75 million persons. Dr. James W. 
Holsinger has been a leader in the World Methodist family since 1986. 
The following statements supporting his nomination as Surgeon General 
of the United States are from Dr. John C.A. Barrett, Chairperson, and 
the Officers of the Council. Dr. Barrett is an ordained member of the 
British Methodist Church and Principal of the Anglo-Chinese School in 
Singapore.
    Dr. James Holsinger has been a leader in the World Methodist 
Council since 1986. The Council is the voice of the World Methodist/
Wesleyan family around the world and speaks to issues such as war, 
injustice, poverty, HIV/Aids, etc. Dr. Holsinger's experience, insight, 
compassion and concern have helped to guide us in addressing concerns 
on behalf of the Methodist/Wesleyan family. He has worked with the 
leadership of Churches from around the world on behalf of the Council 
and is appreciated for his competency, intellect and concern for all 
persons, irrespective of their ethnicity, race, religion, wealth, 
status. gender or sexual orientation. I feel he will serve his country 
very well as the Surgeon General of the United States.
                                 ______
                                 
    Statement from John C.A. Barrett, United Kingdom, Chairperson, 
            and the Officers of the World Methodist Council

    As a leader in the field of medicine, education and healthcare 
administration, Dr. James W. Holsinger possesses the highest degree of 
integrity and commitment to excellence in his profession. As a leader 
in the World Methodist Council, he brings the same commitment in 
working with Church leadership around the world. As evident from his 
leadership, he is known for his compassion and concern for equal 
treatment of all persons, whatever their circumstances or location. His 
sense of fairness and commitment to justice are evident in all of his 
contributions to our work together through the World Methodist Council.

    Dr. John C. A. Barrett, United Kingdom/Singapore, Chairperson, 
World Methodist Council; Dr. George H. Freeman, General Secretary, 
World Methodist Council; Dr. Fran Alguire, Chapel Hill, North Carolina, 
Honorary President, World Methodist Council; Bishop Heinrich Bolleter, 
Zurich, Switzerland, World Methodist Council Geneva Secretary; Dr. 
Eddie Fox, Nashville, Tennessee, Director of World Evangelism, World 
Methodist Council; Bishop William Hutchinson, Louisiana Area United 
Methodist Church, Baton Rouge, Louisiana; Bishop Lawi Imathiu, 
Methodist Church of Kenya, Chancellor, Kenya Methodist University, 
Meru, Kenya; Larry Malone, President, World Fellowship of Methodist and 
Uniting Church Men, Samuel Samuels, Panama, Methodist Church of the 
Caribbean and the Americas; Bishop Kyung Ha Shin, Presiding Bishop, 
Methodist Church of Korea; Rev. Jill Van de Geer, General Secretary, 
Methodist Church of New Zealand.
                                 ______
                                 
              American College of Physicians (ACP),
                                              May 31, 2007.
Hon. Harry Reid,
Majority Leader,
U.S. Senate,
528 Hart Senate Office Building,
Washington, DC. 20510.

Hon. Edward Kennedy,
Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
317 Russell Senate Office Building,
Washington, DC. 20510.
    Dear Majority Leader Reid and Chairman Kennedy: On behalf of the 
American College of Physicians (ACP), the Nation's largest medical 
specialty society representing 123,000 internal medicine physicians and 
medical students, I am pleased to express our strong support of the 
nomination of Dr. James Holsinger, Jr., M.D., MACP for U.S. Surgeon 
General. Dr. Holsinger's dedication to public health, academic 
achievement, and devotion to public service distinguish him as an 
excellent choice for this position.
    Dr. Holsinger has served with distinction as the Secretary of 
Health and Family Services for the Commonwealth of Kentucky, the 
Chancellor of the University of Kentucky Medical Center, and as chief 
of staff or director of several VA medical centers during a 26-year 
career with the U.S. Department of Veterans Affairs. He successfully 
led the effort to construct a Women's Health Center and the creation of 
a School of Public Health at the University of Kentucky. In 1994, he 
established a new health center to provide care underserved and 
predominately minority population in northern Lexington, Kentucky. Dr. 
Holsinger has been a member of ACP since 1971 and has been awarded a 
mastership in the College, a highly distinguished honor bestowed upon 
those exhibiting preeminence in practice or medical research, holding 
positions of high honor, or making significant contributions to medical 
science or the art of medicine.
    I strongly believe Dr. Holsinger's experience and accomplishments 
in the field of medicine make him an excellent choice to be the next 
Surgeon General. On behalf of ACP, I am proud to support his 
nomination.
            Sincerely,
                                 David C. Dale, M.D., FACP,
                                                         President.
                                 ______
                                 
                       University of Kentucky (UK),
                                             June 15, 2007.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Building,
Washington, DC. 20510.
    Dear Senator Kennedy: It is my great pleasure to support the 
nomination of James Holsinger, M.D., Ph.D. for Surgeon General of the 
United States, I am dean emeritus of the University of Kentucky College 
of Medicine and I currently direct the Office of Health Research and 
Development at the University. I worked with Dr. Holsinger in his 
capacity as Chancellor of the University of Kentucky Chandler Medical 
Center for 9 years. Please consider this my strongest recommendation.
    I have great respect for Dr. Holsinger, and I fully endorse his 
nomination for Surgeon General. First, I don't think you will find a 
person better prepared for this important role. He has had a long and 
illustrious career as a physician, a cardiologist, a clinical 
anatomist, a teacher and a medical administrator. He has served these 
roles in many capacities including academic medicine, public health, 
Veterans Administration health system, university administration, and 
the Kentucky State health system. Second, when you have the opportunity 
to talk to Dr. Holsinger, you will find that he is a student of 
medicine and all aspects of health care. His knowledge and experience 
come from his capacity to read and absorb large amounts of material 
related to health care and other fields. His extensive education 
background further attests to his eagerness to learn and to expand his 
thinking. Third, I believe Dr. Holsinger will excel in this position 
because he is an experienced administrator. The people of this Nation 
face many behavioral risk factors such as smoking, poor eating habits, 
and decreased physical activity that result in chronic diseases, 
causing decreased productivity and often premature death. If we are 
going to deal with problems such as these, we will have to start in 
early childhood. His interest in addressing childhood obesity will 
speak to this need. His knowledge and experience in the health of the 
public and his administrative experience at both national and State 
levels greatly enhance the likelihood of his success in this position. 
Finally, I think you will find that Dr. Holsinger has the personal and 
professional attributes which are necessary for this responsibility. He 
is disgustingly pleasant and relates to all people as colleagues. When 
he first came to the University of Kentucky, I had concerns about his 
prior history as a military person and as a VA administrator. I must 
now say that I have never known anyone more collegial and more caring.
    Quite frankly, the concerns expressed by certain groups that Dr. 
Holsinger would not be appropriate for this position was a surprise to 
me. In the 9 years I worked with him, I never once heard negative 
remarks or connotations toward any such groups or any other segment of 
the population. In fact, he was an advocate for accessible and 
affordable health care for everyone. He is above any remarks or any 
position that would denigrate any segment of the population.
    In summary, I urge you and the other members of the Senate to 
confirm and even endorse Dr. Holsinger as Surgeon General. I will 
assure you that he will not embarrass you or others in this Nation. If 
I can provide additional information on his behalf, I will be happy to 
do so.
            Sincerely,
                                      Emery A. Wilson, M.D.
                                 ______
                                 
                            University of Kentucky,
                                       Lexington, Kentucky,
                                                     June 16, 2007.
Hon. Edward Kennedy,
Chair,
317 Russell Senate Building,
Washington DC. 20510.
    Dear Senator Kennedy: I am writing to support the nomination of Dr. 
James Holsinger for the position of Surgeon General of the United 
States. I have known Dr. Holsinger for nearly 10 years, first when he 
served as Chancellor of the University of Kentucky Medical Center, 
followed by his work as Secretary for the Cabinet of Health and Family 
Services and now as a faculty member at the University of Kentucky. 
Through all these years, I have consulted with Dr. Holsinger, and he 
with me. We have discussed student social work internships in the 
Medical Center; we have discussed inter-professional education, 
including his support of problem-based learning and we have discussed 
the place of academic social work in University medical centers.
    When he was appointed Secretary for the Cabinet of Health and 
Family Services, he immediately sought my assistance as well as 
assistance from our faculty in the College of Social Work. I was a 
member of his ``kitchen cabinet'' as we attempted to take on thorny 
issues of child welfare service delivery, the funding problems for such 
services and the questions around academic preparation for front line 
social workers in public child welfare.
    Through these years, I know Jim Holsinger only as a wonderful human 
being who works toward human betterment whether he is working with 
individual patients or setting policy in State government. His concern 
in working with me has always been, how can we ``fix things'' to make 
systems work better for people. How can we insure that at-risk children 
receive the services they must have and how can we create a more able 
workforce to serve vulnerable people? These are all big questions based 
upon big ideas.
    I know of his special interests in vulnerable children. He and his 
wife were foster parents themselves, many years ago. His own children 
have all grown to be people who serve others. I believe that he would 
articulate and support health policies that would insure a better 
future for children. I completely support him for Surgeon General.
            Sincerely,
                                               Kay Hoffman,
                          Dean and the Dorothy A. Miller Professor 
                                          in Social Work Education.
                                 ______
                                 
                          House of Representatives,
                                  Commonwealth of Kentucky,
                                                     June 19, 2007.
Hon. Edward M. Kennedy,
U.S. Senator,
317 Russell Senate Building,
Washington, DC. 20510.
    Dear Senator Kennedy: It gives me great pleasure to express my 
wholehearted support for the appointment by President George W. Bush of 
Dr. James Holsinger as our country's 18th Surgeon General.
    As a State representative and Chair of the Budget Review 
Subcommittee on Human Resources in the Kentucky Legislature, I have had 
the privilege of working extensively with Holsinger in decisionmaking 
processes that affect health care for Kentuckians. Time after time I 
witnessed Dr. Holsinger making decisions that he believed were right 
and would be in the best interests of the people, rather than doing 
what would have been ``politically popular'' for him. I firmly believe 
that he would serve with an even deeper commitment to the best 
interests of all Americans in his capacity as Surgeon General.
    Dr. James Holsinger is deeply committed to providing quality, 
affordable health care for all Americans. As you know, our Nation faces 
public health issues that require immediate attention of the Surgeon 
General, including childhood obesity. The challenges that have faced 
Surgeon Generals in the past and continue to face them today are to 
ensure that Americans live longer, better, and healthier lives. I have 
no doubt that Dr. Holsinger is a perfect fit to confront the task 
before him.
    Thank you for your thoughtful consideration of Dr. James 
Holsinger's appointment as America's 18th Surgeon General. Please feel 
free to contact me if you wish to discuss this further.
            Sincerely,
                                                Jimmie Lee,
                                              State Representative.
                                 ______
                                 
                                              June 7, 2007.
Hon. Mitch McConnell,
U.S. Senate,
Washington, DC. 20510.
    Dear Senator McConnell: I am writing in support of the nomination 
of Dr. Jim Holsinger as U.S. Surgeon General.
    I was employed during Dr. Holsinger's tenure at the University of 
Kentucky in the Chancellor's Office. As a lesbian employee, I have 
nothing but the highest regard and respect for Dr. Holsinger. He was 
not only a kind and fair leader, but also a caring friend.
    I have many personal anecdotes of his justness and equanimity in 
the workplace. Much has changed in the world in the 16 years since he 
wrote the papers which has attracted unfortunate media attention. I 
believe this was evidenced most clearly by Dr. Holsinger's support of 
the Lesbian Health session at the Women's Health Conference.
    I will also share that during my pregnancy (via artificial 
insemination), Dr. Holsinger was kind enough to assist me in getting in 
to see a specialist that had no openings. He was no longer at the 
University and still came to my assistance. I consider Jim Holsinger 
not just a former employer, but also a friend, A man who does not 
discriminate.
    I am a liberal democrat and a member of gay and women's rights 
organizations. Still, I strongly support Dr. Jim Holsinger as a leader 
and administrator who is able to see across divisive issues and relate 
with integrity to people, no matter their life circumstances. He is the 
right candidate for U.S. Surgeon General and I am proud to support him.
    Thank you for your consideration.
            Yours sincerely,
                                             Maria Kemplin.
                                 ______
                                 
                                            EXODUS,
                                         Orlando, FL 32854,
                                                      June 6, 2007.
       Exodus Supports White House Nominee's Position on Change 
                            in Homosexuality
    Orlando, FL.--President Bush's nominee for Surgeon General, Dr. 
James W. Holsinger, has recently come under attack for supporting the 
fact that homosexuals can change. Dr. Holsinger founded Hope Springs 
Community Church, a church that offers help to individuals seeking an 
alternative to homosexuality. Alan Chambers, president of the world's 
largest outreach to those affected by unwanted same-sex attraction, 
issued a response:

          ``As former homosexuals, we cannot ignore this hypocritical 
        attack upon Dr. Holsinger. As a society, we should not 
        disqualify an individual simply because of his belief that 
        those conflicted by their same-sex attraction can and should be 
        helped. Thousands of us have experienced inner distress and 
        external devastation when we were living as homosexuals and 
        have found a faith honoring a psychologically sound way out. We 
        know that change is possible because we have experienced it. 
        Opposing this alternative is incompatible with free thinking 
        and personal choice.
          ``While we do not support or oppose the nominee, we are 
        grateful that President Bush has put forth a candidate who 
        supports individual autonomy and authentic diversity. We call 
        upon members of the Senate Health Committee to offer the same 
        tolerance afforded gay activist groups to former homosexuals as 
        well.''
                                 ______
                                 
    National Ex-Gay Group Defends Surgeon General Nominee Holsinger 
              and Ex-Gay Community Attacked by Gay Groups

    Washington, DC.--Parents and Friends of Ex-Gays & Gays (PFOX) today 
condemned the bigoted remarks by gay activists being made about the new 
Surgeon General nominee. Gay rights groups are attacking Dr. James 
Holsinger's nomination because his church is inclusive of ex-gays and 
he supports the right to self-
determination regarding one's sexual attraction.
    Ex-gays and Americans who support the right to self-determination 
of same-sex attraction are routinely ridiculed by the very people who 
claim to be victims themselves. ``Gay activists lobby to be included in 
tolerance policies, hate crimes and employment non-discrimination 
legislation, but work hard to deny ex-gays the right to the same 
treatment,'' said Regina Griggs, executive director of PFOX. ``This 
demonstrates how far the gay rights movement has moved from self-
described victims to proactive perpetrators.''
    ``Ex-gays should not have to be closeted for fear of other's 
negative reactions or disapproval,'' Griggs said. ``They do not think 
something is wrong with them because they chose to fulfill their 
heterosexual potential. We need to ensure the safety, inclusion, and 
respect of former homosexuals in all realms of society, but especially 
by the medical and mental health communities starting at the highest 
levels.''
    ``As a medical doctor, it seems Dr. Holsinger is aware that 
contrary to distortions by gay activists, no professional medical or 
mental health associations deny the right of any individual to seek 
support in resolving unwanted same-sex attractions.'' Griggs said. 
``Indeed, these associations adhere to a code of ethics which call for 
their members to support the client's right of self-determination.''
    ``Americans need to face the growing issue of bigotry perpetrated 
upon ex-gays and their supporters. Gay activists cannot claim sympathy 
as victims when they attack ex-gays for political purposes of their 
own,'' said Griggs. ``Tolerance is not a one-way street. All 
individuals with unwanted same-sex attractions deserve the right to 
self-determination and happiness based on their own needs, and not the 
political inconvenience of others.''
                                 ______
                                 
                      Academy of General Dentistry,
                                         Chicago, Illinois,
                                                      July 6, 2007.
Hon. Edward M. Kennedy,
U.S. Senate,
Washington, DC. 20510.
    Dear Senator Kennedy: The Academy of General Dentistry is a 
professional organization representing 35,000 general dentists. Our 
mission is to advance the value and excellence of general dentistry and 
one of the primary ways in which we accomplish this is by requiring our 
members to achieve 75 hours of continuing education over a 3-year time 
period.
    Last month, I had the pleasure of meeting with Ms. Nicky Bassford, 
in your office to discuss several items of importance to the AGD and 
general dentists. Our legislative council is currently in the process 
of reviewing your Minority Health and Health Disparity Elimination Act 
of 2007, (S. 1576). Today, I write you to request your support on 
another matter which AGD supports.
    As you are aware, on June 5, 2007 the president nominated Dr. James 
Holsinger to be the 18th Surgeon General of the United States. AGD 
supports this nomination and requests that you shepherd his nomination 
through committee and vote to confirm him.
    In Federal services, Dr. Holsinger served for over 31 years in the 
U.S. Army Reserve, with his Reserve career culminating with his 
assignment to the Joint Staff as Assistant to the Director for 
Logistics in 1989, and his promotion to Major General in 1990. Dr. 
Holsinger, likewise, served for 26 years in the Department of Veterans 
Affairs (VA), retiring on July 13, 1994. His career culminated in his 
appointment by the President of the United States as Chief Medical 
Director of the Veterans Health Administration on August 6, 1990. In 
1992, he became Undersecretary for Health, Department of Veterans 
Affairs.
    In academia, Dr. Holsinger served as Chancellor of the University 
of Kentucky Medical Center from 1994 to 2003. In State service he 
served as Secretary of the Kentucky Cabinet for Health and Family 
Services from 2003 to 2005. Dr. Holsinger currently serves as a 
Professor of Preventive Medicine and Environmental Health at the 
University of Kentucky.
    Dr. Holsinger is a consummate professional with vast experience in 
health care systems administration, research, academia, and government. 
AGD is of the firm belief that, with confirmation, Dr. Holsinger will 
aid in the effort to secure access to oral health care for all 
Americans, especially those who are disadvantaged.
            Sincerely,
                         Vincent C. Mayher, Jr., DMD, MAGD,
                                                         President.
                                 ______
                                 
                         LETTERS OF OPPOSITION
                     Congress of the United States,
                                     Washington, DC. 20515,
                                                     June 25, 2007.
Senator Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC. 20510.

Senator Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC. 20510.
    We write to express our serious concerns regarding the nomination 
of Dr. James Holsinger to the position of Surgeon General. Allegations 
have recently surfaced suggesting that Dr. Holsinger harbors anti-
homosexual prejudices that make him ill-suited to serve the public 
health needs of all Americans.
    As America's chief health educator, the Surgeon General must be 
relied upon to provide Americans with the best scientific information 
on how to improve their health and reduce the risk of illness and 
injury. However, given Dr. Holsinger's record, specifically writings in 
which he equates homosexual acts to pathology, we are concerned that 
his own biases will prevent him from objectively evaluating 
scientifically based health care information.
    We therefore urge you to closely examine his record during the 
upcoming confirmation hearing and carefully scrutinize his record on 
gay, lesbian, bisexual, and transgender Americans as part of his 
qualifications to become the next Surgeon General of the United States.
            Sincerely,

    Tammy Baldwin, Raul Grijalva, Jim McDermont, Keith Ellison, Neil 
Abercrombie, Jan Schakowsky, Eliot Engel, Carolyn Maloney, Barney 
Frank, Zoe Lofgren, Shelley Berkley, Dianne DeGette, Linda Sanchez, 
Debbie Wasserman Schultz, Lois Capps, Sam Farr, Christopher Murphy, 
Peter Welch, Henry A. Waxman, Louise M. Slaughter, Mazie K. Hirono, 
Barbara Lee, Robert Wexler, Rosa DeLauro, Ellen Tauscher, Hilda L. 
Solis, Howard Berman, Anna Eshoo, James Moran, Jerrold Nadler, Rush 
Holt, Maurice Hinchey, Gary Ackerman, Gwen Moore, and Lynn Woolsey.
                                               Members of Congress.
                                 ______
                                 
         American Public Health Association (APHA),
                                Washington, DC. 20001-3710,
                                                     July 11, 2007.
Hon. Edward Kennedy, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Bldg.,
Washington, DC. 20510.
    Dear Chairman Kennedy: On behalf of the American Public Health 
Association (APHA), I write to express our serious reservations 
regarding the nomination of James Holsinger, Jr., M.D., for surgeon 
general of the United States. APHA is the Nation's oldest, largest and 
most diverse organization of public health professionals in the world 
representing more than 50,000 members from over 50 public health 
occupations--dedicated to protecting all Americans, their families and 
their communities from preventable, serious health threats and assuring 
community-based health promotion and disease prevention activities and 
preventive health services are universally accessible in the United 
States.
    As our Nation's most trusted advisor and leading educator on 
health, the surgeon general plays a vital role in promoting health, 
preventing disease and protecting the public. Scientific objectivity 
must be the standard for any nominee.
    APHA is very concerned with Dr. Holsinger's past writings regarding 
his views of homosexuality, which put his political and religious 
ideology before established medical science. We have long opposed 
discrimination against individuals based on their sexual orientation. 
At a time when one of our association's top priorities is to eliminate 
disparities in health, including disparities in the gay and lesbian 
community, we cannot support a nominee with discredited and non-
evidence-based views on sexuality. While we have no doubt that Dr. 
Holsinger has made positive contributions throughout his medical and 
public health career, we believe his previously expressed views on 
sexuality are inconsistent with mainstream medicine and public health 
practice and ask that you thoroughly examine them.
    We are hopeful that the Senate will reject his nomination and urge 
the President to put forth another nominee. This nominee must be an 
established leader on a broad range of public health and health care 
issues. The nominee should have experience and training in population 
health and be respected and accepted by his or her counterparts at the 
Federal, State and local levels. Finally, he or she must be able to 
engender trust, bring people together and be a professional with the 
highest level of ethics and objectivity while working to protect the 
health of all Americans.
    Thank you for your attention to our concerns regarding Dr. 
Holsinger's nomination.
            Sincerely,
         Georges C. Benjamin, M.D., FACP, FACEP (Emeritus),
                                                Executive Director.
                                 ______
                                 
                                              June 7, 2007.
                              NEWS RELEASE
       log cabin republicans* urge senate to reject nominee for 
                          u.s. surgeon general
    Washington, DC.--Log Cabin Republicans urge the Senate to reject 
Dr. James Holsinger's nomination to serve as U.S. Surgeon General. 
``Dr. Holsinger's professional views about sexual orientation fall far 
outside the scientific mainstream, and call into question his ability 
to fairly deal with critical medical issues,'' said Log Cabin President 
Patrick Sammon. While the President should ordinarily receive the 
benefit of the doubt in his appointments, the post of U.S. Surgeon 
General requires a nominee who relies on science and fact.''
---------------------------------------------------------------------------
    * Log Cabin Republicans is the Nation's largest organization of 
Republicans who support fairness, freedom, and equality for gay and 
lesbian Americans. Log Cabin has State and local chapters nationwide, 
full-time offices in Washington, DC. and Sacramento, CA, a Federal 
political action committee and State political action committees. 
www.logcabin.org.
---------------------------------------------------------------------------
    Holsinger's professional opinion on gays and lesbians is contained 
in an eight-page report that he wrote in 1991 for the United Methodist 
Church, entitled, ``Pathophysiology of Male Homosexuality.'' The 
report, which goes into graphic detail about sexuality, has received 
harsh criticism from medical experts for its ideological overtones and 
false statements about the nature of gays and lesbians. He argued in 
the report that homosexuality is biologically unnatural.
    Holsinger was a founder of Hope Springs Community Church in 
Lexington, Kentucky. The church operates a so-called ``ex-gay'' 
ministry, which seeks to change a person's sexual orientation--a 
concept that has been debunked by every major medical and psychological 
association and mainstream researcher who has studied this issue.
    ``The medical community has long rejected the notion that sexual 
orientation can be changed,'' said Sammon. ``The fact that Dr. 
Holsinger advocates this type of junk science is troubling and 
represents a wholesale rejection of accepted and mainstream scientific 
opinion.''
    ``During the Senate confirmation hearings, we expect a thorough 
examination of Holsinger's professional views,'' said Sammon. ``Absent 
a full and complete explanation from him, one that makes it clear that 
he rejects the junk science he once embraced, the Senate should reject 
his nomination.''
                                 ______
                                 
                                              June 5, 2007.
   The National Physicians Alliance Expresses Deep Concern Over the 
   Nomination of Dr. James Holsinger, Jr. for Surgeon General of the 
                             United States

    Reston, VA.--The National Physicians Alliance today announced that 
it has serious reservations regarding Dr. James Holsinger 's nomination 
for surgeon general of the United States. The concern is based on 
Holsinger's apparent authorship of a piece entitled ``Pathophysiology 
of Male Homosexuality,'' which wields the jargon of medical science in 
support of his strong, well documented religious opposition to 
homosexuality.\1\ \2\ If Holsinger did indeed author this document, the 
implications are worrisome.
---------------------------------------------------------------------------
    \1\ James W. Holsinger, Jr., M.D., ``Pathophysiology of Male 
Homosexuality,'' Prepared for the Committee to Study Homosexuality of 
The United Methodist Church (Jan. 14, 1991).
    \2\ http://confessingumc.org/Newsletter/cmnewsma98.html.
---------------------------------------------------------------------------
    According to the U.S. Department of Health and Human Services, 
``The Surgeon General serves as America's chief health educator by 
providing Americans the best scientific information available on how to 
improve their health and reduce the risk of illness and injury.'' \3\
---------------------------------------------------------------------------
    \3\ http://www.surgeongeneral.gov/aboutoffice.html.
---------------------------------------------------------------------------
    ``We cannot abide a surgeon general prejudiced against an already 
underserved and medically stigmatized population,'' said Dr. Lydia 
Vaias, president of the National Physicians Alliance. ``It is 
imperative that the Nation's chief health educator publicly recognize 
and work to address the health concerns of all people, including the 
GLBT community. Homosexuality itself is not an illness and prejudice 
based on the religious exclusion of gay and lesbian people is not 
consistent with medical ethics. The surgeon general should not be a 
person predisposed to denigrate an entire swath of our population.''
    United across medical specialties, the National Physicians Alliance 
seeks to restore physicians' primary emphasis on the core values of our 
profession: service, integrity, and advocacy. We work to improve health 
and well being, and to ensure equitable, affordable, high quality 
health care for all people.
    To learn more about the National Physicians Alliance, our strategic 
priorities, and what makes us different, please visit us online at 
http://www.npalliance.org/.
                                 ______
                                 
                                               AIDS ACTION,
                                                      June 6, 2007.
Hon. Edward Kennedy,
U.S. Senate,
317 Russell Senate Office Bldg.,
Washington, DC. 20510.

Hon. Michael Enzi,
U.S. Senate,
379 Russell Senate Office Bldg.,
Washington, DC. 20510.
    Dear Chairman Kennedy and Ranking Member Enzi:  On behalf of AIDS 
Action I am writing to express our opposition to the confirmation of 
Dr. James W. Holsinger, Jr. as the Surgeon General of the United 
States.
    The mission of the Surgeon General is that ``The Surgeon General 
serves as America's chief health educator by providing Americans the 
best scientific information available on how to improve their health 
and reduce the risk of illness and injury.'' The Surgeon General of the 
United States has long been called America's doctor. There should never 
be a question about the Surgeon General's devotion to helping Americans 
to lead fit and healthy lives, nor their commitment to science.
    Dr. Holsinger has a long, documented history of prejudice towards 
lesbians and gay men. This includes attempting to put a scientific 
veneer on his prejudice. In a paper prepared for the Committee to Study 
Homosexuality of the United Methodist Church, Dr. Holsinger argues that 
male homosexuality is ``pathophysioloigical'' (an abnormal function) 
largely on his descriptions of the difference between the alimentary 
and reproductive systems. This was an unscientific argument even during 
the 1990s and is less scientific today. Perhaps even more troubling, 
Dr. Holsinger helped to found Hope Springs Community Church which 
``ministers to people who no longer wish to be gay or lesbian.'' 
Reparative therapy, also called conversion or reorientation therapy has 
been repeatedly discredited by mainstream medical, psychiatric and 
psychological organizations, including the American Medical Association 
and the American Psychiatric Association. Unfortunately, Dr. 
Holsinger's writing and support for a widely disputed and potentially 
harmful approach leads AIDS Action to conclude that he is not able to 
commit to the bedrock principles of science.
    AIDS Action believes that the Surgeon General must be committed to 
all Americans including those who have been left behind by our Nation's 
healthcare system (as several people living with HIV are). As you are 
well aware, HIV/AIDS is a disease, made all the more insidious because 
of the high levels of stigma made against men, women and even children 
who are living with the disease. Such stigma is often compounded by 
biases towards race, gender, sexual orientation or income levels. The 
personal biases of Dr. Holsinger are likely to perpetuate the stigma 
associated with HIV/AIDS and homosexuality, hindering efforts to combat 
the HIV epidemic in the United States.
    In the past, the Surgeons General of the United States have been at 
the forefront of leadership against HIV. For example Surgeon General C. 
Everett Koop, the Surgeon General under President Ronald Reagan took 
the unprecedented action of mailing information about HIV to every U.S. 
household. Surgeon General David Satcher who served under President 
Clinton certified, on the basis of all available scientific evidence, 
that needle exchange both lowered the rate of transmission of HIV 
infection and did not increase substance abuse. Both of these decisions 
were made in the face of strong political opposition but faithfully 
adhered to the current science. We must expect no less of the next 
Surgeon General.
    One of the duties of the Surgeon General is to provide leadership 
in promoting special departmental health initiatives such as HIV 
prevention efforts. Regretfully AIDS Action does not believe that Dr. 
Holsinger, will ever be able to inspire the confidence of people living 
with HIV/AIDS, nor will he be able to overcome his background of 
leadership in efforts to specifically stigmatize lesbians and gay men, 
who continue to be highly affected by HIV. Consequently we oppose his 
nomination and ask that you do so as well.
            Sincerely,
                                              Rebecca Haag,
                                                Executive Director.
                                 ______
                                 
                                                     July 11, 2007.
Hon. Edward Kennedy,
U.S. Senate,
317 Russell Senate Office Bldg.,
Washington, DC. 20510.

Hon. Michael Enzi,
U.S. Senate,
379 Russell Senate Office Bldg.,
Washington, DC. 20510.
    Dear Chairman Kennedy and Ranking Member Enzi: We, the undersigned 
HIV/AIDS, lesbian, gay, bisexual and transgender (LGBT), women's rights 
and human rights service and advocacy organizations, are writing to 
express our opposition to the confirmation of Dr. James W. Holsinger, 
Jr., as the Surgeon General of the United States.
    As you deliberate Dr. Holsinger's nomination, please remember that 
the mission of the Surgeon General is to serve as America's chief 
health educator by providing Americans the best scientific information 
available on how to improve their health and reduce the risk of illness 
and injury. The Surgeon General of the United States has long been 
called America's doctor. As America's doctor, the Surgeon General must 
be devoted to helping ALL American's lead healthy lives and be firmly 
committed to science.
    Dr. Holsinger has had an extensive medical career; however, he also 
has a long documented history of prejudice towards lesbians and gay 
men. HIV/AIDS continues to be one of the most devastating public health 
crises facing our Nation, heavily impacting the gay community. HIV/AIDS 
is a disease made all the more insidious because of the high levels of 
stigma surrounding homosexuality. Dr. Holsinger's personal biases, 
which he has expressed publicly, are likely to perpetuate stigma 
associated with homosexuality, hindering efforts to combat the HIV/AIDS 
epidemic in the United States. It is doubtful that Dr. Holsinger will 
be able to advance objective public health policies for the LGBT 
community if he believes that homosexuality should be discouraged and 
altered.
    In 1991, Dr. Holsinger prepared a paper for the United Methodist 
Church entitled ``Pathophysiology of Male Homosexuality,'' in which he 
attempts to give a scientific and medical rationale for his opinions 
that homosexuality is abnormal and that the sexual practices of gay men 
pose health dangers. In this paper, he repeatedly misrepresents and 
distorts medical science, including the studies he cites in order to 
support his own beliefs. Furthermore, Dr. Holsinger makes several 
fallacious claims in his paper, which were refuted by widely published 
and well respected medical and public health journals. Some of these 
studies were published as much as a decade before Dr. Holsinger's 
paper.
    His record also shows his support for reparative therapy to 
``cure'' homosexuals. Reparative therapy, also called conversion or 
reorientation therapy, has been repeatedly discredited by mainstream 
medical, psychiatric and psychological organizations, including the 
American Medical Association, the American Psychological Association 
and the American Psychiatric Association. This practice has been shown 
to lead to depression and even suicide. If Dr. Holsinger has approved 
of its use, it conflicts with his duty to accept and promote sound 
science in the interest of public health.
    Dr. Holsinger's attempts to put a scientific veneer on his 
prejudices and his writing and support for a widely disputed and 
potentially harmful approach leads us to conclude that he is not able 
to adhere to the bedrock principles of science and puts his ability to 
advocate for the better health of all those living with and at risk for 
HIV/AIDS into serious question. We believe that if confirmed, he will 
not gain the confidence of people living with HIV/AIDS and will further 
marginalize and stigmatize LGBT people.
    In the past, the Surgeons General of the United States have been at 
the forefront of leadership against HIV. For example Surgeon General C. 
Everett Koop, the Surgeon General under President Ronald Reagan took 
the unprecedented action of mailing information about HIV to every U.S. 
household. Surgeon General David Satcher who served under President 
Clinton certified, on the basis of all available scientific evidence, 
that needle exchange both lowered the rate of transmission of HIV 
infection and did not increase substance abuse. Both of these decisions 
were made in the face of strong political opposition but faithfully 
adhered to the current science. We must expect no less of the next 
Surgeon General.
    A Surgeon General with a record of prejudice towards and bias 
against lesbians and gay men would likely be a divisive, polarizing 
figure and detrimental to the health and well-being of all Americans. 
Furthermore, a Surgeon General that is not committed to evidence-based 
science would jeopardize public heath efforts such as the prevention, 
care, and treatment of HIV/AIDS.
    Consequently, we oppose the nomination of Dr. James Holsinger, Jr., 
for Surgeon General. As confirmation hearings ensue, we ask that you 
also oppose his nomination.
            Sincerely,

    Advocates for Youth--Washington, DC.; AIDS Action Baltimore--
Baltimore, MD; AIDS Action Coalition--Huntsville, AL; AIDS Action 
Committee of Massachusetts, Inc--Boston, MA; AIDS Action Council--
Washington, DC.; AIDS Care Ocean State--Providence, RI; AIDS Family 
Services--Buffalo, NY.; AIDS Foundation of Chicago--Chicago, IL; The 
AIDS Institute--Washington, DC.; AIDS Project Los Angeles--Los Angeles, 
CA; AIDS Resource Alliance, Inc.--Williamsport, PA; AIDS Services 
Foundation Orange County--Irvine, CA; AIDS Survival Project, Georgia's 
Statewide Resource for Community-based Advocacy and HIV Treatment 
Education--Atlanta, GA; AIDS Taskforce of Greater Cleveland--Cleveland, 
OH; Alliance of AIDS Services Carolina--Raleigh, NC; Altamed Health 
Services Corporation--Los Angeles, CA; American Academy of HIV 
Medicine--Washington, DC.; Americans for Safe Access--Washington, DC.; 
amfAR, The Foundation for AIDS Research--Washington, DC.; Association 
of Nutrition Services Agencies--Washington, DC.; Austin Health Center-
CBC Initiative--Chicago, IL; Brothers Uplifting Brothers, Inc--
Merrillville, IN; Campaign to End AIDS--Florida; Central Illinois 
FRENDS of PWA, Inc.--Peoria, IL; CHAIN (Community HIV/Hepatitis 
Advocates of Iowa Network)--Des Moines, IA; Chattanooga CARES HIV/AIDS 
Resource Center--Chatanooga, TN; Community HIV/AIDS Mobilization 
Project (CHAMP)--Providence, RI; The Feminist Majority--Arlington, VA; 
Gay Men's Health Crisis--New York, NY; Hispanic AIDS Forum--New York, 
NY; HIVictorious, Inc--Madison, WI; Housing Works, Inc--Brooklyn, NY; 
Hudson Pride Connections--Jersey City, NJ; Human Rights Campaign--
Washington, DC.; Legacy Community Health Services, Inc--Houston, TX; 
The Lesbian, Gay, Bisexual & Transgender Community Center--New York, 
NY; Liberty Research Group, HIV/AIDS Advocates and Consultants--
Rochester, NY; The LIFE Program--VA; Lifelong AIDS Alliance--Seattle, 
WA; The LOFT: LGBT Community Center for New York's Lower Hudson 
Valley--White Plains, NY; Log Cabin Republicans--Washington, DC.; 
Milwaukee LGBT Community Center--Milwaukee, WI; Minnesota AIDS 
Project--Minneapolis, MN; Montrose Counseling Center--Houston, TX; The 
NAMES Project/AIDS Memorial Quilt--Atlanta, GA; Nashville Cares--
Nashville, TN; National Alliance of State & Territorial AIDS 
Directors--Washington, DC.; National Association of Lesbian, Gay, 
Bisexual and Transgender Community Centers--Washington, DC.; National 
Association of People with AIDS--Silver Spring, MD; National Coalition 
for LGBT Health--Washington, DC.; National Council of Jewish Women--
Washington, DC.; National Gay and Lesbian Task Force--Washington, DC.; 
National Minority AIDS Council--Washington, DC.; Needle Exchange 
Program of Asheville--Asheville, NC; New York AIDS Coalition--New York, 
NY; New York Association on HIV over Fifty--New York, NY; New York 
State Black Gay Network--New York, NY; North Shore Health Project--
Gloucester, MA; Oklahoma Native American AIDS Coalition--Tulsa, OK; 
Open Door Clinic--Elgin, IL; Outreach, Inc.--Madison, WI; Parents, 
Families and Friends of Lesbians and Gays (PFLAG)--Washington, DC.; 
Pittsburgh AIDS Task Force--Pittsburgh, PA; Planned Parenthood 
Federation of America--Washington, DC.; Project HOPE of DEAF, Inc--
Allston, MA; Project Inform--San Francisco, CA; Seacoast Outright--
Portsmouth, NH; Sexuality Information and Education Council of the 
United States (SIECUS)--Washington, DC.; SMART, Inc- Sisterhood 
Mobilized for AIDS/HIV Research and Treatment--New York, NY; 
SmithBarnabee & Co., LPA--Bedford, OH; South Carolina Campaign to End 
AIDS--Columbia, SC; Special Audiences, Inc--Newark, NJ; Tapestry 
Health--Greenfield, MA; Tarzana Treatment Centers--Los Angeles, CA; 
Tennessee Association of People with AIDS--Nashville, TN; TII CANN--
Title II Community AIDS National Network--Washington, DC.; Whitman 
Walker Clinic--Washington, DC.
                                 ______
                                 
                                The AIDS Institute,
                                           Washington, DC.,
                                                      June 6, 2007.
  the aids institute registers grave concerns about nomination of the 
                       next u.s. surgeon general
    Washington, DC.--The AIDS Institute is expressing grave concerns 
over the nomination of Dr. James Holsinger as the next U.S. Surgeon 
General. ``While Dr. Holsinger does have a substantive medical 
background, there are a number of disturbing reports from his past that 
are raising red flags,'' commented Dr. Gene Copello, Executive Director 
of The AIDS Institute. ``Particularly troubling are his views on 
homosexuality. HIV/AIDS continues to be a major public health epidemic 
in the United States. With the gay community so heavily impacted by 
HIV/AIDS, we question if Dr. Holsinger is the right person to be 
`America's chief health educator.' ''
    ``If the nomination is ever considered by the Senate Committee on 
Health, Education, Labor, and Pensions, we trust Senators will 
carefully examine the many reports being made about Dr. Holsinger's 
past to determine if he is the best qualified physician in the country 
to serve as the Nation's Surgeon General for the next 4 years. The 
public health of all Americans, including gay, lesbian, bisexual, and 
transgender Americans, is just too important,'' Copello continued.
    According to numerous reports, Dr. Holsinger helped to found a 
church that ministers to persons changing their sexual orientation (so 
called ``ex-gays'') and preaches that homosexuality is a chosen 
lifestyle not an orientation. He also endorsed a pastor who tried to 
prohibit an openly gay man from joining the church. Time magazine 
reported in 1991 that Dr. Holsinger quit a United Methodist Church 
panel on homosexuality ``because he felt certain the report would 
follow liberal lines.'' He also has written that when viewing 
homosexuality, ``biological and anatomical incompatibility'' should be 
considered.
    Copello concluded: ``It's difficult to see how a person with these 
views would be able to reach out to and be accepted by the gay 
community as an effective health and wellness messenger, a central role 
of the U.S. Surgeon General.''
                                 ______
                                 
Hon.  Edward Kennedy, Chairman,
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington DC. 20510.

Hon.  Michael Enzi, Ranking Member,
U.S. Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC. 20510.
    Dear Senators Kennedy and Enzi: We are writing in anticipation of 
the hearing on President George Bush's nominee for Surgeon General of 
the United States, Dr. James W. Holsinger, Jr. As medical professionals 
who have had a long interest in the many public health issues facing 
the United States we feel compelled to express our concerns about Dr. 
Holsinger's 1991 paper, ``Pathophysiology of Male Homosexuality,'' 
prepared for the Committee to Study Homosexuality of The United 
Methodist Church. Among our contributers we feel compelled to point out 
that Dr. Owen is a co-author of one of the works that was specifically 
cited in Dr. Holsinger's paper. Others of us have written about or 
worked directly on, the health issues of lesbians, gay men, bisexual 
and transgender (LGBT) people at the time the paper was written and 
through the present.
    We start by stating that we recognize that the paper was 
specifically written to advocate in support of the position that 
homosexuality is a ``pathophysiology'' (abnormal function) for the 
purpose of a discussion within the Methodist Committee to Study 
Homosexuality and also that the paper was not submitted to peer review. 
However, the paper is medically significant because Dr. Holsinger 
specifically writes from his authority as a doctor with the intention 
of basing his beliefs in science. As such, Dr. Holsinger specifically 
cites consideration of anatomy, physiology, and pathophysiology. It is 
clear that the paper was meant to impress upon the committee the idea 
that there was a scientific consensus within some disciplines for 
concluding that homosexuality is abnormal. Were it not for his both 
explicit and implicit claim that the paper represents a consensus 
within parts of the scientific community we would not concern ourselves 
with the document. Unfortunately, we believe that the document 
misrepresents the actual scientific understanding of homosexuality in 
1991.
    The thesis of Dr. Holsinger's work is that male homosexuality is a 
pathophysiological (e.g., abnormal) function. Dr. Holsinger seeks to 
support this via one main assertion, that the male and female sex can 
be scientifically shown to be complementary. He implies, but does not 
specifically state, that if it can be shown that the sexes are 
complementary, sexual behavior outside of this complementary structure 
is necessarily abnormal. As proof of complementarity, he cites the 
separation of the alimentary and reproductive systems in humans. He 
then cites instances of elevated disease and injury levels among 
homosexuals as evidence that homosexuals have breached the 
complementarity of the sexes. In fact one of the key issues that Dr. 
Holsinger fails to note in this paper is that risky or unsafe sexual 
practices can lead to the health issues whether or not they occur in 
the heterosexual and homosexual population. This conclusion was widely 
understood at the time Dr. Holsinger wrote this paper. Dr. Holsinger 
makes much of this supposed elevation of disease and injury within the 
gay male community and in our opinion in several instances the data 
that Dr. Holsinger cites is either misrepresented or glaringly 
incomplete and thus does not reflect the scientific consensus as it was 
known even in 1991. The paper looks even less scientific in light of 
today's knowledge.
    First it is important to note that we do not take a position on the 
concept of ``complementarity'' except to note that as the concept is 
used in this paper, it is essentially a religious or non-scientific 
concept and consequently not subject to proof under the scientific 
method. Dr. Holsinger begins his discussion on complementarity on pp. 
1-2 by noting that there is a scientific consensus that the alimentary 
and reproductive systems are separate and then further asserts that the 
``vagina is designed to receive the penis'' (emphasis added). He 
further seeks to show that this is true by noting that the vagina has a 
squamous epithelium (a protective layer of cells) and a muscular tube 
``intended'' to receive the penis (emphasis added).
    Unfortunately evidence of design is not a testable scientific 
hypothesis. It is certainly true to note that most scientists in 1991 
(and today) may have accepted the concept that the vagina and penis 
mutually evolved. However, it would not have been possible at the time 
and is not currently possible now for scientists to take the next step 
and state that mutual evolution means that the vagina is ``intended'' 
to ``complement'' the penis. This is not a scientifically testable 
hypothesis. Unfortunately, it is difficult to tell whether this 
confusion over the scientific and religious meanings of the word 
``complementary'' is intentional or simply in error.
    While we take issue with the portrayal of science as we have stated 
above, we have greater concerns with the sections of the paper that 
purport to show elevated rates of disease among gay men. In our 
opinion, Dr. Holsinger misrepresented data from some of the studies 
which he cites by failing to include important points from those 
studies that would have undermined his points. Additionally although he 
cites 14 studies in his bibliography we do not believe that he 
accurately depicted the thrust of most of those studies and we also do 
not believe that he accurately represented the wide range of opinion 
and papers available in 1991.
    First, Dr. Holsinger draws conclusions from samples that are not 
representative of men who have sex with men (MSM). The studies cited by 
Dr. Holsinger are neither random nor representative of the overall 
population of gay men. For example, on page 3 Dr. Holsinger purports to 
give data on the rates of STDs among men who have sex with men. 
However, the study he cites draws its data from a sample of 365 men at 
a single STD clinic in Copenhagen. This is a small sample based on a 
specific urban environment. It cannot be taken as representative of all 
gay men. Similarly, the major studies by Agnew, Bush, and Geist (pages 
2-5) observe conditions in patients who visited an emergency room. 
Since the sample takes place in an emergency setting it will of 
necessity yield alarming instances of injury and sickness, but 
emergency room patients simply are not representative of all men who 
engage in anal intercourse with other men, indeed it is likely that 
very few gay men experience trauma due to anal intercourse sufficient 
to cause them to go to the emergency room. While the studies themselves 
are sound, Dr. Holsinger misuses them to attempt to support his own 
conclusions--conclusions that they are not intended to support.
    A well-known, peer-reviewed study, ``The Gay Report on Sexually 
Transmitted Diseases'' found that ``specific sexual activities such as 
anal sex and anilingus did not appear to be as important as the number 
of different lifetime sexual partners and furtive sexual activities.'' 
That study was reported 10 years prior to 1991 and was based on a large 
sample size of more than 4,000 answers to a survey on sexual health and 
practices conducted in 1977. While we do not believe that Dr. Holsinger 
should have attempted to cite every study available to him, it is a 
reality that there were hundreds if not thousands of studies available 
and many of these studies concluded that safe sex between men who have 
sex with men was possible. Dr. Holsinger ignores this large body of 
work.
    Even more problematically, Dr. Holsinger misapplies data from 
sources discussing heterosexual sex, non-consensual sex and sex in 
which proper safety precautions are not practiced to imply that 
consensual anal sex between men is more dangerous than vaginal sex 
between men and women. In doing so, we believe that he seriously mis-
states the dangers of male-to-male anal sex and contravenes the 
scientific consensus about anal sex between males as it was known in 
1991.
    There are numerous examples of this. On page 2, the data from the 
Bush and Geist studies drew evidence largely from victims of sexual 
assault (generally female victims in the Geist study), which Dr. 
Holsinger does not mention in his writing. By excluding this important 
data Dr. Holsinger implies that his conclusions are about consensual 
sex between men rather than sexual assault on either a man or a woman. 
On the same page, Dr. Holsinger discusses abrasions and lacerations 
that result from penetration by foreign objects with the implication 
that this is typical of men who have sex with men. However, Agnew whose 
study is miscited by Dr. Holsinger actually discusses penile-anal 
intercourse separately with different findings. Data on harm from 
penetration by foreign objects cannot be used to support conclusions 
about intercourse, yet this is precisely what Dr. Holsinger attempts to 
do.
    It was well known in 1991 that anal sex could be safely practiced 
both between straight men and women and between gay men. Unfortunately 
that anal sex between men could be practiced safely is never mentioned 
by Dr. Holsinger, despite the fact that it was explicitly stated in the 
very papers that he cites. This is a very serious omission. On page 5, 
Dr. Holsinger quotes the Bush study as saying,

      ``Consensual penile-anal intercourse can be performed safely 
provided there is adequate lubrication. Few anorectal problems and no 
evidence of anal-sphincter dysfunction are found in heterosexual women 
who have anal-receptive intercourse.''

    Dr. Holsinger does not give any explanation as to why similarly 
safe anal sex cannot be practiced by men who have sex with men. Dr. 
Holsinger also fails to note that Geist states that lacerations to the 
anus are ``neither uncommon nor serious'' and describes similar vaginal 
lacerations that can occur during penile-vaginal intercourse.
    Dr. Holsinger follows this dual reasoning throughout his paper and 
often implies that conditions which apply to both men who have sex with 
men and their straight male and female counterparts are exclusively 
problematic for men who have sex with men. Most dramatically on page 3 
Dr. Holsinger, quoting from the Owen study, lists 26 sexually 
transmitted diseases that ``may be encountered in homosexually active 
men.'' However, all of these diseases may also be encountered in 
sexually active heterosexual men and women. Dr. Holsinger does not note 
that. On page 6 he discusses the presence of anal warts and their 
relationship to human papilloma virus (HPV). He does not additionally 
note that HPV is related to elevated levels of genital warts and 
cervical cancer among women. It should be stated that HPV was not as 
well understood in 1991 as it is today. However, it was known that HPV 
had a strong correlation with genital warts and cervical cancer and 
complete omission of this topic as being an issue among sexually active 
straight men and women also does not reflect the scientific consensus 
of that time.
    One consequence of Dr. Holsinger's exclusive focus on injury and 
sexually transmitted disease is that he implicitly and explicitly 
accuses all MSM of engaging in high-risk sexual practices. This is a 
complete exaggeration. A paper published in 1986 concluded after 
compiling survey answers from 403 MSM in New York City from 1982-1983 
that the average number of sexual partners per month had declined by 
nearly 50 percent, and that 49.5 percent of MSM had cut down on or 
entirely stopped unsafe activities such as unprotected anal sex. 
Similarly, two other studies published in 1987 and 1989 reached the 
same conclusions: that promiscuity and unprotected sex had declined in 
response to education about the risks of HIV/AIDS.
    Finally the paper significantly sidesteps the scientific consensus 
from fields other than those listed in the paper. This severely 
reductive approach thus allows Dr. Holsinger to bypass studies that 
directly undercut his theory that homosexuality is abnormal from fields 
other than biology, anatomy, physiology, pathology and pathophysiology. 
Most notable of course, the view of homosexuality as a mental illness 
(and thus abnormal in the sense that most people understood the term to 
mean) had long been rejected by the medical establishment. In 1973, the 
American Psychiatric Association removed homosexuality from the 
Diagnostic and Statistical Manual of Mental Disorders (DSM), the 
official manual that lists mental and emotional disorders. The American 
Psychological Association passed a resolution supporting the removal 
within the next 2 years.
    In 1991, the medical field did not believe that homosexuality was 
abnormal. Most of the medical field accepted the conclusion found in a 
lengthy review of the literature on men who have sex with men that, 
``Physicians can best help their homosexual patients by accepting them 
and their relationships nonjudgmentally and by understanding their 
special health needs.''
    In summation, we have deep concerns about Dr. Holsinger's paper. We 
are concerned that the paper misrepresents, in the aforementioned ways, 
the studies on which the paper was based. In addition, it explicitly 
seeks to show that there is a complementarity to the male and female 
sexes. Unfortunately the concept of complementarity as Dr. Holsinger 
describes it is not testable and is thus not scientific.
    Finally the paper implicitly attempts to show that there is a 
scientific consensus for the proposition that homosexuality is 
abnormal, when in fact the scientific consensus in 1991 was much more 
strongly in favor of the concept that homosexuality is not abnormal and 
is not a disorder. Incidentally, that consensus has only strengthened 
over time. We are forced to draw the conclusion that Dr. Holsinger's 
paper is not based on science but rather is ideology with a veneer of 
science.
    As ``America's Doctor'' and chief health educator, the Surgeon 
General of the United States must be firmly and undoubtedly committed 
to the best science available. Dr. Holsinger's paper puts his ability 
to base health policies on scientific evidence, rather than ideological 
principles, into question. We therefore urge you to reject Dr. 
Holsinger's nomination.

    Jerry Cade, M.D., AAHIVS AAHIVM Public Policy Committee, UNLV 
University Medical Center, Las Vegas, NV; Judith Feinberg, M.D., AAHIVS 
AAHIVM Public Policy Committee, Infectious Disease Center, University 
of Cincinnati, Holmes Hospital, Cincinnati, OH; Jason Flamm, M.D., 
AAHIVS AAHIVM Public Policy Committee, Kaiser Permanente, Sacramento, 
CA; Eric Goosby, M.D., Pangaea Global AIDS Foundation, San Francisco, 
CA; Steve O'Brien, M.D., East Bay AIDS Center, Oakland, CA; William F. 
Owen, Jr., M.D., Co-author of ``Trauma and Other Noninfectious Problems 
in Homosexual Men,'' San Francisco, CA; Jeffrey T. Schouten, M.D., JD, 
AAHIVS AAHIVM Public Policy Committee Seattle, WA; Charles M. Walworth, 
M.D., Center for Special Immunology, Fountain Valley, CA; and Michael 
T. Wong, M.D., AAHIVM Public Policy Committee, Beth Israel Deaconess 
Medical Center, Division of Infectious Disease, Boston, MA.
                                 ______
                                 
             Methodist Federation for Social Action (MFSA)
To:  The Senate Committee on Health, Education, Labor, and Pensions: 
Senators Edward Kennedy, Christopher Dodd, Tom Harkin, Barbara A. 
Mikulski, Jeff Bingaman, Patty Murray, Jack Reed, Hillary Rodham 
Clinton, Barack Obama, Bernard Sanders, Sherrod Brown, Michael B. Enzi, 
Judd Gregg, Lamar Alexander, Richard Burr, Johnny Isakson, Lisa 
Murkowski, Orrin G. Hatch, Pat Roberts, Wayne Allard, and Tom Coburn, 
M.D.

From:  The Rev. Kathryn Johnson, Executive Director, Methodist 
Federation for Social Action, Bishop Clifton Ives, Co-President, 
Methodist Federation for Social Action, and Ms. Marilyn Outslay, Co-
President Methodist Federation for Social Action
Date: June 22, 2007

Re: The Nomination of Dr. James Holsinger for Surgeon General

    On behalf of the Methodist Federation for Social Action, a 
nationwide network of United Methodists, we are writing to express deep 
concern about the nomination of Dr. James Holsinger to the position of 
Surgeon General of the United States and to urge the Senators who will 
be acting on this nomination to take these concerns into account.
    As church leaders, we are not in a position to critique Dr. 
Holsinger's medical credentials. We do feel qualified, however, to 
comment on his demeanor and effectiveness in positions of leadership 
within the United Methodist Church.
    Dr. Holsinger serves as the President of the United Methodist 
Judicial Council, the ``Supreme Court'' of the United Methodist Church 
if you will. In the past few years an unprecedented number of decisions 
supported by Dr. Holsinger and the conservative majority of which he is 
part, have been challenged by the Council of Bishops and in two cases 
have been reversed. In a case decided last year related to the court's 
understanding of who has authority to determine church membership, the 
court's decision has caused an uproar throughout the church.
    Both in his work with the United Methodist Committee to Study 
Homosexuality and in his position as President of the United Methodist 
Judicial Council, Dr. Holsinger's actions often appear to be 
ideologically driven. This certainly seems to be the case with the 
paper he authored entitled, ``Pathophysiology of Male Homosexuality.'' 
In this paper Dr. Holsinger lifts up health concerns related to the 
sexual behavior of some homosexuals. He writes about this not as a 
means to say that the medical field must therefore aid homosexual men 
in maintaining their health, but rather to propose that male homosexual 
behavior is ``pathological.''
    In one of the most helpful articles we have found written about the 
work of Dr. Holsinger, author Jim Burroway has carefully studied 
Holsinger's ``Pathophysiology of Male Homosexuality'' and concludes 
that it has ``very little scientific value.'' He writes, ``Worse, it 
shows a startling eagerness to pull evidence out of context to provide 
damning evidence against gay men, while willfully ignoring counter 
evidence in the same literature which essentially destroys the core of 
his arguments.'' We strongly commend this paper to anyone in a position 
to make decisions related to Dr. Holsinger's fitness to serve as 
Surgeon General. It can be found at http://www.boxturtlebulletin.com/
2007/06/11/431.
    There have been reports in the press about Dr. Holsinger's 
respectful behavior with individual gay and lesbian persons. We have no 
reason to doubt accounts of acts of individual kindness. Dr. Holsinger 
has not been nominated, however, to serve as a chaplain to individuals. 
He has been nominated to a position as the Nation's chief health 
educator.
    There have also been press reports challenging opponents to Dr. 
Holsinger for attacking him on the basis of his religious beliefs. We 
wish to be very clear that we are not doing this. We have no problem 
with persons of faith serving in public office. Nor would we discourage 
individuals from allowing their faith commitments to inform their 
ethics in making decisions. Indeed, as an organization, we encourage 
this. Our concern comes when we observe a person, such as Dr. 
Holsinger, appearing to sacrifice medical and scientific accuracy in 
support of his ideological commitments.
    At a time when our Nation is deeply polarized on so many issues, it 
is important to have someone in the position of surgeon general who is 
widely trusted across the board, a person Americans believe will act 
with medical integrity. Americans must be confident that the surgeon 
general will promote the common good, making decisions and promoting 
policies in the best interest of all citizens.
    Perhaps most important, national leaders, including the surgeon 
general, should be persons who can bridge the inevitable divisions that 
arise between citizens in a pluralistic society such as ours. We 
question whether Dr. Holsinger is such a person.
                                 ______
                                 
            The North American Old Catholic Church,
                                Washington, DC. 20002-6427,
                                                      June 7, 2007.
Senator Edward Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

    Dear Mr. Chairman: I write to you today regarding President Bush's 
nomination of Dr. John Holsinger for the position of Surgeon General of 
the United States.
    In media reports, it has become apparent that Dr. Holsinger, 
through a church he helped to found in Kentucky, advocates a 
``treatment'' for homosexuality called Conversion Therapy, which uses 
spiritual and unfounded, dangerous, and harmful ``psychological'' 
methods to ``treat'' the condition of being gay.
    According to the Web site for the office of the Surgeon General of 
the United States, one of the chief responsibilities of the Surgeon 
General is \1\ ``To articulate scientifically based health policy 
analysis and advice to the President and the Secretary of Health and 
Human Services (HHS) on the full range of critical public health, 
medical, and health system issues facing the Nation.''
---------------------------------------------------------------------------
    \1\ http://www.surgeongeneral.gov/aboutoffice.html.
---------------------------------------------------------------------------
    In reviewing The American Psychological Association Web site, it is 
apparent that Conversion Therapy is not based in any way on scientific 
fact, but on bias, prejudice, and ideological perspectives that are 
inconsistent with quality mental health standards. On the APA Web 
site,\2\ they state:
---------------------------------------------------------------------------
    \2\ http://www.apa.org/logics/orientation;htm;/conversion 
therapies.

          ``Some therapists who undertake so-called conversion therapy 
        report that they have been able to change their clients' sexual 
        orientation from homosexual to heterosexual. Close scrutiny of 
        these reports however show several factors that cast doubt on 
        their claims. For example, many of the claims come from 
        organizations with an ideological perspective which condemns 
        homosexuality. Furthermore, their claims are poorly documented. 
        For example, treatment outcome is not followed and reported 
        overtime as would be the standard to test the validity of any 
---------------------------------------------------------------------------
        mental health intervention.

    The American Psychological Association is concerned about such 
therapies and their potential harm to patients. In 1997, the 
Association's Council of Representatives passed a resolution 
reaffirming psychology's proposition to homophobic in treatment and 
spelling out a client's right to unbiased treatment and self-
determination. Any person who enters into therapy to deal with issues 
of sexual orientation has a right to expect that such therapy would 
take place in a professionally neutral environment absent of any social 
bias.
    It is apparent that Dr. Holsinger advocates a psychological 
``treatment'' to homosexuality that is not rooted in science, but 
rooted in prejudice.
    The person appointed Surgeon General of the United States should be 
a practitioner who advocates and participates in sound, proven medical 
treatments that have been accepted by the professional medical 
societies in the appropriate field of study. Conversion Therapy does 
not meet that litmus test.
    While we respect Dr. Holsinger's right to freely practice his 
religious beliefs in his private life and medical practice, upon 
appointment to be America's physician, his practice becomes public, and 
he needs to represent only sound, accepted medical treatments to 
American Citizens.
    His ready acceptance of this controversial treatment, a treatment 
that is opposed by practitioners specially trained in psychoanalysis 
demonstrates his inability to properly fill the role of Surgeon General 
of the United States.
    On behalf of our clergy and members of our congregations in 
Wisconsin, Illinois, Tennessee, Kentucky and the District of Columbia, 
we strongly encourage you to vote AGAINST Dr. Holsinger's confirmation 
as the eighteenth Surgeon General of the United States.
            Cordially,
      The Most Reverend Michael V. Seneco, SPSA, DD, L.Th.,
                                              Presiding Archbishop.
                                 ______
                                 
                                                      June 5, 2007.
Senator Edward M. Kennedy, Chairperson,
Committee on Health, Education, Labor, and Pensions,
Russell Senate Office Building, Room 317,
Washington, DC.
    Dear Senator Kennedy: I understand that you are the chair of the 
Senate Committee that will be reviewing the nomination of Dr. James 
Holsinger to be U.S. Surgeon General.
    Attached is a commentary on serious questions being raised about 
Dr. Holsinger's qualifications. They are based on reliable research.
    There are two questions about his integrity and qualifications:

    1. Dr. Holsinger claims to be a cardiologist without board 
certification.
    2. Dr. Holsinger is driven by personal views and has disregarded 
the sensitivities and insights of other persons, particularly as Chair 
of the Judicial Council of The United Methodist Church, The Judicial 
Council functions as a ``Supreme Court'' on interpretation of our Book 
of Discipline, the laws of our church. His partisan behavior in that 
position disqualifies him from being a Surgeon General for all persons.
    I ask you to argue against his appointment as Surgeon General.
    Thank you for your consideration.

                                               Roy I. Sano,
                      Executive Secretary, The Council of Bishops, 
                                       The United Methodist Church.
    Attachment.--Bush Taps Judicial Council Head for Surgeon General

                     (By Cynthia B. Astia, Editor)

                                UM NeXus
    President George W. Bush has nominated Dr. James W. Holsinger, Jr., 
68, currently president of the United Methodist Judicial Council, to 
become the Nation's 18th surgeon general.
    Holsinger's confirmation hearings will be held before the Senate 
Committee on Health, Education, Labor, and Pensions, chaired by Senator 
Ted Kennedy (D-MA). If confirmed, Holsinger will succeed Richard H. 
Carmona, who resigned at the end of his term in July 2006. At UM NeXus' 
deadline, no date had been set for the hearings because of Congress' 
Memorial Day recess.
    As word of the nomination spread, media outlets began raising 
questions about Holsinger's qualifications and past performance, along 
with questions of continued cronyism on the part of President Bush, as 
with his previous nominations of Harriet Miers for the Supreme Court 
and Alberto Gonzales as Attorney General.

                   ANATOMY, THE BIBLE AND REPUBLICANS

    A Kansas City, KS, native, Holsinger has a Ph.D., in anatomy and a 
medical degree from Duke University, along with a master's degree in 
hospital management from the University of South Carolina. He also has 
a master's degree in biblical studies from multidenominational Asbury 
Theological Seminary in Wilmore, KY.
    Although trained in general surgery and cardiology, and described 
in President Bush's announcement as a cardiologist, Holsinger has no 
national board certification in any speciality, according to the 
Website of the American Board of Medical Specialities.
    Holsinger currently holds the Wethington Chair in Health Sciences 
and serves as professor of preventive medicine at the University of 
Kentucky College of Public Health. Prior to his current UK post, 
Holsinger led the Commonwealth of Kentucky Cabinet for Health and 
Family Services from 2003 to 2005. Before that, he was chancellor of 
UK's A.B. Chandler Medical Center for 9 years, and directed the 
Veterans Affairs Medical Center in Lexington, KY, from 1993 to 1994.
    Altogether, Holsinger served with the Veterans Administration, 
renamed the Department of Veterans Affairs in 1989, from 1969 through 
1994. He rose to Chief Medical Director and Undersecretary of Health 
for the agency under President George H.W. Bush. Holsinger retired from 
the Army Reserve Medical Corps in 1993 with the rank of major general.
    Holsinger has been a consistent contributor to the Republican 
Party, according to Newsmeat.com. The Web site lists close to $17,000 
in contributions to the national Cheney, both fellow United Methodists, 
and Senate Minority Leader Mitch McConnell (R-KY).

                        STAUNCH ANTI-GAY LEADER

    In The United Methodist Church, Holsinger rose to national 
prominence through his membership on the 1989-92 churchwide Committee 
to Study Homosexuality. He resigned from the committee shortly before 
the 1992 General Conference in Louisville, KY, because he said the 
committee's report was ``skewed toward liberal interpretations'' of 
homosexual orientation and behavior. At the time, Holsinger declined 
the committee's invitation to be included in a minority report on the 
subject.
    Since that time, Holsinger has consistently supported forces in the 
denomination opposed to the acceptance of gay, lesbian, bisexual and 
transgender people. He has served previously on the board of the 
Indianapolis-based Confessing Movement within The United Methodist 
Church, a 15-year-old unofficial organization dedicated to ``preserving 
the apostolic faith,'' according to a statement on its Web site. 
Current Confessing Movement board members include Asbury Seminary 
chancellor Dr. Maxie Dunnam and layman David W. Stanley, also a 
director of the Institute on Religion and Democracy.
    Holsinger was elected to the Judicial Council at the 2000 General 
Conference in Cleveland, OH. He was nominated from the floor along with 
Judicial Council members Mary A. Daffin, an attorney from Houston, TX, 
and Rev. Keith D. Boyette of Spotsylvania, VA, in one of the most 
successful political campaigns launched by the combined forces of the 
Confessing Movement and the Good News caucus.
    During Holsinger's term on the Judicial Council, the church's 
``supreme court'' has ruled consistently against acceptance of 
homosexual people. In 2005, the council upheld the defrocking of Rev. 
Beth Stroud, a lesbian, affirming the church's prohibition against 
ordaining GLBT people. Also that year, the Judicial Council set off a 
wave of debate in the church by siding with a Virginia pastor who 
refused membership to an openly gay man in Decision 1032. Several 
annual conferences this year have adopted resolutions challenging the 
views expressed in Decision 1032.
    Holsinger currently serves in two other faith-based capacities, as 
treasurer of the World Methodist Council based in Lake Junaluska, NC, 
and as chairman of the Good Samaritan Foundation in Kentucky.

                     DEATHS AT VETERANS' HOSPITALS

    According to a 1991 New York Times report, congressional 
investigator Mary Ann Curran testified before a House subcommittee that 
she found shoddy care at veterans hospitals, including several cases 
during 1989 and 1990 in which incompetence and neglect led to the 
deaths of patients. Curran visited six hospitals and studied the 
records of another 30 facilities in her investigation.
    At the time, Holsinger testified to the House Government Operations 
Subcommittee on Human Resources and Intergovernmental Relations that 
the VA was ``obviously not perfect,'' but said that he had begun 
management changes intended to improve quality. At a briefing prior to 
the hearing, Holsinger denied that there were systemic problems in the 
Veterans Affairs' medical system.
    However, 3 months later, the government ruled that the unit 
Holsinger directed was responsible for 6 of 15 documented deaths at a 
North Chicago veterans' hospital. Veterans' Affairs subsequently 
negotiated confidential settlements with the patients' families.

                        POOR HEALTH IN KENTUCKY

    After a stint as chancellor of the medical center at the University 
of Kentucky, Holsinger was tapped in 2003 by Gov. Ernie Fletcher, also 
a physician, to serve as the commonwealth's secretary of health.
    Holsinger's term reached a low point in July 2005 when the 
Louisville Courier-Journal published a special report showing that 
Kentucky citizens had the worst health in the United States, primarily 
through poor individual health habits such as smoking, bad nutrition 
and lack of exercise. Kentucky ranked second worst nationally for 
cancer deaths, fifth worst for cardiovascular deaths and seventh worst 
for obesity, according to the paper.
    Major chronic diseases cost the Kentucky Medicaid program $611 
million for diabetes, $422 million for cancer, $372 million for 
coronary artery disease and $728 million for chronic obstructive 
pulmonary disease in the fiscal year ending June 2003.
    At the time of the Courier-Journal report, Holsinger said that 
Kentucky had ``some big mountains to climb'' in terms of promoting 
better health among its citizens. Although he is credited with 
initiating changes in the State's Medicaid system to save taxpayers 
money, Holsinger left his position halfway through his term, 5 months 
after the newspaper report, reportedly to spend more time with his 
family. He joined the teaching staff of the University of Kentucky 
College of Public Health.

                          $20 MILLION LAWSUIT

    While Holsinger's political and academic colleagues praised his 
nomination, United Methodist leaders in the Kentucky Annual Conference 
were notably silent. The frigid reception to Holsinger's nomination as 
Surgeon General most likely stems from a lawsuit still under way 
between the conference and the Good Samaritan Foundation that Holsinger 
chairs.
    In January, Holsinger, on behalf of the foundation, said he planned 
to launch a second appeal of a decision by Fayette Circuit Judge Gary 
Payne. The judge ruled in 2003 that the Kentucky Annual Conference is 
the rightful owner of an estimated $20 million from the foundation's 
1995 sale of Good Samaritan Hospital in Lexington, KY, to Columbia/HCA 
Healthcare Corp. The conference had filed suit in 2000, claiming it 
owned the hospital through its historic relationship with the 
foundation, which until Holsinger's chairmanship reported regularly to 
annual conference sessions, according to the Rev. Chris Morgan's blog, 
``Assembled Reflections.''
    Under Holsinger's leadership, the foundation put the $20 million 
into an endowment that typically provides $1 million in annual grants 
for health care and health education. Judge Payne has ruled the 
hospital was held in trust for the conference by the foundation, and 
that the Kentucky Conference rightfully owns the money. An appeals 
court upheld his ruling and returned the case to Payne, who last 
December reaffirmed his earlier decision and ordered the foundation's 
trustees to turn the money over to the conference. The appeal is still 
pending.

                          PRAISE AND CRITICISM

    Holsinger was unavailable for comment because the White House 
instructed the doctor and his wife, Barbara, not to talk with 
reporters, as is typical for a nominee prior to confirmation hearings.
    However, the Holsingers' enforced silence did not stop both friends 
and foes from discussing the doctor's nomination to serve as America's 
chief health educator.
    National Public Radio interviewed Holsinger's colleague, Dr. 
Stephen Wyatt, head of the University of Kentucky's College of Public 
Health. Wyatt commended Holsinger as ``a gentle man, with a sense of 
humor, but very serious'' about public health. Wyatt said Holsinger 
``cut through academic and financial barriers'' while chancellor of the 
university's health care center.
    The Rev. George Freeman, executive director of the World Methodist 
Council, told United Methodist News Service: ``This is an honor for Dr. 
Holsinger and a fitting acknowledgement of his competency as a 
physician, administrator, teacher and leader.''
    ``Dr. Holsinger is a proven leader who has dedicated his career to 
improving health education and services in Kentucky and across the 
Nation,'' Senate Minority Leader Mitch McConnell (R-KY) told the 
Louisville Courier-Journal. ``He is an excellent choice for surgeon 
general, and I look forward to his quick confirmation.'' [According to 
public records, Holsinger has given $1,500 to McConnell's campaigns 
since 2001].
    Meanwhile, the liberal site Buzzflash.com, after reporting on his 
past performance, sniped:

          ``Dr. Holsinger seems like a great choice for the VP to take 
        hunting, but he hardly seems like the best candidate out of all 
        the doctors in America to become our next surgeon general.''

    Also on Buzzflash, a reader who identified himself as a doctor 
wrote about Holsinger's lack of board certification: ``While this 
probably matters less for someone who has chosen to make their life as 
a political hack than someone who actually takes care of patients, this 
is certainly something of note. As a physician, I take it to mean that 
he is someone who didn't care enough about his clinical training to 
demonstrate competence according to national standards.''
    Ultimately, the questions about Holsinger's performance, 
qualifications and political connections may not hamper his Senate 
confirmation.
    The previous surgeon general, Dr. Richard Carmona, kept such a low 
profile that most people hardly knew his name compared to his more 
popular predecessors such as C. Everett Koop, Joycelyn Elders, a United 
Methodist from Arkansas, and David Satcher, formerly president of UMC-
related Meharry Medical School in Nashville, TN.
    Carmona, like Holsinger, has a controversial past. Among 
allegations about Carmona made during his confirmation hearing: he was 
an ineffective personnel manager, he had required three attempts to 
pass the board certification test for general surgery and he 
misrepresented the number of hours he actually had worked in the 
emergency room on an application for an emergency medicine board 
certification.
    As a result, the consumer group Public Citizen opposed Carmona's 
nomination, but the Senate dismissed the allegations against him, and 
he was confirmed unanimously.
                                 ______
                                 
                         Cambridge Health Alliance,
                                             Cambridge, MA.
Senator Edward M. Kennedy,
Committee on Health, Education, Labor, and Pensions,
Hart Senate Building,
Washington, DC. 20510.

Sandra M. Gallardo,
Senior Counsel, Oversight & Investigations.
    Dear Ms. Gallardo: I have been asked to respond to the paper by Dr. 
James W. Holsinger, Jr., entitled: ``Pathophysiology of Male 
Homosexuality,'' written in 1991 for the Committee to Study 
Homosexuality of the United Methodist Church. For the record, I am an 
Associate Professor of Psychiatry at Harvard Medical School and the 
Director of Adult Psychiatry Residency Training at the Cambridge Health 
Alliance, one of the Harvard Medical School residency programs in the 
Department of Psychiatry. I have been studying gender and sexuality for 
over 25 years and have written on this topic and taught sexuality at 
professional association annual meetings for many years.
    At the outset, before I list the specific objections to this paper, 
let me state that current scientific thinking about sexuality in 
general, and the development of homosexuality in particular has 
continued to shift since 1991 to a more affirmative model of sexual 
identity development, with every major medical and mental health 
professional association now considering homosexuality as a normal 
variant of human sexual development. There is no scientific evidence 
that homosexual orientation itself is pathological, and the Diagnostic 
and Statistical Manual of Mental Disorders removed homosexuality from 
the nomenclature in 1973.
    Thus, my comments that follow are based on the fact that this paper 
would not pass muster as a medical piece of writing, This is NOT a 
scientific piece of writing. Without a doubt, this would never be 
published in a peer review journal. It is inaccurate, unsupported by 
current research findings, and draws conclusions which are illogical at 
best. As a reviewer of refereed journals, I can say that this would not 
even be considered for review by any of the mainstream medical 
journals.
    That being said, the very title of the paper does not make sense. 
The title suggests the paper will explore the scientific 
(pathophysiology) of male homosexuality. This is not at all what the 
paper does, nor does it use the word pathophysiology as it is used in 
science:

          ``Pathophysiology is the study of the disturbance of normal 
        mechanical, physical, and biochemical functions, either caused 
        by a disease, or resulting from a disease or abnormal syndrome 
        or condition that may not qualify to be called a disease.''

    Two problems exist: (1) none of the existing medical associations 
(American Psychiatric association, AMA, American Association of 
Pediatrics, OBGYN) and (2) none of the mental health associations 
(American Psychological Association, National Association of Social 
Workers) consider homosexuality a ``disease of abnormal syndrome'' and 
therefore the word ``pathophysiology'' is inaccurate. Furthermore, it 
is not appropriate for a physician to express a personal opinion, which 
in this case rests on religious principles rather than science, to 
misuse a medical term.
    The entire article rests on an assumption that somehow because we 
do not have a cloaca, but have separate alimentary and genitourinary 
tracts, that there is something inherently wrong with anal sex, 
although it is practiced by all populations throughout the world. 
Following this logic, oral sex, which uses the alimentary tract, would 
also be ``abnormal'' making the vast majority of humans diagnosable as 
``abnormal,'' including heterosexuals who engage at least as frequently 
in oral sex as homosexual men.
    Furthermore, if the principle that one orifice be used only for the 
expressed purpose, it would follow logically that those who eat with 
their mouths should refrain from talking with them as well, a very 
distinct and biologically developed function as well.
    The entire premise of this paper is based on the blaming of sexual 
orientation for physical illness associated with biological organisms 
passed from person to person. Kissing transmits infectious agents all 
the time, as do almost all types of human intimate contact. The 
participation of a relatively small number of people in more fringe 
sexual behavior does not justify the determination that the sexual 
orientation itself is pathological. After all, from a purely 
statistical point of view, heterosexuality is responsible for 95 
percent of HIV cases in the world, through so called ``normal 
heterosexual behavior.'' The author also confuses sexual lifestyle 
which may enhance the risk for certain sexually transmitted diseases 
with sexual orientation. The articles quoted are taken out of context.
    One might even make the point that the marginalization of 
homosexuality oriented people promotes the development of 
counterculture behavior. Two gay men, for example, in a mutually 
monogamous relationship arc at less risk for STD's than heterosexuals 
with multiple partners. This then reduces the authors point to the 
basics; he is opposed to anything but a sanctified, monogamous 
heterosexual relationship in which penile vaginal intercourse is the 
ONLY permissible behavior to preserve his principle that one organ can 
only be used for one purpose.
    He further conflates historical use of the words male and female to 
a discussion of ``pipe fittings.'' For thousands of years people 
believed the earth was the center of the universe and that the earth 
was flat. We still talk about the ``Salt Lake Flats, or as flat as 
Nebraska'' when in fact we can not simply discern with the human eye 
the ever so minimal curvature of the earth which is scientifically now 
known.
    To reduce a discussion of the complexity of human sexuality to a 
discussion of pipe fittings is hardly a scientific argument supported 
by either research or logic.
    Homosexuality is known in almost all species and cultures across 
throughout recorded time. Cave drawings, ancient paintings, have all 
indicated homosexual behavior in many cultures and religions. This 
author is conflating Christian religious doctrine with science, a 
shameful excuse for the lack of scientific understanding. The author 
conveniently leaves out the evidence that so called ``primitive 
cultures'' knew about the separation of the alimentary and reproductive 
systems--and yet there is much evidence to show that homosexual 
behavior and anal sex between men and women occurred and continues to 
occur frequently, with estimates of anal intercourse ranging from 5-40 
percent.
    This is not a scientific paper. It is an opinion piece by a 
physician who has allowed personal religious beliefs to distort what 
the body of scientific literature provides as our best understanding to 
date of the great range of human gender identity and sexual orientation 
development. The prevalence of homosexuality and the current knowledge 
of the interplay of genetics, early development and complex biological 
events in human development suggest that homosexual orientation is a 
normal variant of the human condition.
    Please let me know if I can be of further help in elucidating the 
issues above.
            Respectfully submitted,
                                   Marshall Forstein, M.D.,
         Associate Professor of Psychiatry, Harvard Medical School,
                     Director, Adult Psychiatry Residency Training.
                                 ______
                                 
               National Gay and Lesbian Task Force,
                                             June 14, 2007.
Senator Edward Kennedy, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC. 20510.
    Dear Senator Kennedy: On behalf of the National Gay and Lesbian 
Task Force--the oldest national organization advocating for the rights 
of lesbian, gay, bisexual and transgender (LGBT) people--we urge you to 
oppose the nomination of Dr. James Holsinger to be the Surgeon General 
of the United States. His record on LGBT issues causes us serious 
concern.
    In 1991, in his capacity as a medical professional, Dr. Holsinger 
authored a troubling report filled with misconceptions and medical 
inaccuracies. In a paper prepared for the Committee to Study 
Homosexuality of the United Methodist Church, Dr. Holsinger argued that 
male homosexuality is an abnormal function, a theory considered 
unscientific by the medical community. Dr. Holsinger has also supported 
reparative therapy, another theory discredited by mainstream medical, 
psychiatric and psychological communities, including the American 
Medical Association and the American Psychiatric Association. This 
record indicates that Dr. Holsinger is unable to separate ideology from 
science.
    As America's doctor, the Surgeon General is required to consider 
the health interests of all Americans. Dr. Holsinger's record shows 
that his own biases will not allow him to look objectively at 
scientific information. Consequently, he is not qualified to be Surgeon 
General and we call upon the Senate to promptly reject his nomination. 
Please feel free to contact Becky Dansky, Federal Legislative Director, 
at (202) 639-6315 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e785838689948c9ea7938f829386948c8188958482c9889580">[email&#160;protected]</a> if you have any 
questions.
            Sincerely,
                                              Matt Foreman,
                                                Executive Director.
                                 ______
                                 
                                              June 4, 2007.
 Human Rights Campaign<SUP>'</SUP>--Working for Lesbian, Gay, Bisexual 
                      and Transgender Equal Rights
  holsinger's anti-gay views make him ``unworthy'' of surgeon general 
                                  post
(``It is essential that America's top doctor value sound science over 
anti-gay ideology,'' said Human Rights Campaign President Joe 
Solmonese.)

    Washington.--The Human Rights Campaign spoke out today in 
opposition to President Bush's nomination of Dr. James Holsinger to the 
position of Surgeon General. Among other things, the U.S. Surgeon 
General is charged with educating Americans about public health.
    ``Dr. Holsinger has a record that is unworthy of America's 
doctor,'' said Human Rights Campaign President Joe Solmonese. His 
writings suggest a scientific view rooted in anti-gay beliefs that are 
incompatible with the job of serving the medical health of all 
Americans. It is essential that America's top doctor value sound 
science over anti-gay ideology.
    In a document titled Pathophysioloqy of Male Homosexuality, 
Holsinger opined, in his capacity as a physician, that biology and 
anatomy precluded considering gay, lesbian, bisexual and transgender 
equality in his denomination. The opinion very clearly states that this 
is his scientific view, stating that theological views are separate.
    Additionally, Holsinger and his wife were founders of Hope Springs 
Community Church which, according to the church's pastor, ministers to 
people who no longer wish to be gay or lesbian. The pastor, the Rev. 
David Calhoun, said that the church has an ``ex-gay'' ministry. ``We 
see that as an issue not of orientation but a lifestyle,'' Calhoun 
said. ``We have people who seek to walk out of that lifestyle.'' This 
type of ``ex-gay'' conversion therapy has been condemned by almost 
every major, reputable medical organization--including the American 
Psychological Association, which issued a condemnation more than 10 
years ago.
    ``Although the church's theology isn't being nominated, this 
discredited practice purports to be a psychological and medical 
service, and if Dr. Holsinger is involved in any way, it conflicts with 
his duty to accept and promote sound science in the interest of public 
health,'' continued Solmonese.
    ``We are hopeful that during the hearing process Congress will 
fully examine Dr. Holsinger's background and part of that examination 
will include issues affecting our community, including his stance on 
conversion therapy. Too often, we have seen President Bush send 
nominees to Congress that have proven their inability to separate their 
personal beliefs from their professional duties. As the Nation's chief 
medical doctor, the Office of Surgeon General is an extremely important 
position that has an impact on the lives of gay and lesbian Americans 
and the hearing process should involve a discussion about where Dr. 
Holsinger stands on medical issues relating to our community,'' 
Solmonese concluded.

    (The Human Rights Campaign is America's largest civil rights 
organization working to achieve gay, lesbian, bisexual and transgender 
equality. By inspiring and engaging all Americans, HRC strives to end 
discrimination against GLBT citizens and realize a nation that achieves 
fundamental fairness and equality for all.)
                                 ______
                                 
                                              June 5, 2007.
             Truth Wins Out.--Holsinger Does Too Much Harm

                            (By Wayne Besen)

    With an approval rating hovering at Nixonian levels and Rush 
Limbaugh firing spitballs from the right over immigration, it didn't 
take a brain surgeon to guess that George W. Bush would try to appease 
conservatives by nominating a Neanderthal for Surgeon General.
    Out from the cave ambled James W. Holsinger, the most homophobic 
doctor since Isaiah Washington--the Grey's Anatomy's star who had to go 
to rehab for dropping F-bombs. But Washington was a make believe 
doctor, while Holsinger is very real and has the potential to inflict 
great harm on the GLBT community.
    The Lexington Herald-Leader reported that Holsinger started Hope 
Springs Community Church in Kentucky. Rev. David Calhoun, the pastor of 
the big aluminum trailer church said that Hope Springs has an ``ex-
gay'' ministry.
    ``We see that as an issue not of orientation but a lifestyle,'' 
Calhoun said. ``We have people who seek to walk out of that 
lifestyle.''
    Holsinger also served on the Judicial Council for the United 
Methodist Church where he opposed a decision to allow a lesbian to be 
an associate pastor. He was even so extreme that he endorsed a pastor 
who tried to prohibit an openly gay man from joining a church.
    Clearly, Holsinger is an ideologue whose medieval medical views on 
gay and lesbian people resemble sorcery more than sound science. The 
last thing America needed was another deplorable nominee who isn't up 
to the job, but this is exactly what Bush delivered.
    When this Nation required a humble Secretary of Defense--we got 
Rumsfeld. When we wanted a legal scholar at the Justice Department, we 
got the ``tort-meister of torture,'' Alberto Gonzales. When a soothing 
voice was necessary to repair America's tattered image, Bush sent John 
Bolton--a man with the diplomatic touch of Napalm--to the United 
Nations. Now, Bush is poised to make us the laughingstock of the world 
by nominating Dr. Discrimination as the Nation's top doctor.
    It appears Holsinger is the latest example of affirmative action 
for religious zealots in the Bush administration. The President has 
stocked the ranks with fundamentalist Christian cronies, such as Monica 
Goodling, whose only notable achievement was covering a naked statue at 
the Justice Department with a drape. Indeed, The Boston Globe reported 
in May that 150 Regent University alumni had been hired to Federal 
Government positions since Bush took office in 2001. That's right, the 
fate of our Nation has been put in the hands of graduates of Pat 
Robertson U.
    Of course, the fact that Holsinger is a person of faith is not the 
problem. The issue is his archaic views about gay and lesbian people 
that are rejected by every respected medical and mental health 
organization in America. Just because he is religious does not give 
Holsinger a ``get out of reality free card'' when it comes to outdated 
ideas that are incompatible with modern medicine. There are many highly 
qualified people of faith Bush could have nominated who choose to live 
in the 21st Century and reject religion-based discrimination--but he 
elected to nominate a retrograde relic who must be defeated in the 
Senate.
    Holsinger's nomination has drawn howls from my organization, Truth 
Wins Out, as well as the Human Rights Campaign, The National Gay and 
Lesbian Task Force, SoulForce and the Gay and Lesbian Anti-Violence 
Project in Boston. This chorus of heated opposition will only grow in 
the coming weeks, as people learn more about Holsinger.
    ``For the last 20 years, James Holsinger has been the worst kind of 
bully inside the United Methodist Church,'' said Rev. Troy Plummer, 
Executive Director of Reconciling Ministries Network of United 
Methodists. ``As a member of a sexuality study team in 1991, he used 
his position as a medical doctor to promote skewed and inaccurate 
information regarding gay men.''
    Holsinger's nomination will go before the U.S. Senate Committee on 
Health, Education, Labor, and Pensions, chaired by Senator Edward M. 
Kennedy (D-Mass.) Presidential candidates Senators Barack Obama (D-IL), 
Hillary Clinton (D-NY) and Christopher Dodd (D-CT) sit on this 
committee. It will be interesting to see what they do about this 
troubling nomination and if they ask Holsinger questions about his 
anti-gay activities.
    These Senators must be made to understand how deeply offensive this 
nomination is for GLBT people. Our history is littered with those who 
endured shock treatment, lobotomies and other forms of torture in the 
name of medicine. At Truth Wins Out, I often deal with victims of ``ex-
gay'' psychological abuse who are scarred for life by people who 
operate ministries--like the one reportedly run by Holsinger's church.
    If doctors live by the dictum ``first do no harm,'' Holsinger in no 
way can reconcile his suitability for Surgeon General, with the often-
catastrophic consequences caused by ``ex-gay'' programs.
                                 ______
                                 
                                              June 6, 2007.
 Soulforce* Issues Statement on the Nomination of Dr. James Holsinger 
                          for Surgeon General
 international conference june 29--july 1 to address ex-gay ministries
    (Austin, TX--Soulforce today expressed deep concern over the 
nomination of Dr. James Holsinger for United States Surgeon General.)

    ``As the leading spokesperson for matters of public health, the 
Surgeon General should be guided by sound medical science, not anti-gay 
views rooted in religion-based bigotry,'' said Soulforce Executive 
Director Jeff Lutes.
---------------------------------------------------------------------------
    * Soulforce is a national civil rights and social justice 
organization. Our vision is freedom for lesbian, gay, bisexual, and 
transgender people from religious and political oppression through the 
practice of relentless nonviolent resistance. For more information go 
to www.soulforce.org.
---------------------------------------------------------------------------
    Dr. Holsinger is the current president of the United Methodist 
Judicial Council. As a member of the council, he opposed the 2004 
decision to allow Rev. Karen Dammann, a lesbian, to continue serving as 
a minister. He also upheld the 2004 defrocking of Rev. Beth Stroud, 
another lesbian minister, and sided with a Virginia pastor who denied 
church membership to an openly gay man. Soulforce stood in solidarity 
at the trials of Rev. Dammann and Rev. Stroud, challenging the unjust 
policy that bars gay men and lesbians from ordination in the United 
Methodist Church and the false doctrine that homosexuality is 
``incompatible with Christian teaching.''
    Holsinger co-founded Hope Springs Community Church, in Lexington, 
Kentucky, which operates an ``ex-gay'' ministry aimed at changing 
homosexuals to heterosexuals. Recent events have brought national 
attention to the existence of programs intended to modify same-sex 
desires, which continue to multiply in spite of the consensus of the 
major medical and mental health organizations that sexual orientation 
is not a disorder and is, therefore, not in need of a cure. The 
American Psychological Association identifies ``depression, anxiety, 
and self-destructive behavior'' among the possible risks associated 
with ex-gay therapies.
    Later this month, on June 29-July 1, Soulforce will sponsor an 
international convention in Irvine, California, for those who have 
attended ex-gay ministries or reparative therapy, but ultimately 
concluded that the programs did more harm than good. The Ex-Gay 
Survivor Conference will feature the testimonies of former ``ex-gays,'' 
including men and women who founded and directed ex-gay programs but 
are now speaking publicly about the injury the programs can cause. For 
more information about the conference, go to www.soulforce.org/article/
1226.
    Soulforce Executive Director, Jeff Lutes, is a licensed 
psychotherapist in private practice and has treated dozens of victims 
of so-called ``ex-gay ministries'' and ``reparative therapy.'' In a 
statement released Wednesday, Lutes said ``America doesn't need a 
Surgeon General who supports ``reparative therapy'' and anti-gay dogma 
masquerading as science. If Holsinger bars gays and lesbians from his 
own church, how will he treat them as the Nation's chief physician? 
What America needs now is some ``reparative theology''--a force of 
fair-minded people of faith who will take an unwavering stand against 
religion gone bad and choose instead to welcome and affirm gay and 
lesbian people into full citizenship.
                                 ______
                                 
                                             July 11, 2007.
              SIECUS Opposes Holsinger for Surgeon General

           PREJUDICE AND BIAS MAKE NOMINEE UNFIT FOR POSITION

    Washington, DC.--The Sexuality Information and Education Council of 
the United States (SIECUS) today announced its opposition to the 
nomination of Dr. James W. Holsinger for the post of U.S. Surgeon 
General. Dr. Holsinger's confirmation hearings are taking place 
tomorrow in front of the U.S. Senate Committee on Health, Education, 
Labor, and Pensions.
    ``Dr. Holsinger has a record showing prejudice towards and bias 
against gays and lesbians,'' said William Smith, vice president for 
public policy at SIECUS. ``HIV/AIDS continues to be a devastating 
public health epidemic, heavily impacting the gay community. Dr. 
Holsinger's efforts to put a scientific veneer on his prejudices puts 
his ability to advocate for the better health of all those living with 
and at risk for HIV/AIDS into serious question.''
    Dr. Holsinger is a member of the United Methodist Judicial Council, 
the denomination's ``Supreme Court.'' In his role on the Council, Dr. 
Holsinger opposed a decision to allow a lesbian to be an associate 
pastor and supported a pastor who would not permit an openly gay man to 
join the church. More disturbingly, as a member of the United Methodist 
Church's Committee to Study Homosexuality, Dr. Holsinger authored a 
paper titled ``Pathophysiology of Male Homosexuality,'' in which he 
equates homosexuality with disease and argues that homosexuality runs 
counter to anatomical and physiological truths. His record also shows 
his support for reparative therapy to ``cure'' gays and lesbians, an 
approach widely discredited by mainstream medical and scientific 
organizations.
    The hearing falls only 2 days after an appearance by former Surgeon 
General Richard H. Carmona before the House Oversight and Government 
Reform Committee. In his testimony Dr. Carmona said that officials 
within the Bush administration time and time again had made decisions 
on public health issues based on politics, not science, including 
dismissing global warming as a liberal cause and working to suppress a 
report on the dangers of second-hand smoke. Dr. Carmona was also 
suppressed when he tried to promote sex education that included 
discussions of contraceptives because such programs have been 
scientifically proven to be effective. ``However, there was already a 
policy in place that did not want to hear the science but wanted to 
preach abstinence only, but I felt that was scientifically incorrect,'' 
Carmona said.
    ``Given the testimony of the former Surgeon General, we see even 
more clearly the urgent need to have a candidate for this position who 
will not sacrifice the public health for political considerations and 
who will not kowtow to the Bush administration's ideological agenda,'' 
continued Smith. ``We need a Surgeon General who is committed to 
science, not anti-gay bigotry that clouds and distorts scientific 
judgment.''
    If Dr. Hoslinger is confirmed, the government risks further 
marginalizing and stigmatizing gay people, which will hinder its 
ability to effectively battle the U.S. HIV/AIDS epidemic.
    For more information, please contact Patrick Malone at (212) 819-
9770 ext. 316 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b5b464a4744454e6b58424e485e580544594c05">[email&#160;protected]</a>
                                 ______
                                 
               Society for Public Health Education,
                                           Washington, DC.,
                                                     July 11, 2007.
Hon.  Edward Kennedy,
U.S. Senate,
317 Russell Senate Office Bldg.,
Washington, DC. 20510.

Hon.  Michael Enzi,
U.S. Senate,
379 Russell Senate Office Bldg.,
Washington, DC. 20510.
    Dear Chairman Kennedy and Ranking Member Enzi: President George W. 
Bush has nominated Dr. James Holsinger, Jr., to become the next U.S. 
Surgeon General. In the May 24th White House press release announcing 
his nomination, Dr. Holsinger was described as ``America's chief health 
educator'' (http://www.whitehouse.gov/newsreleases/2007/05/20070524-
2.html).
    The Society for Public Health Education (SOPHE), which represents 
more than 4,000 health education specialists, has serious reservations 
about his nomination, particularly given his past record with regard to 
gay, lesbian, bisexual and transgender (LBGT) populations. We are 
writing to strongly urge you to address this issue during his 
nomination hearing before the Senate Health, Education, Labor, and 
Pensions Committee this week.
    The U.S. Surgeon has responsibility to:

    <bullet> Protect and advance the health of the Nation through 
educating the public; advocating for effective disease prevention and 
health promotion programs and activities; and, provide a highly 
recognized symbol of national commitment to protecting and improving 
the public's health.
    <bullet> Articulate scientifically based health policy analysis and 
advice to the President and the Secretary of Health and Human Services 
(HHS) on the full range of critical public health, medical, and health 
system issues facing the Nation. (http://www.surgeongeneral.gov/).

    The U.S. Surgeon General also has responsibility for overseeing the 
accomplishment of the DHHS Objectives for the Nation. Healthy People 
2010: Objectives for the Nation recognizes the need to eliminate health 
disparities, regardless of race/ethnicity, gender, sexual orientation, 
geographic location, income level, and other factors. Healthy People 
2010 also clearly states that all people are entitled to the same level 
of health and the best health outcomes that can be achieved. \1\
    SOPHE has serious reservations about whether Dr. Holsinger will 
vigorously pursue the Healthy People objectives related to LBGT persons 
given his past public record.
    Dr. Holsinger was described in the June 2007 United Methodist Nexus 
as a ``[s]taunch anti-gay leader . . . [who] has consistently supported 
forces in the denomination opposed to the acceptance of gay, lesbian, 
bisexual and transgender people.'' \2\
    The same article states that Dr. Holsinger helped establish the 
Hope Springs Community Church, which operates a program for gays and 
lesbians, who ``seek to walk out of that lifestyle.'' The American 
Psychological Association (http://www.apa.org/pi/lgbc/policy/
diagnoses.html), the American Medical Association (http://www.ama-
assn.org/ama/pub/category/14847.html), and many other scientific 
authorities do not support therapies or treatments whose purpose it is 
to ``convert'' people to heterosexuality.
    Three years ago, as one of nine members of the Judicial Council of 
the United Methodist Church, Dr. Holsinger voted to expel a lesbian 
associate pastor from the clergy. In 2006, as president of the Council, 
he voted to support a pastor who blocked a gay man from joining his 
congregation.
    Dr. Holsinger also wrote a report in 1991 for the United Methodist 
Church with the title ``Pathophysiology of Male Homosexuality.'' \3\ 
The report has been widely criticized for misrepresenting scientific 
evidence and wrapping Dr. Holsinger's biases and prejudices toward GBLT 
people in the cloak of pseudoscience.
    Thus, SOPHE urges you to pursue the following questions with Dr. 
Holsinger during his hearing related to the U.S. Surgeon General's 
responsibility to promote and protect the health of all people, 
including LBGT populations.
                                 ______
                                 
    Questions Submitted by the Society for Public Health Education 
                           for Dr. Holsinger
    Openly lesbian, gay, bisexual, or transgender (LGBT) people risk 
being considered ``sinful, immoral, repugnant, and abhorrent'' by some 
health care providers.\4\

    Question 1. As U.S. Surgeon General, will you advocate for greater 
understanding and tolerance of LGBT patients by all health 
professionals? Will you advocate for public health and health care 
policy based on scientific evidence and not on religious beliefs or 
ideology?

    Insurance companies, businesses, government institutions, 
hospitals, and health clinics often deny LGBT families the same 
privileges granted to married heterosexual couples and families. These 
barriers are impediments to access to health care and to honest 
disclosure of identity necessary for the provision of quality health 
care.\5\

    Question 2. As U.S. Surgeon General, will you advocate for 
increased protection of LGBT people against discrimination based upon 
sexual orientation in matters of health care access, employment, 
housing, and public services?

    Approximately 20 to 30 percent of LGBT youth attempt suicide 
compared to 10 percent of the general adolescent population.\6\ \7\ 
LGBT youth, despite their proportionately smaller number, account for 
up to 30 percent of completed suicides each year.\6\

    Question 3. As U.S. Surgeon General, how will you address the 
public health problem of suicide for LBGT youth? How will you address 
stigmatization of LBGT youth and advocate for better mental health care 
for LGBT youth?

    Young lesbians (under the age of 35) across all education levels 
are less likely to receive Pap smears relative to the general U.S. 
population, with percentages of lesbians receiving Pap smears ranging 
from 37 percent to 52.1 percent compared to 70.2 percent or 76.2 
percent for heterosexual women.\8\ Lesbian and bisexual women are more 
likely to use tobacco and consume more alcohol than the general female 
population.\9\ \10\
    After 15 years of HIV prevention efforts, rates of new HIV 
infection of gay men in San Francisco and other AIDS epicenters are 
increasing, along with alarming rates of infections in urban African-
American men who have sex with men.\11\ Gay males are at higher risk 
for lung cancer and heart disease than heterosexual males due to higher 
rates of smoking. Gay bisexual men are at increased risk for anal 
cancer, non-Hodgkin's lymphoma, and Hodgkin's disease.\12\

    Question 4. If appointed as U.S. Surgeon General, how will you 
address the issues of HIV/AIDS, smoking, cancer and, other major health 
problems among LGBT populations?

    We request that you and other members of the Senate Health, 
Education, Labor, and Pensions Committee ask these questions of Dr. 
Holsinger during his testimony. And we further request that you 
carefully evaluate whether his responses to these important health 
policy and health care questions are direct, candid, and convincingly 
positive.
    As ``America's chief health educator,'' the U.S. Surgeon General 
must pursue the health and well-being of all people, regardless of 
their sexual orientation, gender, race/ethnicity, geographic location, 
income level, or other factors.
    Thank you very much for your consideration of this matter and for 
your commitment to protecting and defending all people of this Nation.
            Sincerely,
                             Elizabeth H. Howze, ScD, CHES,
                    President, Society for Public Health Education.
                               References
    1. U.S. Department of Health and Human Services (2000). Healthy 
People 2010. Washington, DC.: U.S. Government Printing Office.
    2. Astle, Cynthia B. (June 2007). ``Bush Taps Judicial Council Head 
for Surgeon General,'' United Methodist Nexus, June 2007, (http://
www.umnexus.org/commentary.php?Article=347).
    3. Holsinger, J.W. (1991). ``Pathophysiology of male 
homosexuality.'' Unpublished manuscript prepared for the Committee to 
Study Homosexuality of the United Methodist Church. (http://
www.tugsa.net/holsinger.homosexuality.pdf, Appendix A).
    4. Ungvarski, P.J., & Grossman, A.H. (1999). Health problems of gay 
and bisexual men. Nursing Clinics of North America, 34(2), 313-331.
    5. O'Hanlan, K., Cabaj, R.B., Schatz, B., Lock, J., & Nemrow, P. 
(1997). A review of the medical consequences of homophobia with 
suggestions for resolution Journal of the Gay and Lesbian Medical 
Association, 1(1): 25-40.
    6. Harrison, A.E. (1996). Primary care of lesbian and gay patients: 
Educating ourselves and our students. Family Medicine, 28(1), 10-20.
    7. Baker, J.A. (1993). Is homophobia hazardous to lesbian and gay 
health? American Journal of Health Promotion, 7(4), 255-256, 262.
    8. Diamant, A.L., Wold, C., Spritzer, BA., Gelberg, L. (2000). 
Health behaviors, health status, and access to and use of health care: 
a population-based study of lesbian, bisexual, and heterosexual women. 
Archives of Family Medicine, 9: 1043-51.
    9. Diamant, A.L., Schuster, M.A., & Lever, J. (2000). Receipt of 
preventive health care services by lesbians. American Journal of 
Preventive Medicine, 19(3), 141-148.
    10. Valanis, B., Bowen, D.J., Bassford, T., Whitlock, E., Chaney, 
P., and Carter, R. (2000). Sexual orientation and health: Comparison in 
the women's health initiative samples. Archives of Family Medicine, 
9:843-853.
    11. Laird C (2001). HIV infections on rise in S.F. Bay Area 
Reporter. January 25.
    12. Koblin, B.A., Hessol, N.A., Zauber, A.G., Taylor, P.E., 
Buchbinder, S.P., Katzh, M.H., & Stevens, C.E. (1996). Increased 
incidence of cancer among homosexual men, New York City and San 
Francisco, 1978-1990. American Journal of Epidemiology, 144:916-923.

    [Whereupon, at 12:00 p.m., the hearing was adjourned]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
